<html>
<title> - STEROIDS IN SPORTS: CHEATING THE SYSTEM AND GAMBLING YOUR HEALTH</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    STEROIDS IN SPORTS: CHEATING THE
                    SYSTEM AND GAMBLING YOUR HEALTH

=======================================================================

                             JOINT HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                and the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2005

                               __________

                           Serial No. 109-65

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
99-915                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

      James D. Barnette, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JAN SCHAKOWSKY, Illinois
NATHAN DEAL, Georgia                   Ranking Member
BARBARA CUBIN, Wyoming               MIKE ROSS, Arkansas
GEORGE RADANOVICH, California        EDWARD J. MARKEY, Massachusetts
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania        SHERROD BROWN, Ohio
MARY BONO, California                BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE FERGUSON, New Jersey            TED STRICKLAND, Ohio
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
C.L. ``BUTCH'' OTTER, Idaho          JIM DAVIS, Florida
SUE MYRICK, North Carolina           CHARLES A. GONZALEZ, Texas
TIM MURPHY, Pennsylvania             TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee          JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                  (ii)

                                     

                                     

                                     

                                     

                                     

                         Subcommittee on Health

                     NATHAN DEAL, Georgia, Chairman

RALPH M. HALL, Texas                 SHERROD BROWN, Ohio
MICHAEL BILIRAKIS, Florida             Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
CHARLIE NORWOOD, Georgia             FRANK PALLONE, Jr., New Jersey
BARBARA CUBIN, Wyoming               BART GORDON, Tennessee
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOHN B. SHADEGG, Arizona             ANNA G. ESHOO, California
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          TED STRICKLAND, Ohio
STEVE BUYER, Indiana                 DIANA DeGETTE, Colorado
JOSEPH R. PITTS, Pennsylvania        LOIS CAPPS, California
MARY BONO, California                TOM ALLEN, Maine
MIKE FERGUSON, New Jersey            JIM DAVIS, Florida
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
SUE MYRICK, North Carolina           JOHN D. DINGELL, Michigan,
MICHAEL C. BURGESS, Texas              (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                 (iii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Birch, Adolpho, Counsel for Labor Relations, National 
      Football League............................................    69
    Coonelly, Francis X., Senior Vice President, Major League 
      Baseball...................................................    97
    Goldberg, Linn, Professor of Medicine, Division of Health 
      Promotion and Sports Medicine, Oregon Health and Science 
      University.................................................    29
    Hale, Ralph W., Chairman, United States Anti-doping Agency...    66
    Hooton, Donald M.............................................    24
    Kanaby, Robert F., Executive Director, National Federation of 
      State High School Associations.............................    34
    Ryun, Hon. Jim, a Representative in Congress from the State 
      of Kansas..................................................    17
    Wilfert, Mary E., Chief Liaison, Committee on Competitive 
      Safeguards and Medical Aspects of Sports, the National 
      Collegiate Athletic Association............................   101
    Worth, Sandra, Head Athletic Trainer, University of Maryland, 
      on behalf of the National Athletic Trainers Association....    39
    Yesalis, Charles E., Pennsylvania State University...........    44
Additional material submitted for the record:
    Birch, Adolpho, Counsel for Labor Relations, National 
      Football League, response for the record...................   117
    Coonelly, Francis X., Senior Vice President, Major League 
      Baseball, response for the record..........................   118
    Hale, Ralph W., Chairman, United States Anti-doping Agency, 
      response for the record....................................   119
    Kanaby, Robert F., Executive Director, National Federation of 
      State High School Associations, response for the record....   120
    Wilfert, Mary E., Chief Liaison, Committee on Competitive 
      Safeguards and Medical Aspects of Sports, the National 
      Collegiate Athletic Association, response for the record...   121
    Worth, Sandra, Head Athletic Trainer, University of Maryland, 
      on behalf of the National Athletic Trainers Association, 
      response for the record....................................   123
    Yesalis, Charles E., Pennsylvania State University, response 
      for the record.............................................   124

                                  (v)

  


    STEROIDS IN SPORTS: CHEATING THE SYSTEM AND GAMBLING YOUR HEALTH

                              ----------                              


                        THURSDAY, MARCH 10, 2005

        House of Representatives, Committee on Energy and 
            Commerce, Subcommittee on Commerce, Trade, and 
            Consumer Protection, and Subcommittee on 
            Health,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:34 a.m., 
in room 2123 of the Rayburn House Office Building, Hon. Cliff 
Stearns (chairman) presiding.
    Members present Subcommittee on Commerce, Trade, and 
Consumer Protection: Representatives Stearns, Upton, Deal, 
Radanovich, Bass, Ferguson, Myrick, Murphy, Blackburn, Barton 
(ex officio), Schakowsky, Brown, and DeGette.
    Members present Subcommittee on Health: Representatives 
Deal, Upton, Gillmor, Shimkus, Buyer, Ferguson, Myrick, 
Burgess, Barton (ex officio), Waxman, and DeGette.
    Staff present: David Cavicke, chief counsel; Chris Leahy, 
policy coordinator; Brian McCullough, professional staff; Ryan 
Long, professional staff; Will Carty, professional staff; Chuck 
Clapton, chief counsel; Jon Tripp, deputy press secretary; 
Billy Harvard, clerk; Jonathan Cordone, minority counsel; John 
Ford, minority counsel; Jessica McNiece, research assistant; 
and David Vogel, staff assistant.
    Mr. Stearns. Good morning, everybody. We are going to not 
start the committee until after the journal vote, and the 
swearing in of the new gentlelady from California. So, we will 
just be back probably in about 25 minutes, 20 to 25 minutes, so 
I seek your indulgence here, and your patience. Thank you.
    [Brief recess.]
    Mr. Stearns. Good morning. The subcommittee, the joint 
hearing between Health and the Commerce, Consumer Protection, 
and Trade, will come to order.
    I have talked to the Ranking Member Schakowsky, and she 
agreed that we could go ahead, even though the swearing in is 
not complete. In fact, it is in the midst, because we do have a 
hearing, the Telecommunications, using the same room, later--
early this afternoon, so we thought we would go ahead.
    I will start with my opening statement. Like many of you, I 
am a big sports fan. I grew up playing sports, and competed in 
high school as a high school athlete. I watched my favorite 
football and baseball and basketball players, learned a lot 
about life lessons through sports and team competition. The 
training also involved closely following the extraordinary 
careers of the many gifted athletes who have become legends, 
Muhammad Ali, Mickey Mantle, Mr. Brown, Unitas, and the list 
goes on and on.
    Those greats, like the vast majority of the stars today, 
were a testament to true character, hard work, and 
determination to succeed against all odds. Their performances, 
victories, records, and careers seem to capture the 
straightforward honesty and integrity that is at the heart of 
sports. The ideal that sports allow success based upon merit 
and God-given talent, whether it be on the court, gridiron, or 
track. My colleagues, that is why the committee's focus today, 
both committees, today is on illegal drug use, specifically 
steroid and performance-enhancing drug use. It seems almost out 
of context with my deep sense of reverence for sports and 
competition.
    As we will learn, anabolic steroids are basically manmade 
compounds that mimic the effects of testosterone, the male 
hormone that stimulates muscle and bone growth. Steroids allow 
users, both male and female, to build strength, body mass, and 
increase injury recovery time artificially, thereby giving them 
an advantage over their competitors. Steroids are the tools of 
the cheater. Steroids are the tools of the cheater.
    Sadly, the scourge of these drugs is not simply a footnote 
in the history of sports in America. Steroids use goes much 
deeper, to the basic integrity of sports and the athletes 
themselves. At the most fundamental level, steroid use is just 
plain cheating and furthermore, it is quite illegal. Steroids 
are classified as Schedule III controlled substances under the 
Controlled Substance Act. Those caught in illegal possession of 
steroids without a prescription face arrest and prosecution. 
Dealers face a Federal felony charge and up to 5 years in 
prison. As we also will learn, steroid use involves significant 
health risks for our athletes, because these substances are 
dangerous. Studies suggest that use of them can lead to stunted 
growth in adolescence, increased risk of heart and liver 
disease, as well as cancer and hormonal problems for both men 
and women.
    That is why I believe these and other factors demand that 
our elite athletic organizations, both professional and 
amateur, establish uniform world-class drug testing standards 
that are as consistent and robust as our criminal laws in this 
area. Nothing less should be tolerated.
    Steroid use in sports is not new. Cheaters have been using 
these drugs ever since the Soviet bloc International Olympic 
teams first embraced them during the 1950's. Today, steroids 
are a big business. In many cases, these drugs are cooked up in 
domestic and international clandestine labs, smuggled from 
legitimate pharmacies or foreign countries, and they are sold 
on the black market. And unfortunately, my colleagues, this 
market is growing.
    As we will hear today, steroids are now not only 
infiltrating the professional and the elite amateur leagues, 
they are finding their way into middle school and high school 
sports programs, and in fact, and according to the most recent 
Monitoring for the Future survey, funded by the National 
Institute on Drug Abuse, 3.5 percent of high school seniors 
have used steroids with similar percentage for eighth and tenth 
graders. Those are alarming numbers that represent just a part 
of the susceptible youth population. These estimates suggest 
that the high school steroid problem is just as great, if not 
greater, than it is in the professional leagues.
    As any parent knows, high school is a trying time for any 
kid, let alone student athletes. These exceptional kids now 
face yet another hazard along the way to adulthood, that is 
trying to claim the safe haven of sports as its next growth 
market. We must take an aggressive stand against this plague 
before these pressures lead young student athletes to steroid 
use, its destructive effects on honesty and fair play, and 
ultimately, their very health, and very well-being. We will 
hear today from a parent of a young man who tragically took his 
own life when that pressure to succeed, coupled with steroids, 
became too much. In my opinion, our professional leagues have 
an obligation to be the gold standard with regard to education, 
detection, and sanctions for the illicit use of steroids and 
other performance-enhancing drugs.
    I would also like to clarify for all of us here today that 
this committee and the Health Subcommittee, did not call, 
invite--did call, we did call and invite the Commissioners of 
the NFL, MLB, NBA, as well as the NCAA. We invited all of them. 
While we are happy to have guests from these organizations, and 
look forward to their testimony, the Commissioners are 
noticeably absent today. It is my strong feeling that the 
Commissioners of the professional sports leagues must take 
ownership of this issue, and lead at the highest level if we 
are to succeed in this nation.
    This committee will expect their presence when we reconvene 
to further investigate our options in this area and continued 
additional oversight. We are signaling today that we may have 
another hearing on this matter. The recent scandals in 
baseball, the Olympics, and other professional and amateur 
sports have served to highlight the significance of the steroid 
problem. However, the scandals themselves are not the direct 
focus of this hearing today. This committee is attempting to 
look beyond headlines and sensationalism to drill down into the 
core of the very serious problem that is having such a 
corrosive effect on the integrity of sports in America today.
    My colleagues, this is not a witch hunt. The committee 
wants to learn the facts surrounding the steroid problem, its 
scope in amateur and professional sports, and what is being 
done to reestablish integrity and honor in American sports with 
a consistent and robust solution. And finally, I would like our 
witnesses to consider the following questions. If steroids are 
illegal and banned, why do athletes, particularly young 
athletes, continue to take steroids and other performance-
enhancing drugs in increasing numbers? Is it societal pressure 
to succeed and win at all costs that is causing this? Why do 
largely amateur athletic organizations like the NCAA and the 
Olympics have more, tighter, stringent testing and sanctioning 
policies than any of the professional sports leagues, including 
the NFL, MLB, and the NBA? For example, a positive test under 
an NCAA policy, yields an automatic 1 year suspension, while 
under the MLB agreement, it warrants a 10 day suspension. What 
message do these inconsistencies between the professional and 
amateur programs send to our athletes today?
    And finally, can we expect to see substantial improvement 
on the part of these Commissioners, or does Congress, last, 
have to act and become involved? I would again, like to again 
graciously thank our distinguished panel, our colleagues, and 
Mr. Ryun, for coming forward to witness today, and we look 
forward to their testimony.
    And with that, the ranking member of the Subcommittee on 
Health, Mr. Sherrod Brown.
    [The prepared statement of Hon. Clifford Stearns follows:]

Prepared Statement of Hon. Clifford Stearns, Chairman, Subcommittee on 
                Commerce, Trade, and Consumer Protection

    Good Morning. I'm a big sports fan. I grew up playing sports and 
competed as a high school athlete. Like many kids, I followed my 
favorite ball players and teams and learned of lot of life's lessons 
through sports and team competition. That training also involved 
closely following the extraordinary careers of the many gifted athletes 
who have become legends--Ali, Mantle, Brown, Unitas, and the list goes 
on. Those greats, like the vast majority of the stars today, were a 
testament to true character, hard work, and determination to succeed 
against difficult odds. Their performances, victories, records, and 
careers seem to capture the straightforward honesty and integrity that 
is at the heart of sport--the ideal that sports allow success based on 
merit and God-given talent, whether it be on the on the court, 
gridiron, or track.
    That is why the Committee's focus today on illegal drug use, 
specifically steroid and performance-enhancing drug use, seems almost 
out of context with my deep sense of reverence for sports and 
competition. As we will learn, anabolic steroids are basically man-made 
compounds that mimic the effects testosterone, the male hormone that 
stimulates muscle and bone growth. Steroids allow users, both male and 
female, to build strength, body mass, and increase injury recovery time 
artificially, thereby giving them an advantage over their competitors. 
Steroids are the tools of the cheater.
    Sadly, the scourge of these drugs is not simply a footnote in the 
history of sports in America. Steroid use goes much deeper--to the 
basic integrity of sports and the athletes. At the most fundamental 
level, steroid use is just plain cheating, and furthermore, quite 
illegal. Steroids are classified as schedule III control substances 
under the Controlled Substances Act. Those caught in illegal possession 
of steroids without a prescription face arrest and prosecution. Dealers 
face a federal felony charge and up to five years in prison. As we also 
will learn, steroid use involves significant health risks for our 
athletes because these substances are dangerous. Studies suggest that 
use of steroids can lead to stunted growth in adolescents, increased 
risked of heart and liver disease, as well as cancer, and hormonal 
problems for both men and woman. That is why I believe these and other 
factors demand that our elite athletic organizations, both professional 
and amateur, establish uniform, world-class drug testing standards that 
are as consistent and robust as our criminal laws in this area. Nothing 
less should be tolerated.
    Steroid use in sports is not new. Cheaters have been using these 
drugs ever since Soviet Block international and Olympic teams first 
embraced them during the 1950s. Today, steroids are big business. In 
many instances, these drugs are cooked up in domestic and international 
clandestine labs, smuggled from legitimate pharmacies or foreign 
countries, and sold on the black market. Unfortunately, that market is 
growing. As we will hear today, steroids are now not only infiltrating 
the professional and elite amateur leagues--they are finding their way 
into middle school and high school sports programs. In fact, according 
to the most recent Monitoring for the Future survey, funded by the 
National Institute on Drug Abuse (NIDA), 3.5% of high school seniors 
have used steroids, with similar percentages for eighth and tenth 
graders. Those are alarming numbers that represent just a part of the 
susceptible youth population. These estimates suggest that the high 
school steroid problem is just as great if not greater than it is in 
the professional leagues. As any parent knows, high school is a trying 
time for any kid let alone student athletes. These exceptional kids now 
face yet another hazard along the way to adulthood that is trying to 
claim the safe haven of sports as its next growth market. We must take 
an aggressive stand against this plague before these pressures lead 
young student athletes to steroid use, its destructive effects on 
honesty and fair play, and ultimately their very health and well-being. 
We will hear today from a parent of a young man who, tragically, took 
his own life when that pressure to succeed coupled with steroids became 
too much.
    In my opinion, our professional leagues have an obligation to be 
the gold standard with regard to education, detection, and sanctions 
for the illicit use of steroids and other performance enhancing drugs. 
I also would like to clarify for all here today, that this Committee 
did call and invite the commissioners of the NFL, MLB, and NBA as well 
as the NCAA. While we are happy to have guests from those organizations 
and look forward to their testimony, the commissioners are noticeably 
absent. It is my strong feeling that the commissioners of the 
professional sports leagues must take ownership of this issue and lead 
at the highest level if we are to succeed. This Committee will expect 
their presence when we reconvene to further investigate our options in 
this area and continue additional oversight. We are signaling today 
that we may have another hearing on this matter.
    The recent scandals in baseball, the Olympics, and in other 
professional and amateur sports have served to highlight the 
significance of the steroids problem. However, the scandals themselves 
are not the direct focus of this hearing today. This Committee is 
attempting to look beyond headlines and sensationalism to drill down 
into the core of a very serious problem that is having a corrosive 
effect on the integrity of sports in America today. This is not a 
witch-hunt. The Committee wants to learn the facts surrounding the 
steroid problem, its scope in amateur and professional sports, and what 
is being done to reestablish integrity and honor in American sports 
with a consistent and robust solution. Finally, I would like our 
witnesses to consider the following questions:

 If they are illegal and banned, why do athletes, particularly young 
        athletes, continue to take steroids and other performance-
        enhancing drugs in increasing numbers? Is it societal pressure 
        to succeed and win at all costs?
 Why do largely amateur athletic organizations like the NCAA and the 
        Olympics have more stringent testing and sanctioning policies 
        than any of the professional sports leagues, including the NFL, 
        MLB, and the NBA? For example, a positive test under NCAA 
        policy yields an automatic one-year suspension while under the 
        MLB agreement it warrants a ten-day suspension? What message do 
        these inconsistencies between the professional and amateur 
        programs send to our young athletes?
 Can we expect to see substantial improvement on your part or will 
        Congress need to become involved?
    I would again like to again graciously thank our distinguished 
panel of witnesses for joining us today. We look forward to your 
testimony. Thank you.

    Mr. Brown. Mr. Chairman, I would like to let Mr. Waxman go 
first, because he has another hearing, if that is okay.
    Mr. Stearns. Yes. Mr. Waxman, the gentleman from 
California.
    Mr. Waxman. Thank you, Mr. Chairman and Mr. Brown, for your 
courtesy in allowing me to deliver my opening statement. I have 
a conflict in my schedule, and I have to go to another 
committee meeting.
    But I wanted to be here to commend this committee for 
holding this important hearing. It is an important public 
health issue. The sharp rise in steroid use among athletes, 
including teenage athletes, over the last decade. In 1993, 1 of 
every 45 high school students reported ever using illegal 
steroids. By 1999, 6 years later, this rate had increased to 1 
in every 27 high school students. In 2003, the last year for 
which data is available from the Centers for Disease Control 
and Prevention, 1 in every 16 high school students reported 
illegal steroid use. This trend is alarming, because these 
drugs are so dangerous.
    Anabolic steroids are related to testosterone, a hormone 
that plays a critical role in normal adolescent development. 
But teenagers don't take a natural amount of these hormones. 
They take 10, 20, or even 50 times the normal doses. At such 
high levels, anabolic steroids can signal to the bones to stop 
growing, cause premature heart disease, lead to life-
threatening liver problems, and cause significant emotional 
disturbances, personality changes, psychiatric diseases, 
suicide. In addition to these risks, some steroids are 
administered by hypodermic syringes, and if that is the case, 
when teenagers share their hypodermic needles, they run the 
risk of being infected with HIV/AIDS and hepatitis.
    So this is a very serious public health issue, but it is 
also a touchy subject. Recently, the Dallas Morning News 
reported about a mother who found a vial of clear liquid and 
some syringes in her son's closet. He confessed to having used 
steroids to become a better athlete. He told her he had 
obtained the steroids from a player on his high school football 
team. She called the assistant principal. The assistant 
principal called the football coach, who angrily denied that 
there was even a problem. He told the newspaper this lady is a 
liar. There is nobody in my program who uses steroids. But to 
his credit, the coach didn't let it end there. He met with his 
players and demanded to know the truth. Eventually, 9 athletes 
admitted to steroid use. The community is now aware of its 
problem, and is already taking action.
    Investigating steroid use is as difficult as it is 
necessary, both for a high school football team in Texas, and 
for major league sports. There are some who don't want to 
investigate these issues. They would prefer that we look the 
other way and we not ask hard questions. I think the chairman 
of this committee is doing the right thing in holding today's 
hearing, and Chairman Tom Davis, the Chair of the Government 
Reform Committee, is doing the right thing in holding a hearing 
next week. The American people deserve the truth, and we have a 
responsibility to help them find it.
    Thank you very much, Mr. Chairman, and Mr. Brown.
    Mr. Stearns. I thank my colleague. Mr. Deal, the chairman 
of the Health Subcommittee, is recognized.
    Mr. Deal. Thank you, Mr. Chairman. I want to thank you for 
holding this joint hearing today with our two subcommittees, 
and I want to thank the witnesses for coming. I know many of 
you have come great distances, and we will try to be respectful 
of your time.
    I think it is appropriate that we hold a hearing on this 
issue of growing steroid use. Many of us believe, however, that 
we should try to shift the emphasis away from the sports page 
back to the dining room table in homes and in the classrooms 
where children can be taught about the adverse effects of these 
illegal substances. It is very difficult, though, to become 
real enamored about whose bat is going to be in Cooperstown, 
when children are being the victims of the suffering of trying 
to duplicate the use of those illicit substances.
    I believe we are sending the wrong message to young people 
when they see these people who now are self-proclaimed 
entertainers being lauded for efforts as a result of illicit 
drugs, and children not being told about the emotional and 
physical conditions that can result from their duplication of 
those uses. I seriously doubt that the sports channels or the 
sports magazines will pay much attention to the athlete whose 
heart and liver is failing, or to the young athlete who winds 
up in jail simply because he couldn't control his anger, as a 
result of the use of these drugs.
    In the future, I think young people should continue to be 
given as much information as possible about these substances, 
and the lack of accurate information is a real danger to our 
communities. It is a serious problem. I thank the witnesses for 
their time and effort in being here, and we look forward to 
continuing the dialog and debate that will begin in this 
discussion today.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Nathan Deal follows:]

   Prepared Statement of Hon. Nathan Deal, Chairman, Subcommittee on 
                                 Health

    Let me start by thanking our witnesses for appearing before us 
today. We value your expertise, and we are grateful for your 
cooperation and attendance at today's hearing. I know several of our 
witnesses have traveled great distances and put their busy lives on 
hold in order to be with us today, and I think we should be respectful 
of their time and devote as much of this hearing as possible to 
listening to what they have to say.
    I am very glad we are having this joint hearing today to address 
the growing problem of steroid abuse in this country. We are here to 
help shift the dialogue about this problem away from the sports page 
and back into the classroom and around the kitchen table at home.
    It is hard to care about whose bat is on display in Cooperstown or 
whose name is in the record books when so many young lives are being 
destroyed in this country by steroid abuse.
    I believe our young people are receiving the wrong message when 
they see that these self-proclaimed ``entertainers'' are able to 
achieve great accomplishments on the playing field through the aid of 
these illicit substances without being told of the potential damage 
that can done to their physical, mental, and emotional health.
    I doubt the all-sport channels will be there to cover these once-
famous athletes after their hearts and livers have started to fail 
them, and I don't think the sports magazines will write a story about a 
young amateur athlete who is sitting in a jail cell because he could 
not control his anger.
    If, in the future, young people continue to abuse these substances 
due to a lack of accurate information about the dangers of steroid 
abuse, then we have all failed in our responsibilities.
    Steroids and the serious health effects they are having on our 
children deserve a serious and substantive discussion, and I would like 
to again thank our witnesses for coming here today to discuss this 
important issue.

    Mr. Stearns. I thank my colleague. The gentleman from Ohio, 
the ranking member of the Health Subcommittee, Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I am pleased we are 
focusing today on this public health threat, but like so many 
issues before this committee, we cannot responsibly consider 
this issue without placing it in the larger and the appropriate 
budget context. Our committee has jurisdiction over the 
National Institutes of Health, over CDC, over SAMHSA. Among 
their numerous responsibilities, these agencies have each 
played an important role in countering the growing use of 
steroids. The question is, will they have enough resources to 
continue fighting steroids and other public health threats.
    The President's budget cuts CDC, cuts SAMSA, funds NIH well 
below the level needed to simply maintain the current level of 
research. The total cuts to public health programs contained in 
the President's budget total over a billion dollars for next 
year alone. Is our committee holding this hearing and approving 
that budget, determining that these agencies are spending money 
hand over fist on unnecessary public health initiatives. SAMHSA 
administers the Athletes Training and Learning to Avoid 
Steroids program, ATLAS, which uses team dynamics and positive 
peer pressure to reduce steroid use among student athletes. CDC 
provides vital surveillance of risk behavior among youth, 
including steroid use, so we can understand trends and changes 
in use, and direct our resources to where they are the most 
effective.
    NIH, largely through the National Institutes on Drug Abuse, 
funds several initiatives, including public education campaigns 
and websites designed to alert people to the dangers of 
anabolic steroid use. Are we saying these initiatives are a 
waste of money? If we are going to stand idly by while 
appropriators starve the agencies under our jurisdiction, I 
hope we are prepared to take the blame when these agencies 
abandon meaningful public health initiatives, like those aimed 
at protecting kids from steroids.
    We have all seen, as the chairman said, the news stories in 
the last few months on steroids in professional sports. It 
seems that with the increased combination of--the right 
combination of increased public scrutiny and professional 
accountability, we can begin to identify and deal with these 
problems better than our society has. But perhaps the most 
disturbing consequence of steroid use at the professional level 
is the trickle down effect that it has on athletic programs in 
our minor leagues and our universities, and especially in our 
high schools. Among teenagers in this country, as we know, 
steroid use is more widespread, and is growing at an alarming 
pace. In the last 14 years, the use of steroids among teens has 
increased by 50 percent. Teens have regularly identified 
steroids as far easier to obtain than other illegal drugs.
    Using steroids makes the average teenager far more likely 
to engage in other risky behaviors. Use of these drugs can lead 
to disastrous side effects, include rapid weight gain, blood 
clots, liver damage, premature heart attack and stroke, 
depression, and increased aggression, as Chairman Deal said. 
Thee consequences are a problem at any level, high school, 
college, and pro, but it is critical that professional 
athletes, who we still say set the example for performance and 
integrity at all levels, be held to a much higher standard. We 
can be certain if steroids are effectively eliminated from 
professional sports that fewer kids will use them. The reverse 
is also true. If we fail to hold our professional athletes 
accountable, if the biggest stars in sports are allowed to 
violate the rules of the game and Federal law over and over and 
over, then kids will obviously follow suit.
    Mr. Chairman, we must work to improve the rules regarding 
steroid use, and we must fight to strengthen the enforcement of 
those rules. Beyond that, we must endeavor to change the 
culture that surrounds our athletes, from high school students 
to professional stars, that leads them to jeopardize their 
health in the name of another home run or a tenth of a second 
off their time in the 40-yard dash.
    I look forward to our witnesses' insights on this issue. 
Thank you.
    Mr. Stearns. I thank my colleague. The chairman of the full 
committee, Mr. Barton, from Texas, is recognized.
    Chairman Barton. We thank you, Mr. Chairman.
    When I grew up, Babe Ruth was the standard in baseball. He 
had hit 60 home runs, and people didn't worry about him taking 
steroids. They worried about him eating another hot dog. My 
heroes in my generation were guys like Willie Mays and Hank 
Aaron and Mickey Mantle, and those kind of guys. And again, 
there wasn't any concern about whether they used steroids.
    Well, unfortunately, because of what has happened in the 
last 5 to 10 years, we have to worry about did Barry Bonds do 
that legitimately, or was it chemically enhanced, and so we are 
here today to say enough is enough. And it is not just 
baseball. We have got panelists from the NFL and the NCAA and 
high schools. We have got a parent on the next panel whose son 
committed suicide under the influence, apparently, of steroids. 
Enough is enough. Now, you know, you can hold a hearing and 
grandstand on this. This is not a grandstand hearing. We have 
an Olympian and a former world record holder in the mile, Mr. 
Ryun, who has made this a personal issue of his for a number of 
years. He is now a Member of the House of Representatives. We 
thought at one time Senator Jim Bunting was going to come over 
on this hearing.
    We want to get to the bottom of this. And I say we, the 
Energy and Commerce Committee on a bipartisan basis, and this 
is the first of what could be a number of hearings. I have 3 
subcommittees that could be in this. We have got the Health 
Subcommittee, Mr. Deal is the chairman. We have got this 
subcommittee. Mr. Stearns is the chairman. We have the 
Oversight and Investigations Subcommittee, and Mr. Whitfield of 
Kentucky is the chairman.
    This committee has already done something. In the last 
Congress, we passed the Anabolic Steroid Control Act. It was 
signed into law by the President on October 22 of last year. It 
makes illegal the precursor steroids. It awards grants to carry 
out educational programs in our elementary and secondary 
schools, and it sets up a National Survey on Drug Use to 
determine just how pervasive steroid use is. So, this committee 
has already acted, and I am here to tell you as chairman, if we 
need to act again in this Congress on a bipartisan basis, we 
will. But we are going to get the facts, and we are going to 
get them at every level, from junior high and high school, up 
through the pro sports. We have not issued any subpoenas. We 
are trying to ask people to come forward voluntarily, but if we 
need to issue subpoenas, we will, and that goes at every level, 
from the pro sports commissioners, down to folks in the NCAA, 
and if necessary, in high school education.
    The President put this on the table 3 or 4 years ago in his 
State of the Union, and people kind of scratched their heads. 
Well, he was ahead of his time, but the time has come to put an 
end to this mess, to reclaim sports for true competition and in 
the spirit of what sports are supposed to be. I am sick and 
tired of hearing about somebody who may have taken this drug or 
may have taken that drug, and helped them in the Olympics, or 
helped them in the whatever the level of sports is, so I am 
just here to tell everybody in this audience that this is not a 
grandstand hearing. This is a real hearing, and whatever we 
need to do, when the appropriate time comes, if it is in the 
jurisdiction of the Energy and Commerce Committee and it needs 
to be done, on a bipartisan basis, we are going to do it.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Joe Barton follows:]

 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    The sports of our lives are a wonder, but steroids in sports are a 
killer. Their presence ruins bodies and careers, and gives lie to the 
achievements of people we thought were heroes. Babe Ruth has been gone 
for 57 years, but he's as much an idol to me and to millions of other 
Americans as he was in his prime. Would he still be our hero if we 
suddenly discovered that a drug helped him hit those 60 home runs?
    As you can tell, I'm an old baseball player. I've probably thrown 
my last fast ball, but I never lost my love of the game and the people 
who play it. I am outraged that because of steroids and the people who 
peddle them, the achievements of Babe Ruth's modern successors are in 
doubt. If the Babe appeared today and began hitting the cover off 
balls, people would automatically believe he was on drugs. That's what 
it's come to.
    We all understand what's required because it has happened before. 
The Black Sox threw the World Series in 1919, but the discovery that 
players sold out to gamblers produced draconian reforms that probably 
saved my sport. Without a new restitution of trust, the game I love may 
wither and die. I don't mean that to happen without a fight.
    As a recreational activity, they promote healthy living, provide 
social interaction, and provide an arena for personal achievement. At 
the higher levels of athletic excellence, competition is a great source 
of entertainment. Sports are deeply ingrained in our culture and our 
economy; professional leagues are billion dollar businesses with 
million dollar athletes, college athletics are now covered by their own 
cable station, and high schools are put on national TV if advertising 
can be sold.
    Unfortunately, the growing body of evidence indicates athletes at 
all levels are willing to take steroids and subvert the integrity of 
sports to achieve success, regardless of the potentially life-
threatening consequences. I believe such athletes are misguided about 
the meaning of sport. Achievement found in a syringe or a pill is not 
achievement at all: it is cheating.
    This is not a new problem. Nor is it confined to professional 
sports. Men and women, boys and girls, are using steroids. It is a 
problem that has been relatively unnoticed despite all the warning 
signs and our reluctance to acknowledge it. Some professional athletes 
have admitted to using steroids, and others are alleged to have used 
steroids. They are not my primary concern because they are not the 
first, nor will they be the last athletes to cheat the system.
    I am most concerned about the effect steroid use is having on our 
children. They look to professional athletes as their idols and are 
influenced by what they see and hear. My fear is that a society that 
accepts steroids as a part of sport is sending a very dangerous--and 
wrong--message. Our children need to know it is wrong and why we won't 
tolerate it. We have seen the carnage wrought by corporate scandals in 
recent years when shortcuts and deception took precedent. A similar 
culture seems to be growing in sports; a recent study showed steroid 
use among all high school students is on the rise while only 55% of 
12th graders perceived a great risk with steroids.
    We may not be able to change society's attitudes in one day or one 
year, but we have to increase our efforts. We have been fighting 
illegal drug abuse for decades, saving countless lives. We have to do 
the same with steroids.
    We will change the momentum and direction of sports and its effect 
on youth, even if it includes drastic measures. This Committee has the 
jurisdiction to make changes, whether it is in the business practices 
of sports organizations or the health aspects. It is my desire that it 
does not come to that.
    I look forward to hearing from the witnesses and discussing options 
to address these problems.

    Mr. Stearns. I thank the distinguished chairman. The 
gentlelady, Ms. Schakowsky, the ranking member of our 
committee.
    Ms. Schakowsky. Thank you, Chairman Stearns. I would also 
like to thank Ranking Member Brown and Chairman Deal for 
working with us today--on today's hearing about the growing use 
of steroids by athletes.
    Representative Ryun, I also appreciate your taking time out 
of your schedule to share your perspective on this issue, being 
one of the few Olympians and world record holders in Congress, 
I believe your insights will be quite helpful for us as we try 
to grapple with this problem.
    While we are going to be discussing steroid use on all 
levels of sports, from high school to professional athletes, I 
am especially concerned about young athletes, the high school 
and college students. According to a study by the National 
Collegiate Athletic Association, steroid use among athletes 
increased by 27 percent from 1996 through 2000. A survey by the 
University of Michigan found that 54 percent more high school 
seniors took steroids in 2003 than they did in 1996. And the 
Center for Disease Control reported in May 2004 that 
approximately 800,000 high school students have used or are 
using anabolic steroids.
    These young athletes are taking steroids to meet body 
ideals and physical performance standards that cannot be 
achieved without artificial enhancement. They are judging their 
abilities and their appearance on curves where the highest 
standard is set by synthetic performance boosters. They are 
trying to be superhuman. What they don't realize or appreciate 
are the deleterious effects of steroids. While they think they 
are building themselves up, they are tearing their health down. 
Of particular concern is the permanent damage that the very 
young competitor who uses steroids experiences. For example, 
although steroids deliver lean muscle mass and strength, the 
terrible irony is that the use also promotes premature skeletal 
maturation, and their growing bones are stunted. They also are 
putting themselves at greater risk of ligament and tendon 
injury, not to mention heart attacks, liver failure, 
infertility, and other permanent and irreversible problems.
    It is our responsibility to ask why our young athletes are 
doing this to themselves. I believe part of the cause is that 
there is a ripple effect through the athletic world around 
steroid use. High schoolers and college players are seeing 
professional athletes make millions of dollars off of their 
steroid-enhanced performances, and know that use is rewarded. 
Today's corked bat is a juiced up player. I believe that when 
they call out play ball, the playing field should be even, 
safe, and healthy. However, professional steroid abuse is not 
the only reason that young athletes are turning to steroids, 
and we need to explore the other factors that may be 
contributing to it.
    I think we need to look at whether the students are seeing 
their only means to get to college is through an athletic 
scholarship, and the only way to get an athletic scholarship is 
if they are the biggest and the best. And how can they be the 
biggest and the best if one of their teammates is pumped up? I 
think we need to look at the pressures that parents, coaches, 
and peers are putting on young athletes to look and do better 
than is naturally possible. And I also think that we need to 
get to the bottom of where the steroids are coming from, and 
how their use is mostly unnoticed until it is too late.
    Mr. Hooton, I appreciate you being here today to share your 
son Taylor's story. You have turned your personal tragedy into 
a much-needed public awareness campaign that will help us get 
to the bottom of this and save lives.
    Thank you. And again, Chairmen Stearns and Deal, I 
appreciate your calling today's hearing, and am glad that we 
have witnesses from the various sports, medical, and research 
organizations, to provide a comprehensive view of what steroids 
are doing to athletes. I also hope that we can show the same 
commitment to getting a complete picture when we consider cuts 
to Medicaid this year.
    Thank you.
    Mr. Stearns. I thank the gentlelady. The gentleman from 
Michigan is recognized.
    Mr. Upton. Well, thank you, Mr. Chairman. And I appreciate 
having this hearing, and I look forward to working with you and 
Chairman Barton to continue to pursue this very important 
issue.
    Sports is a big part of America. Let us face it. Every 
weekend, tens of millions of Americans watch in person, watch 
on TV, let alone those of us that often read the sports pages 
first. The fundamental principle of sports participation is 
that the rules are the same. They are the same for every team 
and every player, and that is why we have umps, that is why we 
have referees. That is why we have time folks clocking, whether 
it be in swimming or running, and if they haven't done the job, 
they are not--they are done. And that is why we have allegedly 
commissioners for all these sports. They are to look out for 
the best interests of those sports, and to make sure that they 
perform., the athletes, as well as the teams.
    Sports are not for cheaters. Ask Sammy Sosa, with a corked 
bat. Ask a hockey player who has too much of a curve in his 
hockey stick. He is removed from the ice. Sammy Sosa was 
suspended for, what, 8 games, as I believe. Too many men on the 
field. You break the rules, your team is going to be penalized. 
You may lose the game because of it. The rules are supposed to 
be the same for every competitor that is on the field. I am a 
dad. I played high school sports. I am married to a woman who 
was asked to try out for the Olympics. And thank God my 13-
year-old son has her abilities and not mine. And as a spectator 
now, to the sports that he plays, whether it be basketball, 
football, lacrosse, baseball, I want the teams and the outcome 
to be fairly settled.
    I have got no tolerance for anybody that cheats, whether 
they be on the job, or whether they be on the field. Steroids 
are not only unhealthy, they are for cheaters. What kind of 
signal does it send to amateur sports if professional sports 
don't play by the same rules. They have got to get their act 
together, and if they can't do it on their own, then this 
committee needs, and this Congress needs to get it done for 
them.
    I yield back the balance of my time.
    Mr. Stearns. The gentlelady from Colorado, to seek, opening 
statement.
    Ms. DeGette. Mr. Chairman, I will waive my opening 
statement.
    Mr. Stearns. Okay. The gentlelady waives her opening 
statement. Mr. Murphy is recognized.
    Mr. Murphy. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    I just quickly want to say, as a person who has spent his 
career working with youth, what has concerned me, as this 
discussion has opened up on steroids is athletes who say they 
don't want to be role models, but they are. And athletes who 
say they don't want to be seen as ones to influence the 
behavior of our kids, but they are eager to take millions of 
dollars in product endorsements, specifically to influence the 
actions of our youth. And I am concerned that we see comments 
coming out that can best be described as callous, self-
centered, and greedy, that pervades sports and athletes, when 
they make comments such as saying it is entertainment, and the 
fans are expecting us to get out there and have some hits and 
score touchdowns, and to make goals. This attitude of blaming 
fans and absolving themselves of responsibility, and somehow 
should be responded to by fans who, at games, should sit on 
their hands, or leave out resounding boos when they see 
athletes out there trying to pull a scam on the fans, and 
saying we can give you what you want if you let us cheat on the 
way.
    Likewise, owners, managers, and commissioners use the same 
kind of distorted thinking and reasoning when they say the fans 
made us do this. I am hoping that hearings such as this, and 
actions taken by this committee, can really work toward helping 
us to make sure that sports are played fair, that the role 
models are out there for youth, and that we can, indeed, save 
the health and lives of our youth and other athletes.
    I yield back. Thank you.
    Mr. Stearns. I thank my colleague. The gentleman from New 
Jersey, Mr. Ferguson.
    Mr. Ferguson. Thank you, Mr. Chairman.
    Steroids have been a scourge in the sports world since 
their first use, dating back to the 1960's. Since then, sports 
organizations of all varieties, beginning with the 
International Olympic Committee, have launched testing regimes 
to curb and hopefully eliminate illegal steroid use in 
athletes. In many respects, we have seen a decrease in steroid 
use in professional athletes under the watchful eye of 
regulators and league officials.
    What is scary, though, is that we have seen steroid use 
increase in high school and amateur athletes, far from the 
watchful eye of scrutiny provided by a testing program. 
Unfortunately, reports have stated that upwards of 300,000 high 
school students in our country use steroids. Yet, according to 
a study by the University of Michigan in 2003, only 5 percent 
of schools test for steroids. I look forward to hearing today 
from our esteemed colleague from Kansas, Congressman Ryun, and 
other panelists, to see what steps can be taken to give proper 
notice to our communities and our children that steroid use is 
wrong and deadly.
    The representatives from our professional sports leagues 
and the NCAA have a responsibility to the youth of our country 
to be an example that wrongdoers will be caught and will be 
punished. The NFL has been testing their players since 1987. 
Major League Baseball has just put in place a much tougher 
testing regime, the mere prospect of which lowered positive 
results fivefold. But the team that everyone roots against, the 
combination of rogue science and athletes bent on breaking the 
rules, is motivated to keep steroids viable in athletics today. 
We must do everything we can to fight this battle, and educate 
people about the dangers of illegal steroid use by our young 
athletes.
    Thank you, Mr. Chairman. I yield back.
    Mr. Stearns. The gentleman, thank you. Mr. Radanovich, 
waives. Mr. Bass, not here. Mr. Buyer.
    Mr. Buyer. Thank you, Mr. Chairman. I want to thank you for 
this hearing, and I look forward to the testimony of the 
panelists. I want to thank our colleague, Jim Ryun, for being 
here to testify. Jim, I believe that you have been an 
inspiration to generations, and it deals with how you have 
handled yourself, not only as a professional athlete, but as a 
person. And you have, in fact, been a role model for many in 
our society, and for that, I want to thank you. And your words 
will carry a lot of weight, you see, because your words are far 
more powerful to us, not only because you are our friend and a 
colleague, but you were in a system, and you also were an elite 
athlete, at a time when the system was more pure than it is 
today. And that is really unfortunate, because we could have 
some professional athletes here, and we would have to do a 
vetting process to find the credible athletes that we could 
listen to. And that is unfortunate. We ought to be able to just 
do a random sampling, right? And we ought to be able to find 
that athlete that, in fact, is not only that role model, but 
also, a pure system.
    And so, I want to thank you for coming forward and giving 
your testimony and your thoughts, and I am disturbed about 
baseball. I am disturbed about baseball, and other sports, and 
how this has this downward pressure, everything to win. And it 
is almost as if the owners are also absolving themselves. Well, 
you know, we got--there is a union we have to deal with, or 
collective bargaining agreements, and excuse after excuse after 
excuse, as they then, also, then turn to place pressures upon 
cities to build their stadiums for them, as they continue to 
reap their profits, and what, they also don't care about the 
health effects it is having upon players? And then, the 
detrimental effect that has upon kids, children in our 
societies?
    No, I think this is a very serious problem. But there is 
enough responsibility out there that needs to go around, and I 
noticed some articles in some sports pages that were even 
questioning Congress as to why they should even look at this 
issue. What, as though we should turn a blind eye? I don't 
think so.
    So, I want to thank you, Jim Ryun, for many things. More 
importantly, for being here to provide this testimony, to give 
your insights and your wisdom to how we can bring purity to a 
system. And it sure is sad that we have got some individuals 
now who love to talk about hitting home runs, breaking records, 
about to break records, yet we are now, they find themselves in 
a scandal. And, as though that has no impact upon kids. I 
believe it does.
    I yield back.
    Mr. Stearns. Gentleman, thank you. The gentleman from Ohio, 
Mr. Gillmor. The gentleman passes. Ms. Myrick.
    Ms. Myrick. Thank you, Mr. Chairman. I want to thank the 
witnesses for being here, and I don't mean to sound like a 
broken record, because I wanted to say to Jim some of what 
Steve has already said. We thank you for the good example you 
have set, Jim, not just what you did in sports, with the 
incredible, incredible records that you had, but the example 
you set every day in your life, and with working with young 
people, like I know you do. And you can have an incredible 
influence in this issue, if you are willing, as you are today, 
to stand up and to speak out. Because it is something that 
concerns all of us.
    My kids are grown. I now have grandkids who are into 
sports. We didn't have to worry about this problem to this 
extent when our kids were growing up, so it is a very real 
issue that is a very--of deep concern to us. And I thank you 
for your willingness to participate.
    Mr. Stearns. I thank the gentlelady. The gentlelady from 
Tennessee is recognized. With that, I think we have finished 
our opening statements.
    [Additional statements submitted for the record follow:]

    Prepared Statement of Hon. Charlie Norwood, a Representative in 
                   Congress from the State of Georgia

    Thank you, Mr. Chairman.
    While steroid use has been banned in the United States since the 
passage of the Anabolic Steroids Control Act of 1990, the illegal use 
of these drugs continues to be a serious problem.
    When professional athletes admit to using steroids to enhance their 
athletic skills, children receive the message that drugs are OK. I 
suspect this fact is in no small part related to the high rate of 
steroid use among high-school-aged students.
    Steroid use is a problem that affects athletes and non athletes 
alike, impacting both our sons and our daughters. Steroids can create 
serious health problems, including heart attacks, liver damage and high 
blood pressure.
    I fully support the goals of this hearing as we work to send a 
clear message to children and adults across the country that steroids 
are dangerous, illegal, and morally offensive to this country's 
competitive spirit.
    I am looking forward to our witnesses' testimony and guidance. I 
yield back.
                                 ______
                                 
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman, for holding this hearing.
    I would like to welcome the distinguished witnesses before us 
today, including our colleague Mr. Ryun. The committee has worked to 
bring together three panels of witnesses who will offer diverse views 
on steroid use. I look forward to a hearing that will provide a forum 
for honest discussion about the use of steroids and other performance 
enhancing supplements and what the roll of Congress should be to curb 
the dangers associated with the increasing use of these illegal 
substances.
    We are all starting to become too familiar with the prevalence of 
steroid use by professional athletes. Most concerning to me is the fact 
that many of the athletes being accused of and even condoning steroid 
use are the same ones who serve as role models for America's youth. 
There is no question the nature of youth sports and activities has been 
dramatically altered in the last decade. It is hardly enough anymore 
for a child to participate in sports to develop a new skill or make new 
friends. You can see it at any gym or park on a given Saturday morning: 
kids today are being pressed at young ages to dedicate their time, mind 
and body to being faster, stronger and more competitive. It's hardly a 
surprise that this pressure on today's kids coincides with an increase 
in performance-altering supplements.
    Today I hope to hear an honest assessment of steroid use by amateur 
athletes. With the accessibility of these illegal substances via the 
internet or through mail, steroids have clearly become a potential 
threat to all regions of America, even rural areas like the state of 
Wyoming which I represent. Media attention to steroid use by 
professional athletes glamorizes the affects steroids have on one's 
physique, yet often neglects to inform amateur athletes about the 
negative physiological or behavioral side affects. I want today's 
hearing to initiate a public discussion of the negative side affects of 
steroid use before this habit becomes an unofficial standard for 
amateur athletes.
    Again, I thank the chairman and I yield back the balance of my 
time.

                                 ______
                                 
Prepared Statement of Hon. Ed Towns, a Representative in Congress from 
                         the State of New York

    Thank you, Mr. Chairman. I am very pleased that the Committee is 
holding this hearing. As the details emerge of how widespread steroid 
abuse in this country has become, I am becoming increasingly upset for 
a number of reasons. However, upon reading Mr. Hooten's prepared 
remarks, my anger quickly turned to sadness.
    Mr. Hooten mentions that because our young people are so enamored 
with today's athletes and their achievements, they will do anything to 
emulate them and get ahead in their own school sports programs. As we 
have learned, they don't need to go too far to get illegal help. The 
unfortunate reality of the internet is that for all of its benefits, it 
also has a great number of downsides. With a click of the mouse, our 
children can choose from a buffet of illegal steroids, most of which 
are dangerous and potentially life-threatening. I sit on the 
committee's panel that oversees the internet, and I hope my colleagues 
and I can come up with some sort of legislation that stems this black 
market tide. The pressure to succeed that our children endure can be 
overwhelming, and if we need to go to the source to curb their 
behavior, then so be it.
    It seems that the culture of our professional athletes and their 
steroid use has become somewhat ``en vogue'' and alluring to our young 
people. The current controversy involving Major League Baseball and 
some of its players has highlighted the epidemic, but I firmly believe 
that the league is not blame. Rather, we should applaud the big 
league's efforts to crack down on usage, and we need to give 
Commissioner Selig's new steroid prevention program a chance to work. 
Since its implementation, steroid use is down from 11% to 1.7%. The 
commissioner heard our complaints about the league's previous program 
and took action--so far the results are encouraging and I hope the 
trend continues.
    Let me also mention how sickened I am by the primary reason for 
steroid use. As I hope you would all agree, cheating in any form is 
despicable. America is about giving everyone an equal chance to 
succeed, and putting all of our young people and professional athletes 
on the proverbial level playing field should be priority #1. But as I 
said previously, peer pressure and the desire to be a winner can be 
crushing during the teenage years, and I wish these substances weren't 
available to our kids. The sad truth is that they are, and we must 
figure out a way to stop their widespread distribution.
    Thank you, Mr. Chairman. I yield back the balance of my time.

                                 ______
                                 
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    Good Morning. I like to thank Chairman Stearns, Chairman Deal, and 
Ranking Members Schakowsky and Brown for holding a hearing on this 
important issue.
    Since Congress banned anabolic steroids in 1990, it seems the 
pressure to have the perfect body or the perfect performance has only 
increased. Often, the steroids used by athletes or individuals with a 
distorted body image are taken in doses up to 100 times the dose used 
to treat a medical condition. Steroid users also frequently mix oral 
and injectable steroids and will add stimulants to the mix to have a 
greater effect on muscle size.
    Unfortunately, this quest for perfection has serious negative 
health consequences. Oral steroids, in particular, increase LDL and 
decrease HDL, leading to hardening of the arteries and eventually heart 
attack or stroke. Steroids also disrupt hormonal production, resulting 
in stunted growth when taken during puberty. Many of the detrimental 
health effects caused by steroids are reversible if we can get the 
users off steroids. But we face an uphill challenge when instant 
gratification and quick fixes outweigh long-term health in the minds of 
steroid users.
    Last April, the Full Committee heard and passed HR 3866, the 
Anabolic Steroid Control Act of 2004. In doing so, we doubled the 
maximum penalty for selling steroids near athletic facilities and we 
expanded the definition of ``anabolic steroid'' to include steroid 
precursors such as THG.
    I believe the legislation we've passed was a good start in 
addressing the problems with steroid abuse; however, we have a long way 
to go.
    Many of you have at least heard of the film ``Friday Night 
Lights''. This film was based on a book by the same name which portrays 
what people do to win high school football championships in my home 
state of Texas. In Texas, it is not uncommon for crowds of over ten 
thousand people, sometimes as high as twenty thousand to attend a high 
school football game. The culture revolving around these games often 
brings communities together, but also places immense pressure on 
student athletes to perform.
    Young men are made local heroes by running a touchdown or making a 
key play. Given the amount of pressure there is to perform, I was not 
surprised to read a recent article in the Dallas Morning News stating 
nine players at a North-Texas high school admitted to using steroids.
    Coming from an area that has produced several Championship Football 
teams, I'm sure this problem is not limited to this region of our 
state. I am troubled by the idea that High School students are using 
steroids during a phase of their lives when their body is continuing to 
mature. The health risks are great and as we'll hear today, may not 
appear until years after a person has started to use them.
    In collegiate sports, this issue has been addressed by the NCAA and 
in professional sports, individual governing bodies police athletes 
through random testing. However, it seems that no one is doing enough 
to keep steroids out of the hands of athletes, and penalties are not a 
strong enough deterrent to keep those who are determined to use them 
from doing so.
    Sports is big business in the United States. I think we all agree 
that the most important part of this problem is ensuring the health of 
athletes in all levels of competition. However, it's also important 
that when we take our families to sporting events, our children and 
grandchildren know that there is such a thing as a level playing field.
    Thank you Mr. Chairman. I yield the balance of my time.

    Mr. Stearns. At this point, we welcome our colleague, 
Congressman Jim Ryun, one of the greatest middle distance 
runners of all time, and as a 17 year old junior, became the 
first high school student to break the 4 minute barrier in the 
mile, and we welcome, Jim, your opening statement.

 STATEMENT OF HON. JIM RYUN, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF KANSAS

    Mr. Ryun. Mr. Chairman, thank you. It is a great honor to 
be here, and I want to thank you for asking me to participate 
in this most important and timely hearing.
    As a 3 time Olympian and former professional athlete, I 
take this issue before us today both personally and seriously. 
During my career, I ran over 100 miles a week training twice a 
day. I believed then, as I do today, that there is no 
acceptable substitute for hard work when it comes to sports, or 
for that matter, anything really in life.
    I was fortunate to run at a time before performance-
enhancing steroids became a real issue in the professional 
sports arena. In fact, during my athletic career, I did not 
know of any long distance runners that were using steroids. 
Sadly, the running world has not kept that up, and we have been 
hit with steroids, blood doping, through the use of EPO and 
other forms of performance-enhancing drugs.
    While most athletes refuse to use performance-enhancing 
drugs, steroid use has become a serious problem in professional 
athletics today. I find this trend very disturbing. Like it or 
not, professional athletes, as has already been enumerated by 
some of you, are natural role models for our young people, and 
it is time they begin to take this responsibility seriously. 
Today's athletes are sending the wrong message to their young 
fans, a dangerous message that stands not only to have a 
negative impact on their future lives, but also on the rest of 
their lives as a whole. It is encouraging for me to see that 
many professional athletes who have admitted their steroid use 
are now working to educate others on the dangers associated 
with them.
    Using performance-enhancing drugs, in a way, is a way of 
trying to get something for nothing. For many, it is the easy 
road to more fame or money. Steroid use is a method to bypass 
the blood, sweat, and tears of training, and is really nothing 
less than cheating to achieve unnatural results. And as 
Chairman Stearns and I were talking on the way over, to the 
vote, I know my trainer in high school and coach in college 
would say, you know, you are stiff and sore. You get that 
soreness and stiffness out, and you have a good recovery by the 
same way you got it in, and that is to go out and warm up, run 
again, and you will eventually work it out.
    Today, I am speaking as a representative of those who have 
done it the right way. I trained, expecting hard work to reach 
the high level of performances that I achieved. I spent an 
average of 4 to 5 hours a day, each day, working to improve 
upon the God-given skills that I was blessed with, ran 
thousands of miles in all kinds of conditions, and was proud to 
compete with so many athletes who were doing the same thing.
    When others cheat, it robs those who compete fairly of 
reaping the benefits of their hard work. In addition to the 
negative influence steroid use is having on the mindset of our 
society, it also does not come without significant physical 
risks. Athletes are trading a few years of marginal performance 
enhancement for a potential lifetime of negative health 
effects.
    In fact, according to the National Institute on Drug Abuse, 
the major side effects, which some of you have already 
recounted, I want to touch on those again, for abusing anabolic 
steroids can include liver tumors, cancer, jaundice, fluid 
retention, high blood pressure, increase in LDL, which is the 
bad cholesterol, decrease in HDL, which is the good stuff, the 
good cholesterol. Other side effects include kidney tumors, 
severe acne, trembling, and not to mention several other gender 
and age specific problems. In addition, people who inject 
anabolic steroids run the added risk of contracting or 
transmitting HIV/AIDS or hepatitis, which causes serious damage 
to the liver, of course.
    In conclusion, I strongly believe that, if unaddressed, 
this problem will only escalate into a greater problem for 
athletes and millions of others influenced by them. It is time 
that we start sending a positive message to our young people, 
while at the same time, protecting the health and integrity of 
our athletes and the sports they compete in.
    Mr. Chairman, that concludes my prepared remarks. I would 
like to respond, if I may, to one of the questions you actually 
asked earlier.
    Why take drugs? I know as a young athlete, I wanted to make 
an athletic team. There is a tremendous amount of pressure, I 
think, on athletes today to excel. My first venture was not 
extremely successful. I tried to make the baseball team, and I 
went from the outfield to the infield to the bench. I was cut 
from the team, and it was the church baseball team. So, it 
wasn't exactly a stellar start. But I think it represents what 
I wanted to do. I wanted to be involved in sports, so I kept 
trying different sports.
    Eventually, I found the sport of running, which, you know, 
was the talent God gave me, and I had a wonderful coach, who 
knew how to take that talent, and really develop it into what I 
am today. But one of the things that he did, and I think this 
is paramount in what we are dealing with now, is he set 
standards, that if I broke those standards, I would no longer 
be a part of that team. In my day, it wasn't so much steroids 
as it was alcohol. He made it very clear. He said if you get 
involved in any kind of alcohol, if you drink, you are off the 
team. And he cut people from the team. I knew the boundaries 
that I was faced with. I stuck with those boundaries.
    There is pressure on young people to succeed today. I think 
that is one of the reasons they are willing to take that risk, 
but they need to recognize that there are penalties that go 
with it. I knew the penalty that I would be faced with was a 
very stern one. I would no longer compete in athletics. I would 
be finished, because that was his boundary. That was his 
standard. That would help me in the years to come, and that is 
why this is such an important lesson for all of our young 
people.
    So, those are the end of my remarks, and I thank you.
    [The prepared statement of Hon. Jim Ryun follows:]

Prepared Statement of Hon. Jim Ryun, a Representative in Congress from 
                          the State of Kansas

    Mr. Chairman: It is an honor to be here, and I would like to thank 
you for asking me to participate in this most important and timely 
hearing.
    As a three-time Olympian and former professional athlete, I take 
this issue before us today both personally and seriously. During my 
career I ran over 100 miles a week, training twice a day. I believed 
then, as I do today, that there is no acceptable substitute for hard 
work when it comes to sports, or for that matter, anything in life.
    I was fortunate to run at a time before performance enhancing 
steroids became a real issue in the professional sports arena. In fact, 
during my athletic career, I did not know of any long distance runner 
that used steroids. Sadly, the running world has now been hit with 
steroids, blood doping through the use of E.P.O., and other forms of 
performance enhancing drugs.
    While most athletes refuse to use performance enhancing drugs, 
steroid use has become a serious problem in professional athletics 
today.
    I find this new trend to be very disturbing.
    Like it or not, professional athletes are natural role models for 
our young people, and it is time that they begin to take this 
responsibility seriously. Today's athletes are sending the wrong 
message to their young fans, a dangerous message that stands not only 
to have a negative impact on their future athletic lives, but also on 
the rest of their lives as a whole.
    It is encouraging to see that many professional athletes who have 
admitted their steroid use are now working to educate others on the 
dangers associated with them.
    Using performance enhancing steroids is a way of trying to get 
something for nothing. For many, it is the easy road to more fame or 
more money. Steroid use is a method to bypass the blood, sweat, and 
tears of training and is really nothing less than cheating to achieve 
unnatural results.
    Today, I am speaking as a representative of those who did it the 
right way. I trained exceptionally hard to reach the level of 
performance that I achieved. I spent an average of 4 to 5 hours each 
day working to improve upon the God given talent that I had been 
blessed with. I ran thousands of miles in brutal conditions and was 
proud to compete with so many athletes who were doing the same.
    When others cheat, it robs those who compete fairly of reaping the 
benefits of their hard work.
    In addition to the negative influence steroid use is having on the 
mindset of our society, it also does not come without significant 
physical risks. Athletes are trading a few years of marginal 
performance enhancement for a potential lifetime of negative health 
effects.
    In fact, according to the National Institute on Drug Abuse: the 
major side effects from abusing anabolic steroids can include liver 
tumors and cancer, jaundice, fluid retention, high blood pressure, 
increases in LDL (bad cholesterol), and decreases in HDL (good 
cholesterol). Other side effects include kidney tumors, severe acne, 
trembling, and not to mention several other gender and age specific 
problems.
    In addition, people who inject anabolic steroids run the added risk 
of contracting or transmitting HIV/AIDS or hepatitis, which causes 
serious damage to the liver.
    In conclusion, I strongly believe that if unaddressed, this problem 
will only escalate into greater problems for athletes and millions of 
others influenced by them. It is time that we start sending a positive 
message to our young people while at the same time protecting the 
health and integrity of our athletes and the sports they compete in.
    Thank You.

    Mr. Stearns. I thank my colleague, and I just appreciate 
his comments about setting the standards and the boundaries, so 
that young people, and obviously, amateur athletes as well as 
professional athletes. And I think that is part of the core of 
this hearing, is to see why haven't these boundaries been 
established.
    Any member who wish to seek, to ask questions to our 
colleague, Mr. Ryun. Mr. Buyer.
    Mr. Buyer. I would ask, Mr. Ryun, would you advocate a no 
tolerance policy for steroid use for professional athletes and 
college, and high school?
    Mr. Ryun. I would. I believe once you set that standard, it 
begins to be the standard, not only for professional athletes, 
but it sends the message to the younger generation that if they 
break these standards and cross over that boundary, then there 
is a penalty that goes with it.
    You know, we often talk about the rewards of hard work and 
performance, and that there are tremendous accolades that go 
with it. We also need to emphasize the tremendous problems that 
come with the use of drugs, and if we have a no tolerance 
policy. Now, let me qualify that by saying this. If you have 
someone--I know today, for example, you can buy over the 
counter medications. If you innocently somehow have done that, 
there is a process I know in the sport of running where you are 
tested, and if it can be proven that there was some innocence 
involved, then you are given, you know, if you will, a moment 
to recoup from that. But I believe the message needs to begin 
with no tolerance, if you cross this boundary, there are 
penalties that go with it.
    Mr. Buyer. You know, we give a lot of deference in our 
society to governing bodies, such as in amateur sports, and for 
the professional bodies to police themselves. How well do you 
think that these organizations are performing?
    Mr. Ryun. Well, let me try and answer your question by 
actually making a statement at the same time. I think they are 
doing--some of them are doing a reasonable job. But I think 
they need to have encouragement, perhaps sent by this body, 
that oversight and other options are available, should they not 
create a standard that encourages and doesn't allow 
professional athletes to break these boundaries.
    I prefer that the governing bodies would establish those 
standards, and work with them, and--as opposed to Congress 
getting involved. As much as I love the governing body we are 
involved in, I would prefer that would be the second option, as 
opposed to the governing bodies making that decision, setting 
the boundaries, living by them, and doing the appropriate 
thing.
    Mr. Buyer. We have some of these governing bodies, or 
professional sports, that an athlete would even commit a crime, 
whether it is the use of cocaine, whether they can be tested 
for those types of--they can do drug testing. They have been 
arrested for marijuana use. They get them into a drug program, 
rehabilitation. They don't kick them off the team. They say 
they are a professional athlete. This is their job. The 
owners--you know, they don't want to lose their star athletes. 
So, even for when they commit crimes, they say oh, you know, I 
can play basketball a lot better when I am on cocaine. Really. 
And yet, we--those governing bodies permit them to stay as 
athletes. And now, you know, it is kind of strange, if we are 
going to get involved in their business, and they say well, you 
can go ahead and keep your athletes if they commit crimes, but 
with regard to steroid use, we are going to kick you out.
    How--do you have a comment?
    Mr. Ryun. My comment would be that the message that they 
are sending to our younger generation, to our amateur athletes, 
and to our young high school and junior high athletes is that 
there really aren't any boundaries. That if you are good 
enough, or if you can maybe be the exception to the rule, and I 
don't believe there should be exceptions. I think we need to 
enforce those rules. I think we need to move forward to sending 
a message that we won't have that sort of tolerance in the 
future.
    Mr. Buyer. So, in high schools in America, they are trying 
to do that. Would you agree?
    Mr. Ryun. I think many high schools are. I would go back 
to----
    Mr. Buyer. And they are going to no tolerance policies 
today on alcohol and drug usage. And then, when we get into the 
college ranks, something is slipping pretty fast here.
    Mr. Ryun. I think it is that pressure to succeed. And 
often, we lose that--the importance of what it establishes for 
the future generations. I go back to the example I gave a 
moment ago of my high school coach. Anybody participating in 
one of his sports, he had cross country, he had track, and he 
had swimming, knew in advance when going in what the boundaries 
were. And they also knew that if you crossed that boundary, you 
were off the team. It may mean the team would lose, but the 
standard was held, and I think that is important, because it 
sends the right message that we need to have for future 
generations.
    Mr. Buyer. Is it fair for me to infer now from your 
testimony that your counsel to us is, is if these governing 
bodies do not do well in their oversight to set the standards, 
whether they are professional or in amateur sports, that they 
are inviting the scrutiny of the U.S. Congress, or even the 
drafting of standards for them.
    Mr. Ryun. I would prefer that we work with the governing 
bodies, but should they prove ineffective in what they are 
doing, then yes, I believe scrutiny is appropriate. Oversight 
is appropriate as well.
    Mr. Buyer. Thank you, Mr. Ryun.
    Mr. Stearns. I thank my colleague. The gentlelady from 
Colorado.
    Ms. DeGette. Thank you, Mr. Chairman. I don't usually get 
recognized as the young lady, so that is good.
    Congressman Ryun, I really want to thank you for coming 
today, and sharing some of your thoughts. I was particularly 
struck when you talked, in your opening statement, and again, 
just now, about your coach, who talked about knowing the 
boundaries, and sort of a zero tolerance policy.
    The thing I have been concerned about the last few years, 
and I have had it in my backyard at the University of Colorado, 
not so much with steroids, but with sex and underage drinking, 
and it seems to me the culture that grew up there was this 
culture of well, everybody is doing it. This is what we have to 
do to recruit football players to our program, and so, we are 
just going to go along with it. And it took a lot of effort by 
a lot of people, including me, to sort of break them of that 
attitude of well, everybody is doing it, so we have to do it. 
The thing I am concerned about is if all of the coaches don't 
have that same view that your coach had, that we are not 
tolerating this, we are not doing this in this program, and you 
are off the team if you are taking steroids, I mean, it is a 
zero tolerance approach, then what happens is a culture builds 
up where people start surreptitiously doing this, because they 
understand it is not a level playing field if they don't.
    I am wondering how we can break that mentality, if you have 
any thoughts on that.
    Mr. Ryun. First of all, I don't think there are any easy 
answers. Leadership is a very lonely position, but doing the 
right thing, there is good fruit for the future, especially for 
our younger generations, and you know, as you have more and 
more coaches that are willing to take that standard and use 
that as a standard, then I think we will start to see some 
reverses here. I am optimistic enough to believe that as those 
that are willing to stiffen the spine and do the right thing, 
that ultimately, it will pay great dividends.
    Ms. DeGette. I am wondering, we talked about the governing 
bodies, the bodies that oversee these various activities, 
particularly with young people, and is there more that they can 
be doing to discipline coaches or coaching staffs that allow 
the unauthorized use of steroids?
    Mr. Ryun. I think sending the right message, again, the 
zero tolerance policy----
    Ms. DeGette. But I mean, is there more enforcement that--is 
there more incentive they can--either a carrot or a stick 
approach, that they can give to send the right message?
    Mr. Ryun. I would have to think about that some.
    Ms. DeGette. Yes, that would be--I would love to talk to 
you about that. And the last question I have is, is there any 
role in all of this for Congress, either funding more public 
education of the risks of steroids, or putting--or giving 
incentives to programs that have sort of a zero tolerance 
program? Is there something we can do?
    Mr. Ryun. Well, I mentioned earlier to Chairman Stearns 
that I would prefer that the governing bodies of each of the 
individual sports be those that set the standard, but set it 
high enough that you really do have a no tolerance policy. But 
if they aren't able to enforce that, and choose not to, then 
meetings like this do a lot to bring public attention, and in 
many cases, ridicule to a double standard. And it is important 
that you use this as an option. I would prefer that government 
not get involved with those standards. At the same time, that 
becomes a fallback, should they not follow through.
    Ms. DeGette. But what about, though, funding of public 
education, or anything like that? Is there any role--do you 
really see Congress' role purely as sort of a bully pulpit?
    Mr. Ryun. Yes, I think bully pulpit to begin with, and 
again, going back to looking for those individuals who would 
hold that standard, the coaches that are willing to stand 
alone, and to say this is what we will do, and these are the 
results of your decision to get involved in steroids.
    Ms. DeGette. Thank you. Thank you, Mr. Chairman.
    Mr. Stearns. I thank you, and I just remind my colleagues, 
we have two other panels, and second, we have to try to vacate 
this room for Chairman Upton, who wants it at 1, I believe. So, 
anyone else would like questions, obviously, Mr. Upton.
    Mr. Upton. I have a question. We are ready to put this 
under our jurisdiction as well, Telecommunications. Mr. Jim, it 
is--again, we welcome you here, and I just have a brief 
comment, and a short question. That is, this issue of steroids 
has been festering for some time. Let us face it. And there are 
a number of us in the Congress who I think over the last number 
of months, even I would put it into sports technology, seasons, 
trying to tell particularly professional sports to get it 
right. We have tried to use the bully pulpit. I would be 
interested in your answer. Did baseball get it right? MLB?
    Mr. Ryun. I have my questions as to whether they did. It 
doesn't seem to me that it is a consistent policy.
    Mr. Upton. I agree with you. I yield back.
    Mr. Stearns. The gentleman yields back. The gentlelady, Ms. 
Blackburn.
    Mr. Blackburn. Thank you, Mr. Chairman, and to our 
colleague, I say thank you. As my son, who is now 24, was 
training and becoming the State 1-mile champ, we used you as an 
example many a time, and I just do have one question for you.
    When we hear sportscasters go about debating well, maybe we 
should just put an asterisk by someone's name to note that they 
were a record-breaker, but--or they were a champion, but they 
were either convicted or a found or a confirmed user of 
steroids, and knowing how powerful your witness has been, as 
someone who trained and did it right. You and Chariots of Fire 
got us through a lot of tough times, as Chad trained.
    So, I would just like for you to comment, if you would, 
about how it makes you feel when you hear this debated about 
putting an asterisk by someone's name, and do you think that 
those individuals just should be stricken from the record 
books?
    Mr. Ryun. Thank you for your question, Marsha. And I, first 
of all, I believe that it is cheating those who did it right, 
who have worked, often don't get the acclaim that they should, 
but they played by the rules. Yes, I think there should be 
maybe an asterisk, but also, you know, when you list the 
accolades, world record holder, put down steroid user, whatever 
it might be, because if that can be proven, then that should be 
a part of their resume as well.
    Mr. Stearns. The gentlelady. Anyone else seeks recognition. 
Yes.
    Mr. Murphy. Thank you, Mr. Chairman. Real quickly, 
Congressman, it is a--I remember my motivation, back when I was 
in high school, as my track coach, when I was running the mile, 
always berated me I was nowhere near your time. And so, it is--
I won't give you any tough questions in revenge here, but it 
was good to see this, and I was--it is good to know you did 
this the honorable way. It is so important.
    A quick question for schools. You mention about the aspects 
of the student athletes. What recommendations would you have 
for school boards, coaches, and PTAs, to also get the message 
out of the importance of this? And the reason I bring this up 
is an event I have had the honor of volunteering on the last 
several years has been a children's triathlon, that we are 
raising money for Habitat for Humanity. And in that, we 
emphasize the point that every kid should finish, and every 
child who finishes gets a medal, and the top ones get awards, 
et cetera. And of course, there are differences in there, in 
terms of some parents are there to encourage the kids every 
step of the way, and there are some who, perhaps, push a little 
bit too much. But it seems to me we also need to get this 
message out to parents.
    What would you recommend, again, for school boards, 
superintendents, coaches, and parents?
    Mr. Ryun. That they need to establish a standard, just like 
the coach does, of zero tolerance. It is not easily 
established, and it is not very popular at times, perhaps, but 
it is the message that I think we all want to send from here, 
and you can do that in a lot of different ways, and that is one 
way of doing it as well.
    Mr. Murphy. Thank you very much, and thank you, Mr. 
Chairman.
    Mr. Stearns. Anyone else seeks recognition? If not, we will 
go to our second panel, and thank Mr. Ryun for his able 
testimony, and appreciate his time.
    The second panel consists of Mr. Don Hooton. He has also 
started the Taylor Hooton Foundation, which is fighting steroid 
abuse. Dr. Linn Goldberg, Professor of Medicine, Division of 
Health Promotion and Sports Medicine, at Oregon Health and 
Science University, in Portland, Oregon. Mr. Robert Kanaby, 
Executive Director, National Federation of State High School 
Associations. Ms. Sandra Worth, Athletic Trainer Commission, 
Head Athletic Trainer, University of Maryland, on behalf of the 
National Athletic Trainers Association. And Dr. Charles 
Yesalis, Professor at Penn State, dealing with sports medicine.
    I want to welcome all of you here, and Mr. Hooton, we will 
start with you, and thank you very much for coming. Welcome.
    Mr. Hooton. Thank you, Mr. Chairman.
    Mr. Stearns. And we probably just need you to put your 
speaker on, and just move it a little bit toward you. Staff can 
help you.
    Mr. Hooton. Oh. Excuse me.
    Mr. Stearns. There you go.

  STATEMENTS OF DONALD M. HOOTON; LINN GOLDBERG, PROFESSOR OF 
  MEDICINE, DIVISION OF HEALTH PROMOTION AND SPORTS MEDICINE, 
    OREGON HEALTH AND SCIENCE UNIVERSITY; ROBERT F. KANABY, 
 EXECUTIVE DIRECTOR, NATIONAL FEDERATION OF STATE HIGH SCHOOL 
 ASSOCIATIONS; SANDRA WORTH, HEAD ATHLETIC TRAINER, UNIVERSITY 
   OF MARYLAND, ON BEHALF OF THE NATIONAL ATHLETIC TRAINERS 
    ASSOCIATION; AND CHARLES E. YESALIS, PENNSYLVANIA STATE 
                           UNIVERSITY

    Mr. Hooton. Thank you, Mr. Chairman, distinguished members, 
Mr. Barton from my home State of Texas.
    20 short months ago, my youngest son, Taylor, took his own 
life. He was just 2 weeks away from beginning his senior year 
in high school. This past spring, he would have been a pitcher 
on his varsity baseball team, which had been one of his dreams. 
During the fall of his junior year, his JV coach told a 6'3'', 
175 pound young man that he needed to get bigger in order to 
improve his chances of making the varsity team. Taylor took his 
coach's advice seriously, and he resorted to using anabolic 
steroids as a shortcut to reach his goal.
    I am absolutely convinced that Taylor's use of anabolic 
steroids played a significant role in causing the depression 
severe enough to result in suicide, and I have learned that 
what happened to Taylor, the events leading up to and including 
his suicide are right out of the medical textbook on steroids. 
And we have also found out that Taylor is not the only young 
person that this has happened to. Since going public, we have 
been contacted by a number of families from across America 
whose stories are very similar to Taylor's. I would ask you to 
look at the front page of the New York Times today. There is 
another tragic story today from a young man named Efrain 
Marrero, from the State of California.
    Well, just how widespread is steroid use amongst our youth? 
The question is extremely difficult to answer, because the 
users are so secretive about their usage. According to Dr. 
Yesalis, who is here on the panel, and I quote: ``In my 58 
years, other than pedophilia, I have never seen a behavior as 
secretive as this.'' Well, with this secrecy in mind, and based 
on what I have learned from talking with the kids, I believe 
the studies that have been quoted here underestimate the usage 
amongst our kids. Experts in general put the usage rate at 
somewhere between 5 and 6 percent of the total high school 
population. Some studies put the use of steroids at about 11 to 
12 percent of the junior and the senior male high school 
students in some parts of the country, especially the South, 
where I come from.
    During the days following Taylor's funeral, we had a little 
window open, when the kids told us the secrets about what was 
going on. They opened up to my wife and I. They told us that 
there are a lot more kids doing steroids than the percentages I 
just shared with you. Some estimate that at least a third of 
the young men that show up to play high school under the lights 
on Friday night are juicing.
    Many factors contribute to the high usage of steroids 
amongst our kids, including the pressure to win and earn a 
scholarship, combined with heavy peer pressure. I believe a 
major contributor is the example, the poor example being set by 
our professional teams, athletes and management. Our kids look 
up to these guys. They want to do the things that the pros do 
to be successful.
    When I looked for a quote to illustrate the messages that 
are being sent to the kids, I really didn't have to look far. 
All I had to do was pick up Jose Canseco's new book. He tells 
the world: ``I truly believe that because I have experimented 
with it for so many years, that it can make an average athlete 
a super athlete. It can make a super athlete incredible, just 
legendary.'' He attributes his success in baseball to his use 
of steroids, and the kids know that Jose is not the only big 
league player that has used steroids to help them get to the 
top.
    Let me take this opportunity to speak directly to players 
like Barry Bonds and others, who insult our intelligence by 
claiming that they do not know what they have been taking to 
improve their performance. Barry, gentlemen, the next time you 
are wondering what the stuff is that is causing you to gain the 
muscle and strength that allows you to hit so many home runs, 
just ask any high school baseball player in America. They know 
exactly what you have been taking to get those results, and 
they are following your lead. Our youngsters hear the message. 
It is loud, it is clear, and it is wrong. If you want to 
achieve your goals, it is okay to use steroids, because the 
pros are doing it.
    Major League Baseball and other sports need to take serious 
steps to solve this steroid problem. To use steroid sports is 
cheating, in addition to being a felony. Slapping a player on 
the wrist with a 10 game suspension sends just one more signal 
to the kids that management is not talking seriously about 
ridding the game of this junk. Forcing a player to miss just 6 
percent of the season is equivalent to forcing a high school 
kid to sit out just one game during a season. And we really 
shouldn't be talking at all about putting asterisks next to 
these guys' records. We are missing the whole point. They ought 
to be thrown out of the big leagues.
    Over 80 percent of the steroids that are sold illegally to 
our kids in the U.S. come across the border from Mexico. They 
are of very questionable quality. Most are veterinary grade at 
best, designed for horses, pigs, and cattle. They are very easy 
to buy. They are sold by drug pushers at most local gyms. 
Taylor met his dealer at our local YMCA, and yes, they can 
easily be purchased over the Internet.
    So, what do we do about it? I believe testing is a crucial 
way of controlling steroid abuse amongst our athletes, because 
it is the only way to know for sure whether or not these kids 
are using this drug. In addition, a random testing program can 
act as a deterrent against our kids using steroids. Today's 
high school student has no fear of getting caught. There is no 
testing. Most coaches are not taking active steps to stop this 
usage. Parents don't know what to look for, and neither do many 
family physicians, and our law enforcement officials are not 
paying serious attention to this illegal use by our kids. A 
testing program will create the risk of getting caught, and 
will at least give the kids an excuse to say no when they are 
pressured to use steroids.
    Another weapon that we have is education. Students need to 
understand that these drugs can seriously harm them. But 
warning a 16-year-old about the dangers of having a heart 
attack or developing liver cancer when he is 40 years old is 
probably going to fall on deaf ears. That is why I believe our 
coaches are the most serious target for this education. They 
are the key to solving the problem. Coaches are positioned to 
reward the behavior of the steroid user. For example, a young 
man may earn a starting position on the defensive line, because 
of the increase in weight and strength that the kid developed 
when he used steroids over the summer. Coach may not know that 
the player used steroids to achieve the result, but believe me, 
the other kids on the team know how the result was achieved, 
and they get another clear message that they need to take 
steroids in order to compete.
    With this in mind, I believe that we must take steps to 
make coaches more responsible and accountable for supervising 
the situation with the teams. They need to be trained to 
recognize the symptoms of steroid abuse. They need to be 
trained to know what to do about it, and they need to be held 
accountable for ensuring that their teams are steroid-free. 
Coaches should be forced to implement a zero tolerance policy 
against steroid abuse, and our coaches need to be certified. 
They need to have to pass a test to prove they are competent to 
supervise our kids.
    In addition, the medical community needs to step up to this 
problem. Many doctors have told me this is not a subject that 
they are trained on in medical school. Our clinics are not 
prepared to handle steroid abusers. I have heard a number of 
steroid users that were thrown out of traditional drug clinics 
because of their aggressive behavior.
    To help fill the education void, we are working in 
conjunction with experts in this field, like Dr. Gary Wadler 
and others, and have formed a non-profit foundation, the Taylor 
Hooton Foundation, for fighting steroid abuse. The only private 
group that we know of that is organizing to fight this battle, 
and we would love to explore ways to work with you to make our 
foundation part of your efforts moving forward. There are other 
things that you can do, such as strengthening the penalty for 
distribution and possession, and ensuring that existing laws 
are enforced. And we need to find ways to stop the flow of 
steroids across the borders from Mexico.
    Creative legislation is needed now. Doing nothing will 
ensure steroid use will grow. Pros continue to use, coaches 
continue to look the other way, and parents continue to push 
the kids to get that scholarship. Knowingly or unknowingly, our 
kids continue to be pressured into using steroids.
    [The prepared statement of Donald M. Hooton follows:]

                 Prepared Statement of Donald M. Hooton

    20 short months ago, our youngest son Taylor took his own life. He 
was just 2 weeks away from beginning his senior year in high school. 
This past spring, he would have been a starting pitcher on his varsity 
baseball team.
    During the fall of his junior year, his JV coach told this 6'3''--
175 pound young man that he needed to ``get bigger'' to improve his 
chances of making varsity. Taylor took his coach's advice seriously, 
and he resorted to use of anabolic steroids as a short-cut to reach his 
objective.
    I am convinced that Taylor's secret use of anabolic steroids played 
a significant role in causing the severe depression that resulted in 
his suicide. I have learned that what happened to Taylor--the events 
leading up to and including his suicide--are right out of the medical 
``textbook'' on steroids.
    And, Taylor is not the only young person that this has happened to. 
Since going public with Taylor's story, we have been contacted by a 
number of families from across America whose children have met the same 
fate as Taylor.
    How widespread is steroid usage amongst our youth?
    This question is difficult to answer because the users are so 
secretive about their usage. According to Dr. Chuck Yesalis of Penn 
State University, ``In my 58 years, other than pedophilia, I've never 
witnessed a behavior as secretive as this.''
    With secrecy in mind and based on what I have heard directly from 
kids, I believe most studies underestimate actual usage rates.
    Experts put the usage rate at about 4-5% of the total US High 
School population. Some studies have put the use of steroids at about 
11-12% of the junior/senior HS male population in some parts of the 
country--for example, the South.
    During the days following Taylor's funeral, many of Taylor's 
friends opened up to my wife and I about what's really going on amongst 
their peer groups. They told us that there are more kids doing steroids 
than the percentages that I just shared with you. Some estimated that 
at least a third of the high school players that show up to play 
football under the lights on Friday nights are ``juicing.''
    Many factors contribute to the increase in steroid usage amongst 
our kids including the pressure to win and earn a scholarship, combined 
with heavy peer pressure. I believe a major catalyst is the poor 
example being set by our professional teams--athletes and management. 
Our kids look up these guys--they want to do those things that the pros 
do to be successful.
    When I looked for a quote to illustrate the messages that the pros 
are sending to our kids, I didn't have to look far. In Jose Canseco's 
new book he says, ``I truly believe that because I've experimented with 
it for so many years that it can make an average athlete a super 
athlete. It can make a super athlete incredible. Just legendary!'' He 
attributes his success in baseball to his illicit use of steroids.
    And, the kids know that Jose is not the only big league player that 
has used steroids to help them get to the top. Let me take this 
opportunity to speak to players like Barry Bonds and others who insult 
our intelligence by claiming not to know what it is that they've been 
taking to improve their performance--``Gentlemen, the next time you are 
wondering what that stuff is that is causing you to gain the muscle and 
strength that allows you to hit so many home runs, just ask any high 
school baseball player in America. They know exactly what it is that 
you've been taking to get that kind of results and they are following 
your lead.'
    Our youngsters hear the message: it's loud, it's clear, and it's 
wrong--``if you want to achieve your goals, it's okay to use steroids 
to get you there because the pros are doing it.''
    Major League Baseball and other sports need to take serious steps 
to stop the use of steroids by the players. To use steroids in sports 
is cheating in addition to being a felony. Slapping a player on the 
wrist with a 10-game suspension sends just one more signal to the kids 
that management is not serious about ridding the game of this junk. 
Forcing a pro to miss just 6% of the season is equivalent to forcing a 
high school kid to sit the bench for one of his games! And, we 
shouldn't be talking about whether to put an asterisk next to these 
guys' records! We're missing the whole point. We should be throwing 
them out of the big leagues.
    Over 80% of illegally sold steroids our kids are buying come across 
the border from Mexico. They are of very questionable quality--most are 
veterinary grade at best, designed for use in horses, pigs, and cattle. 
They are very easy to buy. They are sold by drug pushers at most local 
gyms--Taylor met his dealer at our local YMCA. And, yes they can even 
be easily purchased over the Internet.
    Now, what can we do about it?
    I believe testing is a crucial way of controlling the abuse of 
steroids among athletes--it is the only way to know for sure whether 
kids are using these drugs. In addition, a random testing program can 
act as a deterrent against kids using steroids. Today's HS student has 
no fear of getting caught--there is no testing, most coaches are not 
taking active steps to stop usage, parents don't know what to look for 
and neither do many family physicians, and law enforcement officials 
are not paying serious attention to the illegal use of steroids by our 
kids.
    A testing program will create a risk of getting caught and will 
give the kids a good excuse to say ``no'' when they are pressured to 
use steroids.
    Another weapon that we have in this fight is education.
    Students need to understand that these drugs can seriously harm 
them. But warning a 16-year-old about the dangers of having a heart 
attack or developing liver problems when he turns 35 or 40 will 
probably fall on deaf ears.
    That's why I believe that our coaches are the most important first 
target for this education--they are the key to solving this problem. 
Coaches are positioned to reward kids that take steroids. For example, 
a young man may earn the starting position on the defensive line 
because of the increase in weight and strength that resulted from 
secret steroid use. The coach may not know that this player used 
steroids to achieve this result. But believe me, the other kids on the 
team know how the result was achieved and they get a clear message that 
they need to take steroids in order to compete.
    With this in mind, I believe that we must take steps to make 
coaches more responsible & accountable for supervising this situation 
with their teams. Coaches need to be:

a) Trained to recognize the symptoms of steroid abuse,
b) Trained to know what to do about it, and
c) Held accountable for insuring that their teams are steroid-free.
    Coaches should be forced to implement a zero tolerance policy 
against steroid abuse.
    In addition, our medical community needs to step up to this 
problem. Doctors have told me that this is a subject that they are not 
trained on in medical school. Clinics are not prepared to handle 
steroid abusers--I have heard about a number of steroid users that were 
thrown out of traditional drug treatment centers because of their 
``aggressive behavior.''
    To help fill the education void, we have formed a non-profit 
foundation--The Taylor Hooton Foundation for Fighting Steroid Abuse, 
the only private group that is organizing to help fight this battle. We 
would like to explore ways to work with you make our Foundation part of 
your efforts moving forward.
    There are other things that you can do such as strengthening the 
penalties for distribution and possession and insuring that existing 
laws are enforced. And we need to find ways to stop the flow of 
steroids across our borders.
    Creative legislation is needed NOW. Doing nothing will insure that 
steroid use will grow. Pros continue to use, coaches continue to look 
the other way for whatever reason, and parents continue to push their 
kids to get that scholarship. Knowingly or unknowingly, our kids 
continue to be pressured into using steroids.

    Mr. Stearns. Thank you very much. Dr. Goldberg.

                   STATEMENT OF LINN GOLDBERG

    Mr. Goldberg. Mr. Chairman and committee members. Thank you 
for the opportunity to testify on this critical issue.
    I am a practicing physician and professor of medicine in 
the Oregon Health and Science University. I have worked with 
young athletes for two decades. I am the father of 5 sons. So 
for me, this has--problem has significance, both personally and 
professionally.
    It is difficult to be a teenage athlete today, but when 
winning turns into a win at all costs mentality, it can be 
destructive. Anabolic steroid use has invaded the world of 
adolescent sport. The NIDA-funded University of Michigan study 
shows that past year and past month use among twelfth graders 
is at an all-time high. Well-publicized problems of high school 
athlete steroid use in Utah, Arizona, today in Connecticut, and 
in Texas, are troubling reminders that this problem can occur 
anywhere.
    Although there is a focus on steroids in professional 
sport, and the President correctly said we need to solve this 
problem, the vast majority of steroid users are attending our 
Nation's high schools as we sit here, and many don't have the 
tools to refuse an offer. Having just been to Texas last week, 
and speaking to coaches and administrators, it is clear that 
these school representatives want to rid their sports programs 
of this growing problem.
    Steroid use has many origins. They include steroid abuse 
both by the high profile athlete and local athletes. There are 
gender and media pressures as well. For females, there is a 
link between disordered eating and depression. For males, there 
are links between unreasonable expectations of becoming a 
professional athlete, risk-taking, impulsivity, and poor 
decisionmaking.
    One specific influence that promotes the tacit acceptance 
of steroid use has emerged through advertisers who glibly use 
the term ``on steroids'' to market their products, literally 
saying that their merchandise is bigger and better, as if it 
were on steroids. This includes the 3M corporation's ad stating 
that its ``Post-it Easel'' is like a ``Post-it Note'' on 
steroids, the U.S. Satellite Broadcasting's boast that its 
digital picture and sound are like ``putting your TV on 
steroids,'' and Saab, comparing its car engine to the muscles 
created from steroid use.
    Anabolic steroid use has numerous physical and 
psychological risks, and these risks may be even greater among 
adolescents, due to differences in physiology, lower body mass, 
and lack of hormonal maturity. So, what is the solution? With 
funding from the National Institute on Drug Abuse, we have 
studied this problem, and developed two specific programs. 
Initially, we learned what would not work. We found that scare 
tactics, just say no, informational pamphlets, and adult 
lectures do not deter steroid use. High school students don't 
typically listen to lectures, they don't read pamphlets, and 
they often feel invulnerable. But what we did find that did 
work, we learned that we had to separate girls and boys, as 
their reasons for using these drugs differ. Second, the 
information discussions need to be led by peers, not coaches, 
because kids listen to kids. Third, there needed to be younger 
and older students present, so the more mature athletes could 
serve as role models. And last, the instructor, the 
facilitator, needed to be someone the students respect, in and 
out of the classroom, and those are the coaches. These 
necessary components are present in nearly every sports team in 
the United States.
    Armed with NIDA's support, ATLAS, the program for young 
men, and ATHENA, the program for young women, were born. These 
programs provide healthy sports nutrition, strength training as 
alternatives to athletic-enhancing and body-shaping drugs, 
while reducing the risk factors that promote use of alcohol and 
other harmful substances. The messages are clear and tailored 
to each gender, and students really enjoy the activities. Peer 
leaders do the bulk of the teaching, and the coaches assist 
them.
    After ATLAS, athletes had reduced alcohol and illicit drug 
use, more than a 50 percent reduction in steroid use, reduced 
sports supplement use, and less drinking and driving. ATHENA 
athletes had reductions in new sports supplements, diet pills, 
amphetamines, and steroid use, lowered alcohol and marijuana 
use, that was long-term, and less riding in cars with drinking 
drivers.
    ATLAS was awarded the Model Program status by SAMHSA, and 
recognized as exemplary by the U.S. Department of Education. 
ATLAS and ATHENA are the feature prevention programs listed in 
the Anabolic Steroid Control Act of 2004, and these education 
initiatives require funding. During high school, students 
establish habits that can last a lifetime. To prevent steroid 
use, schools need to do what they do best, educate. They need 
to educate parents, teachers, coaches, and athletes.
    ATLAS and ATHENA are examples of rigorous research-based 
programs being used for public service. They improve the health 
of young athletes, and recapture the healthy mission of sport.
    [The prepared statement of Linn Goldberg follows:]

Prepared Statement of Linn Goldberg, Professor of Medicine, Division of 
     Health Promotion and Sports Medicine, Oregon Health & Science 
                               University

    Mr. Chairmen and members of the committees: Thank you for the 
opportunity to testify on this critical issue. I am a practicing 
physician, professor of medicine and Head of the Division of Health 
Promotion & Sports Medicine at the Oregon Health & Science University 
in Portland, Oregon. For nearly two decades, I have worked with young 
athletes and have been engaged in the study of anabolic steroids and 
other performance enhancing drug use. I also am the father of five 
sons. For me, this problem has significance, both personally and 
professionally.
    It is difficult to be a teenage athlete today. More than 50% of 
high school students participate in school-sponsored athletics, and 
these student-athletes face the pressure to succeed, perform at a high 
level, and win for themselves, their team, parents, schools and 
communities. When winning becomes more important than developing well-
adjusted student-athletes, this often translates into substance abuse 
and antisocial behavior.
    Anabolic steroid use has invaded the world of adolescent sport. 
Despite a perception that student-athletes are not involved in 
unhealthy behaviors, young athletes participate in substance abuse at a 
rate similar to that of non-athletes and they have even higher rates of 
performance enhancing drug and supplement use. The most recent 
Monitoring the Future survey shows that past year and past month 
steroid use among high school seniors is at its highest level since 
self-reported use was first assessed over a decade ago. The arrest of 
Utah high school students traveling in a van loaded with steroids, and 
the recent admitted use of these drugs by high school teams in Arizona 
and Texas, are reminders that this problem requires immediate action.
    Despite the focus on steroid use among selected professional and 
Olympic athletes, and news reports of use by police officers, the vast 
majority of steroid users are in our nation's high schools. Based on 
the May, 2004 Centers for Disease Control report, there are more than 
800,000 high school students who have used or are currently using 
anabolic steroids. Also, because steroids have not been a focus of 
youth drug prevention, and since high school drug prevention is 
limited, young athletes are unprotected at a time when they are 
particularly vulnerable to the inducements and risks of these drugs.
    Steroid use among children and adolescents has several origins. 
Besides the significant role model effect from high profile steroid 
abusing athletes, there are gender and media pressures. For adolescent 
females, the desire toward being thin is compounded by the needs of 
their sport, resulting in disordered eating, depressive symptoms and 
use of body-shaping drugs, including steroids. For young male athletes, 
there are unrealistic expectations for their future as collegiate and 
professional athletes, coupled with risk-taking and impulsive behaviors 
that lead to performance-enhancing drug use. Adolescent male steroid 
use has been found to be related to anti-social behavior, and use of 
alcohol and other drugs.
    Another critical influence toward the acceptance of steroid use may 
have emerged among advertisers who glibly use the term, ``on steroids'' 
to market their products. These strategies promote the idea that being 
``on steroids'' relates to their merchandise being bigger and better. 
This includes the 3-M corporation's ad stating that its ``Post-it 
Easel'' is like a ``Post-it Note'' on steroids, or U.S. Satellite 
Broadcasting's boast that its digital picture and sound are like 
``putting your TV on steroids.'' A recent shoe ad describes its cross 
training athletic shoe to be ``cross trainers on steroids,'' while a 
Saab automobile advertisement compared their vehicle's engine to the 
large muscles derived from steroid use with the title, ``Saab vs 
Steroids.'' Could anyone imagine marketing strategy that makes the 
analogy that their product is ``on'' any other drug of abuse, like 
cocaine, LSD, or marijuana? In our society, only steroid drugs are 
associated with being bigger and better and used in ad campaigns.
    Anabolic steroid use has numerous risks. These risks may be even 
greater among adolescents, due to differences in physiology, body mass, 
and maturity. Current scientific data probably underestimates the 
actual harmful effects of steroid use because of the low doses studied 
in most research, which do not approach the typical doses used by 
steroid users. Because there are no long-term scientific studies of use 
at the extreme levels taken by athletes, research into the effects have 
been left to animal studies, case reports, and lower dose use. These 
documented harms include: 1) increased risk for cardiovascular disease, 
including heart attacks and strokes; 2) the risk of various liver 
diseases, especially for those who use the oral steroids; 3) tumors, 
including those of the prostate and liver; 4) tendon rupture; 5) kidney 
failure; 6) masculinization of women; 7) stunting the height of 
children and adolescents; and 8) psychological disturbances ranging 
from suicidal depression to uncontrolled aggression. In addition, 
because of needle sharing, the risk of HIV/AIDS, hepatitis, and serious 
infections are ever-present.
    So, what is the solution? To combat the growing use of steroids and 
associated behaviors, my colleague Diane Elliot and I engaged in 4 
years of formative research. Initially we learned what would not work. 
We found that scare tactics, informational pamphlets and adult lectures 
would not deter students from steroid use, since high school students 
don't enjoy lectures, don't read pamphlets and often feel invulnerable. 
What we did learn however, was that an effective prevention program 
would need four major components. First, we needed to separate the 
girls and boys, because their risk and protective factors for harmful 
behaviors differ. Second, the information and discussions needed to be 
led by peers, because kids listen to kids, and the venue should be a 
place where students work together and share common goals. Third, there 
needed to be younger and older students present, so the more mature 
students could serve as role models. Fourth, an instructor needed to be 
someone the students respect, in and out of the classroom. As you can 
see, these necessary components are present in every high school sport 
team.
    After learning these lessons, we applied for and were awarded 
funding from the National Institute on Drug Abuse. With NIDA funding, 
ATLAS, the program for young men, and ATHENA, the program for young 
women, were born. ATLAS and ATHENA are team-centered, programs, with 
most of the teaching performed by student-athletes, and facilitated by 
the coach. These programs provide healthy sports nutrition and 
strength-training as alternatives to use of athletic-enhancing and 
body-shaping drugs, while reducing risk factors that promote use of 
alcohol and other illicit substances that can harm sport performance. 
The messages and activities are clear and tailored to each gender. Not 
only are these programs successful, kids really enjoy them. Today, 
schools from 29 states and Puerto Rico have selected these programs for 
use.
    Athletes Training & Learning to Avoid Steroids
    Athletes Targeting Healthy Exercise & Nutrition Alternatives
    The results of ATLAS and ATHENA have been published in prestigious, 
peer-reviewed scientific journals, including JAMA (Journal of the 
American Medical Association) and the Archives of Pediatrics and 
Adolescent Medicine. Findings for ATLAS include:

 Significant decreases in alcohol and illicit drug use
 More than 50% reduction in new anabolic steroid use
 More than 40% reduction in performance enhancing supplement use
 24% reduction in drinking and driving
 Improved dietary behaviors, increased physical capacity, and reduced 
        body fat
    For ATHENA, the changes include:

 More than 50% reduction in new sport supplements, amphetamines & 
        steroid use
 More than 50% reduction in new and ongoing use of diet pills
 Long-term reductions in alcohol and marijuana use
 A reduction in riding in cars with drinking drivers, and an increase 
        in seat belt use
 A reduction in new sexual activity
 Improved nutrition and strength training behaviors
 Fewer sports injuries
    After careful review by federal agencies, ATLAS was awarded Model 
Program status by the Substance Abuse and Mental Health Services 
Administration and was recognized as one of only nine Exemplary 
Programs by the United States Department of Education. ATLAS and ATHENA 
are the only featured prevention programs listed in the Anabolic 
Steroid Control Act of 2004.
    The high school years represent a critical window of opportunity to 
prevent the use of steroids, alcohol and other drugs. During this 
period, students are establishing habits that will last a lifetime. 
Schools need to do what they do best--educate. They need to educate 
coaches, parents and their athletes. ATLAS and ATHENA are examples of 
rigorous research initiatives that have turned into important public 
health interventions that can be easily implemented by school districts 
throughout the United States. ATLAS and ATHENA and programs modeled 
after them, can improve the health of young athletes and recapture the 
healthy mission of sport.

                        SUMMARY OF MAJOR POINTS

     Student-athletes face pressures to succeed in their sport. For 
some schools winning appears more important than developing well-
adjusted student-athletes. When this occurs, it can lead to substance 
abuse and antisocial behavior.
     Monitoring the Future reports that past year and past month 
steroid use among high school seniors is at its highest level since 
steroid use was first assessed. Although there has been a focus on 
Olympic and professional athletes' steroid use, most users are high 
school athletes. The CDC suggests over 800,000 teens report current or 
prior use.
     Male and female adolescents use steroids for different reasons. 
For females, it is related to disordered eating practices and 
depressive symptoms; whereas for males it is more related to being 
muscular, risk-taking, anti-social behavior and use of alcohol and 
other drugs.
     Steroid use can cause significant physical and psychological 
harm. Risks include heart attacks, strokes, certain tumors, liver 
disease, depression and uncontrolled aggression. These drugs can stunt 
the height of growing adolescents and masculinize women. The unhealthy 
effects of steroids are more likely to occur among adolescents than 
adults.
     ATLAS and ATHENA are two NIDA funded, gender-specific, sport team 
programs that use peer teaching and a coach facilitator. These 
research-tested, interactive programs provide sports nutrition and 
strength training as alternatives to use of athletic-enhancing and 
body-shaping drugs, and reduce risk factors that promote use of other 
substances that can harm sport performance. ATLAS and ATHENA athletes 
showed reduction of steroids, alcohol and other drug use, and improved 
health behaviors.
     ATLAS and ATHENA are easily implemented into schools, are 
enjoyable to students, improve the health of young athletes and 
recapture the healthy mission of sport.

                               References

    Aaron, D.J., Dearwater, S.R., Anderson, R., Olsen, T., Kriska, 
A.M., & LaPorte, R.E. (1995). Physical activity and the initiation of 
high-risk health behaviors in adolescents. Medicine and Science in 
Sports and Exercise, 27, 1639-1642.
    American College of Sports Medicine (ACSM) (1997). Position Stand 
on the Female Athlete Triad. Medicine and Science in Sports and 
Exercise, 29, i-ix.
    Bagberi, S. (1974). Peliosis hepatic associated with anabolic-
androgenic steroid therapy. A severe form of hepatic injury. Annals of 
Internal Medicine, 81, 610-618.
    Bell, R.M., Ellickson, P.L., & Harrison, E.R. (1993). Do drug 
prevention effects persist into high school? How Project Alert did with 
ninth graders. Preventive Medicine, 22(4), 463-483.
    Centers for Disease Control and Prevention, Surveillance Summaries 
(2004). Mortality and Morbidity Weekly Report, May 21, 53, 15. http://
www.cdc.gov/mmwr/PDF/SS/SS5302.pdf
    DuRant, R.H., Escobedo, L.G., & Heath, G.W. (1995). Anabolic-
steroid use, strength training, and multiple drug use among adolescents 
in the United States. Pediatrics, 96(1), 23-28.
    DuRant, R.H., Rickert, V.I., Ashworth, C., Newman, C., & Slavens, 
G. (1993). Use of multiple drugs among adolescents who use anabolic 
steroids. New England Journal of Medicine, 328, 922-926.
    Elliot, D., Goldberg, L., Moe, E., et al (1996). The ATHENA 
(Athletes Targeting Healthy Exercise and Nutrition Alternatives) 
Program: characterizing those predisposed to drug use & eating 
disorders. Medicine and Science in Sports and Exercise, 28, S155.
    Elliot, D.L., Goldberg, L., Moe, E.L., DeFrancesco, C.A., Durham, 
M.B., Hix-Small, H. (2004). Preventing Substance Use and Disordered 
Eating: Initial Outcomes of the ATHENA (Athletes Targeting Healthy 
Exercise & Nutrition Alternatives) Program. Archives of Pediatrics and 
Adolescent Medicine, 158, 1043-1049.
    Elliot, D.L., Goldberg, L., Wolf, S.L., & Moe, E.L. (1998). High 
school coaches underestimate female athletes' drug use and disordered 
eating. Journal of Strength and Conditioning Research, 20, 31-34.
    Goldberg, L. (1996). Adverse effects of anabolic steroids. The 
Journal of the American Medical Association, 276, 257.
    Goldberg, L., Bents, R., Bosworth, E., Trevisan, L., & Elliot, D.L. 
(1991). Anabolic steroid education and adolescents: Do scare tactics 
work? Pediatrics, 87, 283-286.
    Goldberg, L., Elliot, D., Clarke, G.N., MacKinnon, D.P., Moe, E., 
Zoref, L., Green, C., Wolf, S.L., Greffrath, E., Miller, D.J., & Lapin, 
A. (1996) (b). Effects of a multidimensional anabolic steroid 
prevention intervention. The Journal of the American Medical 
Association, 276,1555-1562.
    Goldberg, L., Elliot, D.L., Clarke, G.N., MacKinnon, D.P., Zoref, 
L., Moe, E., Green, C., & Wolf, S.L. (1996) (a). The adolescents 
training and learning to avoid steroids (ATLAS) prevention program. 
Archives of Pediatrics and Adolescent Medicine, 150, 713-721.
    Goldberg, L., MacKinnon, D.P., Elliot, D.L., et al. (2000). The 
adolescents training and learning to avoid steroids program: Prevention 
drug use and promoting health behaviors. Archives of Pediatric and 
Adolescent Medicine, 154, 332-338.
    Hurley, B.F., Seals, D.R., Hagberg, J.M., Goldberg, A.C., Ostrove, 
S.M., Holloszy, J.O., Wiest, W.G., & Goldberg, A.P. (1984). High-
density-lipoprotein cholesterol in bodybuilders v powerlifters: 
Negative effects of androgen use. The Journal of the American Medical 
Association, 252, 507-513.
    Johnston, L. D., O'Malley, P. M., Bachman, J. G. & Schulenberg, J. 
E. (December 21, 2004). Overall teen drug use continues gradual 
decline; but use of inhalants rises. University of Michigan News and 
Information Services: Ann Arbor, MI. www.monitoringthefuture.org; 
accessed MM/DD/YY.
    MacKinnon, D.P., Goldberg, L., Clarke, G.N., Elliot, D.L., Cheong, 
J., Lapin, A., Moe, E.L., & Krull, J.L. (2001). Mediating mechanisms in 
a program to use anabolic steroids and improve exercise self-efficacy 
and dietary behavior. Prevention Science, 2, 15-28.
    McNutt, R.A., Ferenchick, G.S., Kirlin, P.C., & Hamlin, N.J. 
(1988). Acute myocardial infarction in a 22-year-old world class weight 
lifter using anabolic steroids. The American Journal of Cardiology, 
62,164.
    Middleman, A. B., Faulker, A. H., Woods, E. R., Emans, S. J., & 
DuRant, R. H. (1995). High-risk behaviors among high school students in 
Massachusetts who use anabolic steroids. Pediatrics, 96, 268-272.
    Miller, D. et al. (1998). The ATLAS program: effects on body 
composition and athletic performance. Medicine and Science in Sports 
and Exercise, 30, S241.
    Miracle, A.W., & Rees, R. (1994). Lessons of the Locker Room: The 
Myth of School Sports. Buffalo, NY: Promethius Books.
    Moe, E.L., Goldberg, L., MacKinnon, D., Elliot, D., Cheong, J., & 
Yoon, M. (2002). Nutritional supplements: are they precursors to 
anabolic steroid and other substance use? Presentation: Society for 
Prevention Research National Meeting. Seattle, WA: Prevention Research.
    National Federation of State High School Associations (NFHS), 
Participation Sets Record for Sixth Straight Year 2004 (http://
www.nfhs.org/scriptcontent/Va_custom/va_cm/
contentpagedisplay.cfm?content_ID=485
    Pope, H.G. Jr., & Katz, D.L. (1989). Affective and psychotic 
symptoms associated with anabolic steroid use. The American Journal of 
Psychiatry, 146, 679.
    Shope, J.T., Copeland, L.A., Kamp, M.E., & Lang, S.W. (1998). 
Twelfth grade follow-up of the effectiveness of a middle school-based 
substance abuse prevention program. Journal of Drug Education, 28(3), 
185-197.
    Skolnick, A.A. (1993). Studies raise doubts about benefit of 
athletics in reducing unhealthy behavior among adolescents. The Journal 
of the American Medical Association, 270(7),798-799.
    Yoshida, E.M., et al. (1994). Severe cholestasis and jaundice 
secondary to an esterified testosterone, a non C17 alkylated anabolic 
steroid. Journal of Clinical Gastroenterology, 18, 268-270.

    Mr. Stearns. Thank the gentleman. Mr. Kanaby, Dr. Kanaby.

                 STATEMENT OF ROBERT F. KANABY

    Mr. Kanaby. Thank you, Mr. Stearns. I want to thank you, 
Chairman Stearns, Chairman Deal, Ranking Member Schakowsky, 
Ranking Member Brown, and the distinguished members of these 
combined subcommittees, for the opportunity to testify today, 
pardon me, on the issue of steroid use amongst our young 
athletes.
    I have served as Executive Director of the National 
Federation of State High School Associations for the past 12 
years. Also in my background, I served 13 years as the 
Executive Director of the New Jersey High School Athletic 
Association, and before that, some 19 years, in the New Jersey 
public schools, as a teacher, coach, and high school principal. 
The membership of the NHFS, our organization, are very aware 
and concerned about this growing problem of steroid and 
performance-enhancing drug distribution, and use in high 
schools, and the ever growing influence of the use in higher 
levels of competition. The average high school student has 
little sense of mortality, but a huge sense of where he or she 
stands within their peer group context. That is an explosive 
combination when products exist and are easily obtained that 
can make a young person stronger, faster, and more athletic.
    Permit me to give you just a brief background on the NFHS 
and its role in high school sports and activities. It is the 
national service and administrative organization for high 
school athletics, fine arts, and programs in speech, debate, 
theater, and music. Its purpose is to provide leadership and 
coordination of these activities, to enhance the educational 
experiences and the educational purposes to high school 
students, and to reduce the risks incident to their 
participation. We promote inclusiveness and sportsmanship in 
all that we do, and its paramount goal is to develop good 
citizens through sports and activities. Its independent 
members, the 50 high school associations in each State and the 
District of Columbia, conduct championships and enforce 
eligibility rules in their own respective jurisdictions. The 
NHFS promulgates voluntary rules of play for the Nation's 7 
million high school student athletes, and unlike the NCAA, the 
NHFS does not perform enforcement functions, nor sponsor any 
national events.
    We know steroids are harmful, terribly harmful, but 
unfortunately, in a society where a bigger, faster, and 
stronger mentality prevails, young people often turn to 
steroids and performance-enhancing drugs to get the edge, often 
unaware or ignoring the potential health risks essential and 
associated with such products. These health risks range, as you 
have so accurately stated, from the mundane to the absolute 
lethal.
    Over 1 million young people in the United States have used 
steroids at least once in their lifetimes, according to our 
statistics, and more than one third of high school steroid 
users do not participate in interscholastic sports. So, it is a 
problem that transcends even the issue of which we have been 
speaking about here.
    Our difficulty is to inhibit usage. That is the challenge 
before us, to answer the question what can be done to 
discourage their usage and distribution amongst our young 
people. Unfortunately, like most things, there is no one quick 
fix. Anabolic steroids pose as complicated an issue as all the 
other drugs and social welfare problems that plague our society 
today.
    But there are things that are being done. Dr. Goldberg just 
mentioned the conference. One of the cosponsors of that 
conference a week ago in Dallas, Texas, which I also attended, 
is the UIL, which is our member State association in Texas. 
Many other State associations are taking action on these 
issues. The California Interscholastic Federation provides an 
excellent example of what can be done in the way of education. 
The CIF, in cooperation with the United States Drug Enforcement 
Agency, held a Steroid Summit last fall, and distributed health 
bulletins to its member schools. Additionally, this month, the 
CIF will send almost 1,400 member high schools an educational 
PowerPoint presentation which emphasizes the dangers of 
anabolic steroids. We have provided the committees with a copy 
of that program. Through an aggressive plan of coach-student, 
coach-parent, school administrator-student meetings and 
presentations, the full truth about steroids must reach their 
target audience.
    Other things that are occurring as we speak. At the 
Virginia General Assembly, recently passed a bill which is 
currently awaiting the Governor's signature. The legislation 
will allow our Virginia High School League to establish rules 
whereby a student, who has used steroids, unless prescribed by 
a licensed physician for a medical condition, would be declared 
ineligible for a minimum of 2 years. Additionally, the Michigan 
State legislature is currently conducting hearings on a bill 
that would require each local board of education to have a 
policy that includes a prohibition of performance-enhancing 
drugs, but leaves the period of ineligibility determination to 
the local schools. The prohibited drugs are those that are 
banned by our partners, the National Collegiate Athletic 
Association, including steroids. This approach is important to 
note, for the committee to understand, because neither the 
National Federation, nor our member State associations, have 
the authority to mandate adoption of such a rule at the local 
school level. This remains a local school prerogative.
    What do we recommend? Well, the Anabolic Steroid Control 
Act of 2004 is certainly a step in the right direction, and we 
have supported that from its early initiation, and we applaud 
Congress' efforts thus far. But we believe that for high 
schools, it is important to continue and enhance the efforts 
currently underway to educate students on the dangers of using 
these products.
    Testing can work, but we believe it can work to a degree. 
As the American Academy of Pediatrics notes, random drug 
testing is a deterrent at the Olympic level, the NCAA level, 
and professional sports levels, but it is probably too costly 
for widespread use in high schools. Bluntly stated, high 
schools lack the money to test, an ongoing testing program, for 
steroids. To put the cost issue in perspective, the NCAA spends 
about $4 million each year on drug testing for its 360,000 
student athletes. There are 20 times that number of student 
athletes at the high school level, not to mention those who are 
not involved in interscholastic sports.
    One of the good things about teenagers, and there are many 
good things about teenagers, is that they are trusting of 
adults who don't abuse such trust. They are more likely to 
believe us when we tell them both sides of the story. Much as 
they would like bigger muscles, they already know enough about 
acne to understand that they don't want more of it, and they 
certainly don't want the other short-term problems, too.
    But we must focus not only on educating our young people, 
but we must focus on educating our coaches, our school 
administrators, parents, and the community at large, in order 
to deal with this issue. The NHFS Coaches Education Program, 
which annually trains 40,000 to 50,000 coaches a year, 
including on this subject, is a good example, but it is far too 
little, in terms of meeting and heading off this problem.
    Mr. Stearns. Mr. Kanaby, I will ask you----
    Mr. Kanaby. I am sorry.
    Mr. Stearns. [continuing] to sum up. We are----
    Mr. Kanaby. I apologize.
    Mr. Stearns. No, it is okay. We are generally keeping it 
within the range of 5 minutes, as an opening statement. So, if 
you could.
    Mr. Kanaby. Let me conclude by simply saying that we stand 
ready and prepared to work with this committee, as well as 
Congress and our government, to try to deal with this issue, 
through our member State associations. We have a network in 
place, and we do a good job of delivering information, or can 
do a good job of delivering information to students and coaches 
and administrators. And we are prepared to assist in any way 
that we possibly can to do that.
    [The prepared statement of Robert F. Kanaby follows:]

 Prepared Statement of Robert F. Kanaby, Executive Director, National 
              Federation of State High School Associations

Introduction
    Thank you Chairman Stearns, Chairman Deal, Ranking Member 
Schakowsky, Ranking Member Brown and distinguished Members of the 
Subcommittees for the opportunity to testify today on the issue of 
Steroid use among our young athletes. My name is Robert Kanaby and I 
have served as the Executive Director of the National Federation of 
State High School Associations (NFHS) for the past 12 years. Prior to 
that, I served 13 years as the Executive Director of the New Jersey 
State Interscholastic Athletic Association. I have also been a high 
school teacher, coach, vice principal and principal.

The Problem
    In my role as the Executive Director of the NFHS, I have become 
keenly aware of the growing problem of steroid and performance 
enhancing drug distribution and use in high schools and all levels of 
athletic competition. Last week, as it happens, I attended a conference 
in Houston, Texas focusing on this very problem.
    The average high school student has little sense of mortality, but 
a huge sense of where he or she stands within a peer group context. 
That is an explosive combination when products exist that can make a 
young person stronger, faster and more athletic. The products, anabolic 
steroids and their ilk, are effective; let's not delude ourselves on 
that point. Thus, the key questions we face in considering this problem 
are the following: 1. Are steroids harmful? and 2. If so, how can we 
discourage their use by teenagers? These questions have long been of 
interest to the NFHS.

Who Are We?
    Let me give you some background on the NFHS and its role in the 
high school sports and activities community.
    The NFHS is the national service and administrative organization 
for high school athletics and fine arts programs in speech, debate, 
theater and music. Its purpose is to provide leadership and 
coordination of these activities to enhance the educational experiences 
of high school students and reduce the risks incident to their 
participation. The NFHS promotes inclusiveness and sportsmanship, and 
its paramount goal is to develop good citizens. Its members, the 50 
high school associations in each state and the District of Columbia, 
conduct championships and enforce eligibility rules in their respective 
jurisdictions.
    The NFHS promulgates voluntary rules of play for the nations 
7,000,000 high school student-athletes. (Unlike the NCAA, the NFHS does 
not perform enforcement functions.) In coordinating a variety of 
activities incident to high school sports, one of its key functions is 
to obtain and disseminate health and safety-related information. For 
example, the NFHS has promulgated a statement on drug and supplement 
usage and supplement that has been adopted as policy by many of the 
nation's 18,000 high schools.

Are Steroids Harmful?
    With respect to the first question, whether steroids are harmful, 
the answer is an unequivocal yes. But unfortunately, in a society where 
a ``bigger, faster, stronger'' mentality prevails, young people often 
turn to steroids and performance enhancing drugs to get the ``edge,'' 
often unaware or ignoring the potential health risks associated with 
such products. These health risks range from the mundane to the lethal. 
According to the American College of Sports Medicine, ``anabolic 
steroid use has been implicated in early heart disease, including 
sudden death, the increase of bad cholesterol profiles (increased LDL, 
lower HDL), an increase in tendon injuries, liver tumors, testicular 
atrophy, gynecomastia (abnormal enlargement of breast in males), male 
pattern baldness, severe acne, premature closure of growth plates in 
adolescents, emotional disturbances and other significant health 
risks.'' The National Institute on Drug Abuse adds to this list many 
behavioral side effects of anabolic steroid use including, paranoid 
jealousy, delusions, increased irritability and aggression (often 
called ``roid rage'').

Facts/Studies Regarding Anabolic Steroid Use
    Over one million young people in the United States have used 
steroids at least once in their lifetimes. And more than one-third of 
high school steroid users do not participate in interscholastic sports. 
A ``Monitoring the Future'' survey, funded by the National Institute on 
Drug Abuse, reported an increase in anabolic steroid use and a decrease 
in perceived harm among 10th graders from 1998 to 1999. This same 
survey annually measured whether 8th, 10th and 12th graders had ever 
used anabolic steroids, used anabolic steroids in the past year, and 
used anabolic steroids in the past month. The 2003 survey indicated 
2.5% of 8th graders, 3.0% of 10th graders, and 3.5% of 12th graders had 
used anabolic steroids at some time.

Inhibiting Usage
    The more problematic issue we face in dealing with anabolic 
steroids, after determining harm associated with them, is what can be 
done to discourage their usage and distribution among our young people? 
Unfortunately there is no one quick fix, anabolic steroids pose as 
complicated an issue as all of the other drug and social welfare 
problems that plague society. While complicated and difficult, it is 
imperative we address these issues and be committed to making a change.

What is Already Being Done?
    Many state high school associations are already taking action. For 
example, the California Interscholastic Federation provides an 
excellent example of what can be done in the way of education. The CIF, 
in cooperation with the United States Drug Enforcement Agency held a 
``Steroid Summit'' last fall, and distributed health bulletins to 
member high schools. Additionally, this month the CIF will send to 
almost 1400 member high schools an educational Power-Point presentation 
which emphasizes the dangers of anabolic steroids. The power-point 
presentation is attached. Through an aggressive plan of coach-student, 
coach-parent, school administrator-student meetings and presentations, 
the full truth about steroids will reach the target audience.
    Other member state associations are looking towards their local 
legislatures for assistance. The Virginia General Assembly recently 
passed a bill which is currently awaiting the Governor's signature. The 
legislation will enable the Virginia High School League to establish 
rules whereby a student, who has used steroids, unless prescribed by a 
licensed physician for a medical condition, would be declared 
ineligible for two years.
    Additionally the Michigan state legislature is currently conducting 
hearings on a bill that would require each local board of education to 
have a policy that includes a prohibition of performance enhancing 
drugs, but leaves the period of ineligibility determination to the 
local schools. The prohibited drugs are those banned by the National 
Collegiate Athletic Association, including steroids.

What does the NFHS recommend?
    The Anabolic Steroid Control Act of 2004 is a step in the right 
direction. The NFHS was one of the early supporters of that legislation 
and we applaud Congress' efforts thus far, but more needs to be done. 
We believe that for high schools it is important to continue and 
enhance the efforts currently underway to educate students on the 
dangers of using these products.

Testing
    Testing works. As the American Academy of Pediatrics notes, 
``random'' drug testing is a deterrent at the Olympic, NCAA, and 
professional sports levels, but it is probably too costly for 
widespread use in high school. It is expensive, both from the 
standpoint of the tests themselves, and because of the litigation that 
can ensue from positive tests.
    Bluntly stated, high schools lack the money to test for steroids. 
To put the cost issue in perspective, the NCAA spends $4,000,000 each 
year on drug testing for its 360,000 student-athletes. There are twenty 
times that many student-athletes at the high school level. There are 
also potentially difficult legal issues to consider relating to 
minority, privacy and informed consent. All that aside, however, we 
must recognize that in an era of scarce resources, steroid testing is 
way down on budgetary pecking order for most school districts. This is 
particularly true if there is another good way to address the problem, 
and there is.

Education
    One of the good things about teenagers, and there are lots of good 
things about them, is that they are trusting of adults who don't abuse 
such trust. If we are honest with young people about the positive 
aspects of steroids (which they already know), they are much more 
likely to believe us when we tell them the other side of the story. 
Much as they would like bigger muscles, they already know enough about 
acne to understand they don't want more of it. They certainly don't 
want the other short-term problems either. The long-term problems are 
even worse.
    But we must focus on educating not only coaches and athletes, but 
school administrators, parents and the community at large. Fortunately, 
there are some good sources of education about steroids. One of the 
best on-line services for the student-athlete audience is the Resource 
Education Center maintained by the National Center for Drug Free Sport 
[www.drugfreesport.com]. There are also excellent programs for coaches 
and administrators, and various educational programs have, in fact, 
been implemented to address the use of steroids and performance 
enhancing drugs. The NFHS Coaches Education Program is a good example.
    From a delivery standpoint, the NFHS and its members are 
experienced providers. We are very good at putting useful information 
in the hands of high school coaches and athletic directors. Assuming 
they have developed the relationships of trust referenced above (and 
most of them have), the truth about steroids WILL resonate with the 
target audience.
    Steroids are a problem at the high school level, but we are dealing 
with it. Coaches and other educators have the relationships of trust 
necessary to deliver difficult information. They are doing it now, and 
they will keep doing it as time goes on

The Role of Congress
    If the Congress wants to help us, we would welcome your support. As 
an educator, I urge that any such help be focused primarily on 
education rather than on mandates relating to testing or other punitive 
measures. An example would be funding the development of deterrence 
strategies which target not only student-athletes but non-athletes as 
well.
    At our level, education is the right answer.
    I'd like to thank both Subcommittees for the opportunity to be here 
today. I look forward to answering your questions.

    Mr. Stearns. Thank you. Ms. Worth.
    Ms. Worth. Mr. Chairman.
    Mr. Stearns. I think you will need a microphone, and you 
will--have it brought over to you.
    Ms. Worth. Thank you.
    Mr. Stearns. Put it nice and close, if you don't mind.
    Ms. Worth. Very good.
    Mr. Stearns. Okay.

                   STATEMENT OF SANDRA WORTH

    Ms. Worth. Mr. Chairman and members of the committee. On 
behalf of the National Athletic Trainers Association, and the 
more than 25,000 licensed and certified athletic trainers that 
we represent, I want to thank you for this opportunity to 
testify at today's hearing, ``Steroids in Sports: Cheating the 
System and Gambling Your Health.''
    My name is Sandy Worth. I am a certified athletic trainer, 
and the head athletic trainer at the University of Maryland. I 
am also the head athletic trainer for our football team. Our 
athletic training staff for the football team is comprised of 
me, two full-time certified athletic trainers, one certified 
athletic training intern, and 10 to 12 undergraduate student 
athletic trainers.
    Certified athletic trainers work with high school, 
collegiate, and professional athletes, as well as weekend 
athletes who are seen in private physician offices. We are 
licensed and certified health professionals. We are educated 
and trained in the prevention, treatment, and rehabilitation of 
injury that occurs during athletic competition, or general 
physical activity. The athletic trainer wears many hats. We are 
emergency first responders, we are health counselors, and we 
are rehabilitation specialists. We are not personal trainers.
    The title of this hearing is most appropriate, and while I 
agree that the use of performance-enhancing drugs is cheating, 
the focus of my remarks will be on the health and safety issues 
related to steroid use. As I stated, we are health care 
professionals charged with ensuring the well-being of student 
athletes in our programs. Part of this responsibility includes 
being familiar with performance-enhancing drugs, signs of use, 
and the side effects of that use.
    The NATA, the National Athletic Trainers Association, 
recognizes the myriad problems associated with steroid and 
other performance-enhancing drugs used in sports today. The 
health risks associated with steroid and other performance-
enhancing drug use simply do not justify their use to improve 
athletic performance. The NATA considers this one of the most 
important issues facing the sports world today.
    Many athletes competing at the collegiate level, whether 
Division I or Division III, believe that they can play at the 
professional level if they just get a little bit bigger, a 
little bit stronger, and a little faster. And to accomplish 
that goal, they have been programmed from a very early age to 
push their bodies to the limit. They will do most anything to 
make the dream a reality. For many, this is their mindset and 
their motivation.
    Today, we have the tools and support of school 
administrations and coaching staffs to realistically prevent 
steroid use at the collegiate level, but we face an even more 
difficult challenge. Today, we know more about the long-term 
health effects of steroid use, and we can do more to educate 
our athletes about the harmful side effects of using 
performance-enhancing drugs. But really, who is the young 
football player or baseball player or basketball player more 
likely to listen to, me, or a former professional athlete and 
admitted steroid user, who has been saying publicly that if you 
are good and want to get better, use steroids. And if you are 
great and you want to be incredible, use steroids.
    And finally, as if that wasn't enough, it has been reported 
that he has also said, in addition to all the wonderful things 
that can happen to you athletically, your peers will find you 
``sexier.'' Unfortunately, what that drug abuser fails to tell 
these young athletes is that they also increase the risk of 
serious medical problems. What the former athlete also fails to 
mention to these young men or women, who may now believe that 
use of steroids will make them sexier, is that use of steroids 
can lead to testicular atrophy and impotence in men, and for 
women, there is hirsutism, or increased facial and body hair, 
and alopecia, which is baldness. So I suppose if his definition 
of a sexy male is an impotent 30 year old man with atrophied 
testicles, or a bald 30 year old female with a mustache, then 
perhaps steroid abuse can make you sexier. But if we can get 
Congress and the media to get out the real story, to 
deglamorize steroid use, then perhaps we can succeed in our 
public education efforts.
    Mr. Chairman, it is not enough the athletes. We must also 
educate the parents. During a recent NATA-sponsored conference 
on the topic of steroid use, a colleague of mine related a 
recent situation he had encountered at his university. The 
university requires all athletes to undergo mandatory, 
periodic, unannounced drug testing. The athletes sign a waiver 
agreeing to submit to drug testing as a precondition for 
playing. Parents and/or guardians of the athletes are also 
informed of this policy. During one of the university-sponsored 
drug tests, two athletes tested positive for steroids. As is 
the university policy, the parents were brought in for drug 
counseling with the athletes. During the course of the 
counseling, it was discovered that not only were the parents 
aware that the child, their children were using steroids, but 
they were the ones who had actually purchased the drugs for 
their children. In both cases, the parents believed their 
children had an outside chance of playing professionally, and 
that in order to make that possibility a reality, supported the 
use of steroids, so the athletes could get bigger, could get 
stronger, and faster. If our education programs are going to be 
effective, we must start at a younger age with the athletes 
with the athletes, and we must also include educating the 
parents, not just the students, about the long-term health 
consequences of steroid use.
    Late last year, the Congress passed, and President Bush 
signed into law, the Anabolic Steroid Control Act. This 
landmark legislation added anabolic steroids and a host of 
pharmacological agents related to testosterone to the list of 
controlled substances. This will make it more difficult for 
athletes to obtain these substances, but it won't completely 
prevent a determined athlete from procuring these drugs. That 
is why education is so important and why we were pleased that 
the legislation included a section on prevention and education.
    As you know, Section 4 of the new law authorizes the 
Secretary of Health and Human Services to ``award grants to 
public and nonprofit private entities to enable such entities 
to carry out science-based education programs in elementary and 
secondary schools to highlight the harmful effects of anabolic 
steroids.'' The NATA fully supports this legislation and 
strongly urges the Congress to fund this new initiative to the 
full amount authorized by law, $15 million.
    Today, we know better, or we should know better. We have 
the data, and we have the cover stories to bring this data to 
life, or death, as the case may be.
    Mr. Chairman, I appreciate this opportunity to present 
these views on behalf of the NATA.
    [The prepared statement of Sandra Worth follows:]

 Prepared Statement of Sandra Worth, Head Athletic Trainer, University 
 of Maryland, Representing the National Athletic Trainers' Association

    Mr. Chairman and members of the committee. On behalf of the 
National Athletic Trainers Association and the more than 25,000 
licensed and certified athletic trainers we represent, I want to thank 
you for this opportunity to testify at today's hearing: Steroids in 
Sports: Cheating the System and Gambling Your Health.
    My name is Sandy Worth. I am a certified Athletic Trainer and the 
Head Athletic Trainer at the University of Maryland. I am also the Head 
Athletic Trainer for our Football team. The Athletic Trainer staff for 
the football team is comprised of me and 2 full time certified athletic 
trainers, 1 certified athletic training intern and 10-12 undergraduate 
student athletic trainers.
    The Sports Medicine Department at my university provides athletic 
training services for 25 sports that includes more than 700 athletes 
participating in a very successful Division I intercollegiate athletics 
program. This is typical of many Division I schools. As assigned, one 
or more staff members will attend home contests and as able, one or 
more staff members will attend away games.
    In addition to our game day activities we also are responsible for 
evaluating player injuries and recommending and supervising treatment 
and rehabilitation. The athletic trainer makes the final determination 
to return an athlete to the field, the court or rink following injury. 
When needed, this determination is made in conjunction with the team 
physician. Finally, we are the primary point of contact for both the 
University of Maryland and NCAA drug testing programs.
    Certified Athletic Trainers work with high school, collegiate and 
professional athletes as well as the weekend athletes who are seen in 
private physician's offices. We are licensed and certified health care 
professionals. We are educated and trained in the prevention, treatment 
and rehabilitation of injuries that occur during athletic competitions 
or general physical activity. The athletic trainer wears many hats. We 
are emergency first responders, we are health counselors and we are 
rehabilitation specialists. We are not personal trainers.
    The title of this hearing is most appropriate and while I agree 
that the use of performance enhancing drugs IS cheating, the focus of 
my remarks will be on the health and safety issues related to steroid 
use. We are health care professionals charged with ensuring the well 
being of the student athletes in our programs. Part of this 
responsibility includes being familiar with performance enhancing 
drugs, signs of use and the side effects of this use.
    The NATA recognizes the myriad problems associated with steroid and 
other performance enhancing drugs use in sports today. Legal, ethical 
and sportsmanship boundaries quite frankly are being obliterated. The 
health and safety of all student athletes is a guiding principle of the 
NATA and used of these substances compromises that one very simple 
tenet. The health risks associated with steroid and other performance 
enhancing drug use simply do not justify their use to improve athletic 
performance. The NATA considers this one of the most important issues 
facing the sports world today.
    Many athletes competing at the collegiate level--whether Division I 
or Division III--believe that they can play at the professional level 
if they just get a little bigger, a little stronger, or a little 
faster. To accomplish that goal, they have been programmed from a very 
early age to push their bodies to the limit. They will do most anything 
to make the dream a reality. For many, this is their mindset and 
motivation.
    Mr. Chairman, my colleagues and I are on the front lines. We are 
involved in the education of our student-athletes about the adverse 
health effects of performance enhancing drugs such as steroids. As I 
mentioned earlier, we are the principle point of contact for drug 
testing programs at the collegiate and professional levels. Finally, 
because of our close contact with high school, collegiate and 
professional athletes, we often see the first signs of drug use, 
whether it is performance enhancing drugs or so-called recreational 
drugs. Today, we have the tools and the support of the school 
administration and coaching staffs to realistically prevent steroid use 
at the collegiate level. But we face an even more difficult challenge.
    Today, we know more about the long-term health effects of steroid 
use and we can do more to educate our athletes about the harmful side 
effects of using performance enhancing drugs. But really, who is the 
young football or baseball or basketball player more likely to listen 
to, me or a former professional athlete and admitted steroid user who 
has been saying publicly that if you are good and want to get better, 
use steroids. If you are great and want to be incredible, use steroids. 
And finally, as if that wasn't enough, it has been reported that he has 
said that in addition to all the wonderful things that can happen to 
you athletically, your peers will find you ``sexier''. Unfortunately, 
what that drug abuser fails to tell these young athletes is that you 
will also increase the risk of serious medical problems. I have 
attached a list of known side effects of steroid use from an article 
entitled, ``Steroid Use and Long-Term Health Risks in Former Athletes' 
published in 2002 in the Journal Sports Medicine (Miia Parssinen and 
Timo Seppala Sports Medicine 2002: 32(2): 83-94).
    Here are a few of the nearly 40 problems associated with steroid 
use: Myocardial Hypertrophy, Depression, Suicide, Hepatic tumors, 
possibly cancer, Hyperin-sulinism, and Aggressive Behavior.
    And, what that former athlete also fails to mention to those young 
men or women who may now believe that use of steroids will make them 
``sexier'', is that use of steroids can lead to testicular atrophy and 
impotence in men and for women there's Hirsuitism (mustaches) and 
Alopecia (baldness). So I suppose if his definition of a sexy male is 
an impotent 30 year old man with atrophied testicles or a bald 30 year 
old female with a mustache, then perhaps steroid abuse can make you 
sexier. But if we can get Congress and the media to get out the real 
story, to deglamorize steroid use, then perhaps we can succeed in our 
public education efforts.
    Mr. Chairman, it is not enough to educate the athletes, we must 
also educate parents. During a recent NATA sponsored conference on the 
topic of steroid use, a colleague of mine related a recent situation he 
encountered at his University.
    This particular University requires all athletes to undergo 
mandatory, periodic, unannounced drug testing. The athletes at this 
University sign a waiver agreeing to submit to drug testing as a 
precondition for playing in a Division One sport. The parents or 
guardians of the athletes are also informed of the policy.
    During University sponsored drug tests, two athletes tested 
positive for steroids. As is the University's policy, the parents were 
brought in for drug counseling with the athletes. During this 
counseling session, it was discovered that not only were the parents of 
these athletes aware of their child's steroid use, but were the ones 
who had actually purchased the drugs for their children. In both cases, 
the parents believed their children had an outside chance of playing 
professionally and that in order to help make that possibility a 
reality, supported the use of steroids so the athletes could get 
bigger, stronger and faster. If our educational programs are going to 
be effective, we must start at a younger age and we must also include 
educating the parents--not just the athletes--about the long-term 
health consequences of steroid use.
    As bad as things sometimes may seem, it is still better than when I 
first started as an Athletic Trainer. Twenty years or so ago a young 
man reported to our program standing 6'6'' and weighing 250 pounds. Now 
for you and me that might seem big but given this young man's height he 
was rather light--at least for the position he played in his sport. A 
comment was made that the young man really needed to get bigger if he 
wanted to survive Division One football. I saw this young man about 3 
months later. He had not only gained over 30 pounds, but he was 
``chiseled''. How did this happen in just a short period of time--
aggressive weight lifting--change in diet--or use of an anabolic 
steroid? Unfortunately at the time we did not have the authority to 
test but we all suspected he was using steroids--we just couldn't do 
anything about it. Today, there are procedures in place that would 
permit personnel to recommend testing. As with all testing, if the test 
did come back positive, the administration and coaches would be 
notified and the athlete would be subject to University and team 
sanctions.
    NATA's 30,000 members, many of whom work with secondary school or 
collegiate students, are especially concerned with steroid use among 
young athletes. The long-term, irreversible, negative effects of banned 
substances on a young athlete's growing body are a frightening 
repercussion not worthy of improved athletic performance. The NATA 
supports any and all governing body's--high school, college, amateur 
and professional and international--bans on steroids and other 
controlled substances not prescribed by a physician for therapeutic 
purposes and more severe penalties for those who violate these rules. 
While a broad ban on such substances is a start, an equally important 
weapon in the battle against steroid use is more thorough education of 
our student-athletes and parents. On going research on the dangerous 
side effects of steroids combined with more intense dissemination of 
the facts about the extreme health risks--to athletes of all ages, 
coaches at all levels and parents of all young athletes--may once and 
for all send the message that no on-field victory is worth serious 
health problems later in life.
    Late last year, Congress passed and President Bush signed into law 
the ``Anabolic Steroid Control Act''. This landmark legislation added 
anabolic steroids and a host of pharmacological agents related to 
testosterone to the list of controlled substances. This will make it 
more difficult for athletes to obtain these substances but it won't 
completely prevent a determined athlete from procuring these drugs. 
That is why education is so important and why we were pleased that the 
legislation included a section on Prevention and Education.
    As you know, Section Four of the new law authorizes the Secretary 
of Health and Human Services to ``award grants to public and nonprofit 
private entities to enable such entities to carry out science-based 
education programs in elementary and secondary schools to highlight the 
harmful effects of anabolic steroids.'' NATA fully supports this 
legislation and strongly urges Congress to fund this new initiative to 
the full amount authorized by the law--$15 Million.
    We also support the addition of questions concerning anabolic 
steroid use to the National Survey on Drug Use and Health.
    Today, we know better--or we should know better. We have the data 
and we have the cover stories to bring the data to life--or death, as 
the case may be.
    Mr. Chairman, I appreciate the opportunity to present these views 
and I would be happy to answer any questions you may have.
adverse effects associated with the use of anabolic androgenic steroids
Cardiovascular system
Myocardial hypertrophy, QT dispersion, Increased risk of thrombosis, 
Decreased HDL, Increased LDL, Increased triglycerides, Elevated blood 
pressure, Risk of myocardial infarction, Risk of sudden death
Behavior
Increased aggressive behavior, Depression, Mania, hypomania, Psychotic 
episodes, Suicides, Dependence, Mood swings, Increased irritability, 
Euphoria
Cancer
Increased risk of hepatic tumors, Increased risk of malignant tumors
Skin
Acne, Male pattern baldness
Hormonal system
Testicular atrophy, Impaired spermatogenesis, Transient infertility, 
Decreased testosterone production, Gynaecomastia, Impotence
Musculoskeletal system
Premature epiphyseal closure, Increased risk of tendon tears
Immunological system
Decrease in immunoglobulins
Metabolic system
Altered glucose tolerance, Hyperinsulinism
Effects in women
Altered menstruation, Clitoral enlargement, Hirsutism, Decreased breast 
size, Alopecia, Deepening of the voice

    Source:  ``Steroid Use and Long-Term Health Risks in Former 
Athletes, Miia Parssinen and Timo Seppala, Sports Medicine 2002: 32(2): 
83-94

    Mr. Stearns. I thank you. Dr. Yesalis, welcome.
    Mr. Yesalis. Thank you.
    Mr. Stearns. Just turn your mike on. There you go.

                STATEMENT OF CHARLES E. YESALIS

    Mr. Yesalis. Thank you, Chairman Stearns. I appreciate this 
opportunity.
    If you look at the work of investigative journalists, the 
testimonials of athletes, the work of sport historians, as well 
as government investigations and hearings, you quickly come to 
the conclusion that doping has been epidemic in elite sports 
since 1875. None of this is new. It has been a sustained 
epidemic.
    In regard to the interest of government in this matter, 
this is the fourth time in 17 years I have been asked to 
testify. I looked, the first hearing on steroid use and 
amphetamine use in sport, was in 1973, in front of the 93rd 
Congress, when Olympic athletes and professional athletes 
openly testified about steroid use and amphetamine use of that 
era. They were very open about it.
    While this epidemic continues, while it hasn't changed, 
what has changed, and I respectfully disagree with you, 
Congresswoman Schakowsky, I think the figure is closer to a 
million kids who have used, in their short lives, anabolic 
steroids. And anabolic steroids, you don't just take one pill 
or one injection. You go on a cycle, an episode of use of 6 to 
12 weeks or more.
    Well, what can we do about it? One alternative is 
education. I think education at the elite levels really holds 
no promise whatsoever. There is too much money involved. 
Clearly, education, as my good friend Dr. Goldberg said, holds 
promise with kids. He has wonderful programs, in the ATLAS and 
ATHENA program. Admittedly, they have not spread like wildfire 
across the country. They are expensive, time-consuming, but I 
would propose that one of the reasons why school districts 
haven't wanted to spend that money is they are in denial. If I 
could tell you how many times I have heard Doc, it is a 
problem, but not in our school. Doc, it is a problem, but not 
in our university. Or not in our sport league.
    Another alternative is interdiction. Could use law 
enforcement. The Balco investigation is a great example of 
that. Balco had little to do, or nothing to--virtually nothing 
to do with drug testing. It was high-powered police 
investigation, as you all know, DEA, IRS, FBI. Do we have the 
fire in our belly to do sting operations against universities 
and colleges, or high school teams and pro teams? I don't know. 
But clearly, I know that our law enforcement resources are 
stretched, with the war on terror, and fighting other drug 
problems.
    Drug testing. If there is one point I would like to drive 
home, ladies and gentlemen, drug testing is no panacea. The 
most rigorous drug testing systems have loopholes through which 
I could drive every M1 Abrams tank we own, and not scrape the 
body armor. It is full of loopholes. Just because you test 
negative does not mean you are a clean athlete. And I would be 
glad to articulate those loopholes in the questioning period.
    In the late 1980's, there was a major meeting on anabolic 
steroids, and the scientific group concluded, while this is a 
public health problem, it is more of an ethical and moral 
problem, and I agree with that. In an era where moral 
relativism, situational ethics, you know, late Senator 
Moynihan, who I admire greatly, said we have down-defined 
deviance, and we certainly have. You know, everyone does it. If 
you subscribe to it is only cheating if you get caught, if you 
subscribe to win at all costs, if you subscribe to all that, 
ladies and gentlemen, drug use is really very rational 
behavior.
    And while I am not going to tolerate it in elite athletics, 
I certainly will not accept that among our children. I will 
fight as long as I take breath, I am not going to give up on 
our kids.
    Thank you very much.
    [The prepared statement of Charles E. Yesalis follows:]
Societal Alternatives to Performance-Enhancing Drug and Supplement Use 
                                in Sport
      Charles E. Yesalis, Sc.D.\1\ and Michael S. Bahrke, Ph.D.\2\
---------------------------------------------------------------------------
    \1\ Pennsylvania State University, University Park, Pennsylvania
    \2\ Human Kinetics, Champaign, Illinois
---------------------------------------------------------------------------
    In 2001, as former International Olympic Committee President Juan 
Antonio Samaranch \1\ said when he relinquished his position, ``In 
doping, the war is never won''. It appears Mr. Samaranch's prediction 
was correct. In 2002 and 2003 alone the public was bombarded with a 
constant stream of doping scandals \2\<SUP>,</SUP>\8\ that included 
among others:

 Australian swimmer Andrew Burns banned from the sport for three 
        months after testing positive for ecstacy, a stimulant.
 Colombian soccer player Rene Higuita testing positive for cocaine.
 United States javelin thrower Emily Carlsten suspended after testing 
        positive for amphetamine, a stimulant prohibited under 
        international athletic rules.
 Three players in the Greek first division soccer league testing 
        positive for nandrolone, an anabolic steroid.
 South Korea confirming speed skater Paek Eun-bi tested positive for 
        the banned stimulant strychnine after winning silver and bronze 
        at the Winter Asian Games.

    Portions of this manuscript are from: ``Winning and Performance-
Enhancing Drugs--Our Dual Addiction'' by CE Yesalis, The Physician and 
Sportsmedicine, 1990;18(3):161-163, 167. Published by McGraw-Hill. 
Copyright 1990 by McGraw-Hill, Inc. Adapted by permission of McGraw-
Hill, Inc. ``Societal Alternatives'' by CE Yesalis, MS Bahrke, and JE 
Wright. In: CE Yesalis, ed. Anabolic Steroids in Sport and Exercise, 
Second Edition, published by Human Kinetics, Champaign, Illinois, 2000.

 Two South African sprinters testing positive for the banned 
        substance, androstenedione, an anabolic steroid.
 The United States losing two gold medals at the recent Pan American 
        Games held in the Dominican Republic when sprinter Mickey 
        Grimes was found to have excessive levels of ephedrine, a 
        banned stimulant.
 In addition to drug use, the range of so-called supplements available 
        to athletes has increased dramatically over the past few years 
        with increased technology and with the loosening of regulations 
        regarding their sale. Exacerbating the drug vs. supplement 
        problem is the confusion surrounding what exactly is a 
        prohibited substance. For example, most elite sport governing 
        bodies have already declared androstenedione (Andro) a banned 
        substance. The International Olympic Committee, the National 
        Collegiate Athletic Association, and the National Football 
        League have banned androstenedione use among players, and 
        recently the National Basketball Association included 
        androstenedione on a list of nine newly prohibited substances. 
        However, the NBA Players Association has been fighting the 
        androstenedione ban. The NBA Players Association only recently 
        agreed to add marijuana to the NBA list of banned substances. 
        Major League Baseball does not ban androstenedione. To add to 
        this confusion, there is scant research to support the notion 
        that androstenedione enhances performance, while there is a 
        number of studies that support the performance effects of 
        creatine--a supplement that is not on any banned substance 
        list.
    When discussing the problem of performance-enhancing drug and 
supplement use, it is important to remember sport is a microcosm of our 
society and the problems surrounding sport are by no means limited to 
drug and supplement use. During the 1980s, 57 of 106 universities in 
Division I-A were punished by the National Collegiate Athletic 
Association via sanctions, censure, or probation for rule 
violations.\9\. The perpetrators of these offenses did not involve 
illicit drug use by athletes but rather the unethical behavior of 
coaches, athletic administrators, staff, and faculty, the very men and 
women who should be setting the example. More recently, U.S. collegiate 
athletes have been convicted of criminal offences related to sports 
gambling.\10\<SUP>,</SUP>\11\ In addition, an NCAA survey of 2000 
Division I male football and basketball players found 72% had gambled 
in some form and 25% reported gambling on collegiate sports: 4% bet on 
games in which they played.\11\<SUP>,</SUP>\12\ Among members of the 
IOC, bribery, graft, and other corruption appear entrenched in the 
culture of the organization.\13\<SUP>,</SUP>\14\ A common factor among 
all these scandals is money. In the new Millenium there is no doubt 
sport has become a multinational industry of huge proportions. The IOC, 
NCAA, NFL, NBA, and MLB, among others, are all billion dollar 
businesses.\15\<SUP>,</SUP>\16\
    A free society often relies on the news media to inform the 
populace regarding the incidence and magnitude of problems such as 
doping in sport. Even though the epidemic of drug use in sport has been 
common knowledge among insiders, many in the news media, especially in 
the United States, have not appeared to have engaged in a widespread 
concerted effort to chronicle the true magnitude of this issue. 
Unfortunately the media, in particular television news, are often 
influenced by conflicts of interest within their parent companies, 
between those reporting the news and those responsible for the 
broadcast of major sporting events. Few would argue that an in-depth 
expose of drug use, in for example the NFL or the Olympics, would 
enhance the marketing of these highly lucrative sporting events.
    Before any effort can be made to address the issue of doping in 
sport, it is critical all of the stakeholders acknowledge a problem 
exists. In this regard we need to fully appreciate the high 
entertainment value placed on sport by society. Some go so far as to 
argue sport is the opiate of the masses--a contention made earlier by 
Karl Marx regarding religion. If sport has become the opiate of the 
masses, then we must be prepared for indifference on the part of the 
public regarding drug and supplement use in sport, at least at the 
elite level. Moreover, it could be argued that if substantial inroads 
are made regarding the epidemic of doping, fans may express anger 
towards those fighting drug use, rather than appreciation. Many people 
view competitive sport to escape from the problems of daily life and do 
not wish to be confronted with the moral and ethical aspects of doping. 
Besides, if anti-doping efforts are successful, the once bigger-than-
life idols could begin to appear all too human in stature and the 
eclipsing of records at national, Olympic, and world levels could 
become so rare that the fervor of fans will wane and the sport business 
will suffer. In the U.S., even high school sport appears to be 
expanding as a source of entertainment for adults, as shown by the 
increasing level of television coverage of the USA Today's Top 25 high 
school football and basketball teams featuring players such as Lebron 
James, among others. Consequently, it can be argued that the growth of 
the high school sport entertainment business is contributing to the 
continued increase in performance-enhancing drug and supplement use, 
even among adolescents, that has been observed during the late 1990s 
and early 2000s.
    Sport has also been used by governments as a tool to control the 
masses or as justification for their social, political, and economic 
systems. ``Bread and circuses'' (panem et circenses) were used in this 
fashion by the emperors of Rome.\17\ Nazi Germany, the Soviet Union, 
East Germany, and Communist China all used sport for political 
advantage.\19\ Consequently, such governments, arguably, would be less 
than enthusiastic participants in the fight against doping or, for that 
matter, even publicly acknowledging the existence of widespread doping. 
On the contrary, there is a reasonable amount of evidence that the 
governments of the Soviet Union, East Germany, and Communist China all 
played significant roles in the systematic doping of their athletes.
    With many societal problems, identifying potential solutions is 
easy, but agreeing on a proper course of action and successfully 
completing it are difficult. The following are our alternatives for 
dealing with the use of performance-enhancing drugs as well as 
supplements: legalization, interdiction, education, and alteration of 
societal values and attitudes related to physical appearance and 
winning in sport.

                   LEGALIZATION: AN END TO HYPOCRISY?

    The legalization of illicit drugs has for some time been the 
subject of heated debate: comments range from ``morally reprehensible'' 
to ``accepting reality.'' Legalization would reduce the law enforcement 
costs associated with illicit performance-enhancing drug use as well as 
the substantial cost of drug testing. Even some opponents of 
legalization must concede that such an action would lessen the level of 
hypocrisy currently enveloping sport. It can be argued that society and 
sport federations have turned a blind eye or have subtly encouraged 
drug use in sport as long as the athletes have not been caught or 
spoken publicly about their use of performance-enhancing 
drugs.\19\<SUP>-</SUP>\25\
    In the U.S., legalization of performance-enhancing drug use in 
sport would involve two levels of authority. At one level, federal and 
state laws related to the possession, distribution, and prescription of 
performance-enhancing drugs would have to be changed. For example, if 
in the future anabolic steroids become an accepted means of 
contraception or as treatment for ``andropause'' (so-called male 
menopause), it is difficult to understand how anabolic steroids could 
remain a Schedule III controlled substance in the U.S. At the second 
level, bans on anabolic steroids now in place in virtually every sport 
would have to be rescinded. Legalization would bring cries that the 
traditional ideals of sport and competition are being further eroded. 
On the other hand, given the continued litany of drug and other sport 
scandals that have taken place in full public view over the past five 
decades, it is hard to imagine in this jaundiced age that many people 
believe the so-called ``traditional ideals'' in elite sports even 
exist. It has long been asserted that the legalization of performance-
enhancing drugs would force athletes to further expose themselves to 
the potential for physical harm or else to compete at a disadvantage. 
Some have even questioned this basic premise that banning drugs in 
sport benefits the health of athletes and have argued:
        . . . the ban has in fact increased health risks by denying 
        users access to medical advice and caused users to turn to high 
        risk black market sources.\26\
    Further, legalization would allow athletes to use pharmaceutical 
grade drugs while being monitored by a physician. It can also be argued 
that the ``dangers'' of performance-enhancing drug and supplement use 
are not, in itself, a realistic deterrent given the existing levels of 
tobacco, alcohol, marijuana, and other illicit drug use.
    In 2003 it seems that legalization of performance-enhancing drug 
use in sport is still not acceptable. However, if the apparent 
impotence of drug testing, now in full view, persists for much longer, 
it is easy to imagine the IOC or other sport federations throwing up 
their hands in frustration and publicly allowing the athlete with the 
best chemist to prevail.

            INTERDICTION: A QUESTION OF COST- EFFECTIVENESS

    The U.S. federal government and all state governments currently 
have laws regarding the distribution, possession, or prescription of 
various performance-enhancing drugs such as anabolic steroids, growth 
hormone, and amphetamines.\27\ For example, the Federal Food, Drug, and 
Cosmetic Act (FFDCA) was amended as part of the Anti-Drug Abuse Act of 
1988 such that distribution of anabolic steroids or possession of 
steroids with intent to distribute without a valid prescription became 
a felony. This legislation not only increased the penalties for the 
illicit distribution of steroids but it also facilitated prosecution 
under the FFDCA. In 1990 the Anabolic Steroids Control Act was signed 
into law by President Bush and added anabolic steroids to Schedule III 
of the Controlled Substances Act. This law institutes a regulatory and 
criminal enforcement system whereby the U.S. Drug Enforcement 
Administration (DEA) controls the manufacture, importation, 
exportation, distribution, and dispensing of anabolic steroids. 
However, the act did not provide extra resources to the DEA to shoulder 
the added responsibility.
    Furthermore, as the use of anabolic steroids is increasingly 
criminalized, drug use will likely be driven further underground and 
the source of the drugs will increasingly be clandestine and foreign 
laboratories, the products of which are of questionable quality. It 
also appears that in some areas criminalization has already altered the 
distribution network for anabolic steroids; athletes used to sell to 
other athletes, but sellers of street drugs are now becoming a major 
source.\28\
    Even though the legal apparatus to control steroid trafficking 
exists, enforcement agents already are struggling to handle the 
problems of importation, distribution, sales, and use of other illicit 
drugs such as cocaine and heroin.\29\ Thus, the availability of 
performance-enhancing drugs in this country suggests there is reason to 
believe the U.S. may simply not have the law enforcement manpower to 
deal with apprehending and punishing sellers of performance-enhancing 
drugs. Based on what we know about the physical, psychological, and 
social effects of performance-enhancing drugs, it is neither realistic 
nor prudent that enforcement efforts for performance-enhancing drugs 
should take precedent over those for more harmful drugs. On the other 
hand, this line of reasoning should not be used as a rationale for a 
lack of effective action against performance-enhancing drugs. 
Nevertheless, the outlook that limited resources can be stretched to 
cover yet other drugs is not optimistic,\28\ especially given the 
increase in recreational drug use among adolescents \29\ and in light 
of the demands placed on all levels of law enforcement regarding 
homeland security.
    Nonetheless, after passage of the Anabolic Steroids Control Act, 
numerous anabolic steroid investigations were initiated by the U.S. 
Drug Enforcement Administration and many arrests were made and 
convictions obtained.\30\ However, because of the way criminal 
penalties were developed for steroid infractions, an individual brought 
to court on charges of distribution or selling must be a national level 
dealer to receive more than a ``slap on the wrist'' and/or a short 
visit to a ``country club'' prison. For this reason, U.S. law 
enforcement agents often do not bother pursuing small cases because the 
costs of prosecution vastly outweigh any penalties that will be 
assessed.
    The range of supplements available to athletes has increased 
dramatically over the past few years with the loosening of regulations 
regarding their sale. The 1994 Dietary Supplement Health and Education 
Act (DSHEA) substantially reduced the control of the U.S. FDA over 
supplements and permitted the introduction of new supplements as long 
as they occurred naturally in food. In other words, if a substance 
occurs naturally--and as long as manufacturers do not claim it has 
medical benefits--the FDA cannot monitor it. As a result, the DSHEA 
allows the sale of some steroid hormones such as androstenedione 
(Andro) and dehydroepiandrosterone (DHEA) as over-the-counter dietary 
supplements. Consequently, for the consumer (athlete), the distinction 
between what is a drug and what is a supplement is further blurred.
    Drug testing by sport federations is yet another form of 
interdiction. Such testing has been partially successful when directed 
at performance-enhancing drugs that, to be effective, must be in the 
body at the time of competition, such as stimulants and narcotics. Drug 
testing has been even less effective against performance-enhancing 
drugs that are used during training or used to enhance an athlete's 
capacity to train. For example, testing can be circumvented in several 
ways. Generally, to avoid a positive test, athletes can determine when 
to discontinue use prior to a scheduled test or, in the case of an 
unannounced test, they titrate their dose so as to remain below the 
maximum allowable level, as is the case with testosterone. Further 
confounding the issue is that while EPO testing is finally being 
instituted (athletes can still resort to autologous blood doping 
without fear of detection), there are currently no reliable tests for 
recombinant human growth hormone and other performance boosters such as 
insulin and insulin-like growth factor-1.
    Moreover, as the booming biotechnology and pharmaceutical 
industries discover new ways to fight disease, athletes and their 
scientific advisors are also discovering ingenious new ways to subvert 
those substances and methods to enhance performance and appearance. 
There are some unscrupulous scientists who attend academic meetings and 
perch like vultures waiting to figure out how substances can be tweaked 
for athletic use. Then, a few months later, we hear rumors about 
athletes who are experimenting with them or these new substances are 
being sold as nutritional supplements.
    It is important to note that testing for performance-enhancing 
drugs such as anabolic steroids is expensive (over $100/test), and 
although organizations like the IOC, NFL, or NCAA may be able to 
institute such procedures, the cost is prohibitive for the vast 
majority of secondary schools. Consequently, only a handful of U.S. 
secondary school systems test for performance-enhancing drugs such as 
anabolic steroids.
    In spite of this, we note that the recent establishment of the 
World Anti-Doping Agency (WADA) and its counterpart in the United 
States, the U.S. Anti-Doping Agency (USADA), offers for the first time 
a better-coordinated and consistent effort to combat doping in sport. 
To date, however, WADA and USADA have been, at best, only marginally 
effective in overcoming the technical innovations of users and in 
reducing the prevalence of doping in sport.
    In summary, although interdiction through law enforcement and drug 
testing has intuitive appeal, its impact on the use of performance-
enhancing drugs is open to debate. Since the flurry of legislative 
activity at the state and national levels regarding the control of the 
manufacture, distribution, prescription, and possession of steroids in 
the late 1980s and the early 1990s, use among U.S. adolescents has 
increased significantly. As to the future of testing, it is difficult 
to be optimistic: over the past 30 years, drug users have consistently 
outplayed the drug testers. In addition, one can only speculate as to 
the future challenges posed by impending advances in genetic 
engineering. Will we be able to genetically enhance muscle mass, 
aerobic capacity, vision, and neurological response? \31\ In fact, 
selected genetic engineering has already been achieved in animals. 
Researchers have shown in mice that a gene injected directly into a 
target muscle can increase muscle performance by 27%. More recently, 
researchers have identified a protein transcription factor, peroxisome 
proliferator-activated receptor-gamma coactivator-1, that, when 
expressed at physiologic levels in mice, converts fast-twitch, strength 
muscles into high-endurance, slow-twitch muscles. Some have speculated 
that drugs that influence these factors may be used to increase muscle 
activity, although much work still remains to elucidate the mechanism.

                    EDUCATION: IS ANYBODY LISTENING?

    Since the 1980s, the U.S. Public Health Service, the U.S. 
Department of Education, as well as many state education departments, 
state and local medical societies, private foundations, and sports 
federations have been involved in prevention efforts related to 
performance-enhancing drugs, especially steroid abuse. For the most 
part, these efforts have centered on the development and distribution 
of educational materials and prevention programs such as posters, 
videos, pamphlets, workshops, and web sites. For example, the Iowa High 
School Athletic Association developed an educational booklet that 
provides information on the effects of steroid use, but also includes 
strength-enhancing alternatives to steroids and prevention ideas.\32\ 
The U.S. Department of Education and other sources developed a variety 
of informational posters targeted at high school students to provide 
facts about steroids, their adverse effects, alternatives to their use, 
and their illegal status.\33\ Video distributors now have a wide range 
of videotape programs available on steroid use prevention as well as 
body building techniques.\34\ Educational consulting firms provide 
anti-steroid training, program, and curriculum development to junior 
and senior high schools across the United States.\35\<SUP>,</SUP>\36\ 
The Office of National Drug Control Policy provides a web site (http://
www.whitehousedrugpolicy.gov/prevent/sports/index.html) and information 
resources such as newsletters on drugs and sports for coaches, 
athletes, and parents. Similarly, the Energy/Australia Live Clean Play 
Clean Drug Education Program aims to educate Australia's young aspiring 
athletes on the moral, ethical, social, and physical reasons for not 
taking performance-enhancing drugs. In addition to a web site (http://
www.olympics.com.au/default.asp?pg=livecleanplayclean&spg=home), the 
program offers a video of Australia's leading athletes publicly 
declaring their opposition to illegal sports drugs and the athletes who 
use them.
    U.S. health educators have made some inroads in changing several 
high-risk behaviors, such as high-fat diets, sedentary lifestyles, 
drunk driving, and smoking. However, educators are well armed with vast 
quantities of scientific data regarding the deleterious nature of these 
activities. Furthermore, these are behaviors upon which society has 
increasingly frowned. In sports, on the other hand, athletes who use 
performance-enhancing drugs and especially supplements have enjoyed 
significant improvements in physical performance and appearance. 
Society is much less likely to shun these people. The adulation of 
fans, the media, and peers is a strong secondary reinforcement, as are 
financial, material, and sexual rewards.
    Another fly in the education ointment is the possibility that 
performance-enhancing drugs including anabolic steroids taken 
intermittently in low to moderate doses may have only a negligible 
impact on health, at least in the short term. In 1989, several experts 
at the National Steroid Consensus Meeting concluded that according to 
the existing evidence, these drugs represent more of an ethical dilemma 
than a public health problem.\37\ Although there is still little 
available evidence regarding the long-term health effects of 
performance-enhancing drugs such as anabolic steroids, many current or 
potential performance-enhancing drug and supplement users unfortunately 
mistake absence of evidence for evidence of absence. Even more 
frustrating is the fact that in two national studies, a significant 
minority of the anabolic steroid users surveyed expressed no intention 
to stop using anabolic steroids if deleterious health effects were 
unequivocally established.\38\<SUP>,</SUP>\38\ Also, according to 
national results on adolescent drug use from the 2001 Monitoring the 
Future Study,\40\ following a peak in perceived risk of steroids in 
1993, a six percentage-point drop occurred between 1998 and 1999 and 
another four percentage-point drop in 2000. This sharp a change is 
quite unusual and highly significant, suggesting some particular event 
(or events) in 1998 changed beliefs about the dangers of steroids. 
Coincidentally, a sharp upturn in use of steroids also occurred that 
year. Clearly, the paucity of scientific information has impeded the 
formulation of effective health education strategies. Far more than 
that, the unsubstantiated claims of dire health effects made by some in 
sports medicine and sensationalized by the news media have further 
eroded communication between athletes and doctors. However, even if 
long-term deleterious effects were well documented for performance-
enhancing drugs and supplements, our experience with teenagers and 
smoking suggests that substantial abuse would probably 
persist.\41\<SUP>,</SUP>\42\
    All of these problems and limitations in developing and 
disseminating effective prevention and intervention strategies could, 
in great part, explain the significant increase in performance-
enhancing drug and supplement use among adolescents.
    Changing a behavior that has resulted in major benefits to the 
user, such as improved appearance and athletic performance, presents a 
monumental challenge. Traditional cognitive and affective education 
approaches to tobacco, alcohol, and other drug abuse prevention have 
not been effective.\43\ In fact, there is evidence that providing a 
prevention program that uses ``scare tactics'' to dissuade adolescents 
from becoming involved with performance-enhancing drugs such as 
anabolic steroids may actually lead to increased usage, possibly 
because additional information stimulated curiosity.\44\ This 
observation helped lead to prevention programs (Athletes Training and 
Learning to Avoid Steroids--ATLAS and Athletes Targeting Healthy 
Exercise and Nutrition Alternatives--ATHENA) focused, in part, on 
positive educational initiatives related to nutrition and strength 
training. The programs also focused on increasing adolescents' 
awareness of the types of social pressures they are likely to encounter 
to use anabolic steroids and attempts to ``inoculate'' them against 
these pressures. Adolescents are taught specific skills for effectively 
resisting both peer and media pressures to use anabolic steroids. 
Periodic monitoring and reporting of actual anabolic steroid use among 
adolescents was conducted in an effort to dispel misinformation 
concerning the widespread use of anabolic steroids among peers. Using 
peers as program leaders is an additional component. These programs 
have been successful in significantly affecting attitudes and behaviors 
related to steroid use and remained effective over several years.\45\
    There are two important and, as yet, unanswered questions regarding 
the ATLAS and ATHENA programs. First, are school boards, in an age of 
constrained resources, willing to commit time and money to these 
relatively demanding programs? Efficacy aside, it would be far easier 
and cheaper to continue to only give ``lip service'' to this problem 
and restrict efforts to an occasional talk by the coach and the use of 
readily available educational videos and posters.
    The second question is even more threatening to school officials. 
In an era when some believe that the ``win at all costs'' philosophy is 
gaining the upper hand, will some schools hesitate to unilaterally 
``disarm''? That is, will some schools hesitate to institute a program 
that could significantly reduce performance-enhancing drug use at the 
cost of conferring an advantage to an opponent who chooses to maintain 
a ``see no evil'' stance on the use of performance-enhancing drugs? 
This question is given some legitimacy by pervasive anecdotal accounts 
of high school coaches encouraging the use of, and in some instances 
selling, so-called supplements such as creatine, DHEA, and Andro to 
their athletes.
    In summary, although educating athletes about the health risks and 
ethical issues associated with performance-enhancing drug and 
supplement use continues to hold some promise, this strategy certainly 
cannot be viewed as a panacea.

                         OUR VALUES MUST CHANGE

    Compared with legalization, interdiction, and education, our social 
environment appears to receive far less attention. Yet in many ways the 
social environment exerts a more fundamental influence on drug and 
supplement use in sport than do the more superficial strategies 
described earlier.
    A number of performance-enhancing drugs, including anabolic 
steroids, are not euphorigenic or mood altering immediately following 
administration. Instead, the appetite for these drugs is created 
predominantly by our societal fixation on winning and physical 
appearance. An infant does not innately believe that a muscular 
physique is desirable--our society teaches this. Likewise, children 
play games for fun, but society preaches the importance of winning--
seemingly, at an increasingly younger age.
    Ours is a culture that thrives on competition--both in business and 
in sport. However, we long ago realized that competition of all types 
must exist within some boundaries. A primary goal of competition is to 
win or be the very best in any endeavor. Philosophically, many in our 
society appear to have taken a ``bottom-line'' attitude and consider 
winning the only truly worthwhile goal of competition. If we accept 
this philosophy, then it becomes easy to justify, or be led to the 
belief, that one should win at any cost. At that point doping becomes a 
very rational behavior, with the end (winning) justifying the means 
(use of performance-enhancing drugs and supplements).
    This ``win at any cost/winner take all'' philosophy is not new. The 
winners in the ancient Greek Olympics were handsomely rewarded, and 
episodes of athletes cheating to obtain these financial rewards are 
well documented.\46\<SUP>-</SUP>\48\ Smith \49\ argued persuasively 
that the level of cheating in college athletics at the turn of the last 
century exceeded what we see today. Even the legendary college football 
coach Knute Rockne was quoted as saying, ``Show me a good and gracious 
loser and I'll show you a failure.'' Pro football coach Vince Lombardi 
went a step further with his philosophy that, ``winning isn't 
everything--it's the only thing.'' Indeed episodes of cheating, 
including drug use, have been commonplace at the collegiate, 
professional, and Olympic levels over the past 50 
years.\14\<SUP>,</SUP>\20\<SUP>,</SUP>\24\<SUP>,</SUP>\50\<SUP>-</SUP>\5
4\. Moreover, because of reports in the news media as well as written 
and verbal testimonials by athletes, adolescents are aware of the part 
that performance-enhancing drugs and supplements play in the success of 
many so-called role-model athletes.\19\<SUP>,</SUP>\51\<SUP>,</SUP>\55\
    Our fixation on appearance, especially the muscularity of males, is 
also long lived. An entire generation of young men in the 1930s and 40s 
aspired to the physique of Charles Atlas, followed by yet another 
generation who marveled at the muscles of Mr. Universe, Steve Reeves, 
who played Hercules in several movies in the 1950s. Today's children 
look with envy at the physiques of Vin Diesel , Jean Claude Van Damme, 
Wesley Snipes, Linda Hamilton, Demi Moore, and other actors and 
actresses whose movie roles call for a muscular athletic build. In 
addition, a number of professional wrestlers such as Hulk Hogan, 
``Stone Cold'' Steve Austin, ``The Rock'', and Goldberg are admired in 
part for their bigger than life muscularity, while some elite athletes 
like professional baseball player Barry Bonds and Sammy Sosa are envied 
because of the spectacular athletic feats of which they are capable. 
Anabolic steroid use among professional wrestlers, including Hulk 
Hogan, was given national attention during a steroid trafficking trial 
in 1991.\56\ President George H. Bush's appointment of Arnold 
Schwarzenegger, an individual who attained his prominence as a 
bodybuilder and movie star at least in part as a result of steroid use, 
as chair of the President's Council on Physical Fitness and Sports from 
1990-1992 was yet another inappropriate message we sent our children. 
Interestingly, Schwarzenegger was then replaced by Florence Griffin 
Joyner (``Flo Jo'') who co-chaired the Council from 1993-1998, and 
competed, retired, and died under suspicion of performance-enhancing 
drug use. Lee Haney, bodybuilder and eight time Mr. Olympia winner, 
followed Joyner and chaired the Council from 1999 through 2002. Such 
messages of material reward and fame as a result of drug-assisted 
muscularity and winning grossly overshadow posters on gym walls and 
videos that implore ``Just Say No to Drugs."
    Some might argue that our attitudes and values related to sports 
and appearance are too deeply entrenched to change. That may be so, in 
particular when it comes to elite sport--there is simply too much money 
involved. However, if we cannot control our competitive and 
narcissistic natures, we then must resign ourselves to anabolic steroid 
use, even among our children.
    Society's current strategy for dealing with the use of performance-
enhancing drugs in sport is multifaceted and primarily involves 
interdiction and education. However, years after our society was made 
aware that our children were using steroids, our efforts to deal with 
this problem have not been very successful. Since 1989 a number of 
national conferences on anabolic steroid use have been held, sponsored 
by either the U.S. federal government or sports and educational 
organizations. The purpose of these meetings was to gather and/or 
disseminate information or to achieve a consensus for action. At this 
point all these activities appear to have been a sincere effort to deal 
with the problem, but this strategy of attacking the symptoms while 
ignoring the social influence of drug and supplement use in sport is 
obviously ineffective. If we maintain our current course in the face of 
increased high levels of performance-enhancing drugs and supplements, 
then we as sports medicine professionals, parents, teachers, and 
coaches are guilty of duplicity--acting for the sake of acting. We plan 
and attend workshops, distribute educational materials, lobby for the 
passage of laws, and seek the assistance of law enforcement. All these 
activities merely soothe our consciences in the face of our inability--
or unwillingness--to deal with our addiction to sport and our fixations 
on winning and appearance.

                               REFERENCES

    1. Associated Press. 2001. ``Outgoing IOC chairman Samaranch says 
war against doping is `never won.' '' Vancouver Sun, Vancouver, British 
Columbia, Canada, July 2, on line version.
    2. The Age. 2003. ``Swimmer banned after drug test.'' August 26, on 
line version.
    3. Yahoo News. 2002. ``Colombian soccer player Higuita tests 
positive for cocaine.'' October 10, on line version.
    4. Yahoo News. 2003. ``U.S. Javelin thrower suspended after failing 
drug test.'' January 15, on line version.
    5. Yahoo News. 2003. ``Three soccer players reportedly test 
positive for banned substances.'' January 23, on line version.
    6. Yahoo News. 2003. ``South Korea confirms speed skater tested 
positive for illegal drug.'' February 6, on line version.
    7. News24,com. 2003. ``Two athletes suspended.'' February 20, on 
line version.
    8. The New York Times. 2003. ``U.S. sprinter loses golds after 
failing doping test.'' August 13, on line version.
    9. Leaderman D. 1990. ``57 of 106 universities in NCAA's top unit 
punished in 1980s.'' Chronicle of Higher Education, January 3, A31.
    10. Lassar S. 1998. ``Four former Northwestern football players 
indicted on perjury charges related to sports gambling investigation 
(press release).'' U.S. Justice Department, U.S. Attorney, Northern 
District of Illinois, December 3.
    11. Saum B. 1998. ``Written testimony of Bill Saum, Director of 
Agent and Gambling Activities, National Collegiate Athletic 
Association, before the National Gambling Impact Study Commission.'' 
Las Vegas, Nevada, November 10.
    12. USA Today. 1999. ``Study: Gambling in NCAA rampant.'' January 
12, 3C.
    13. Simson V, Jennings A. 1992.The Lords of the Rings: Power, 
Money, and Drugs in the Modern Olympics. London: Simon and Schuster.
    14. Swift E. 1999. ``Breaking point.'' Sports Illustrated, February 
1, 34-5.
    15. Economist. 1998. ``A survey of sport: Not just a game.'' 347, 
2-23.
    16. Hiestand M. 1999. ``The B word--billion--no longer out of 
bounds.'' USA Today, January 12, 1-2A.
    17. Benario H. 1983. ``Sport at Rome.'' The Ancient World, 97:39.
    18. Hoberman J. 1984. Sport and Political Ideology. Austin, TX: 
University of Texas Press.
    19. Bamberger M, Yaeger D. 1997. ``Over the edge.'' Sports 
Illustrated, April 14, 60-70.
    20. Dubin C. 1990. ``Commission of inquiry into the use of drugs 
and banned practices intended to increase athletic performance'' 
(Catalogue No. CP32-56/1990E, ISBN 0-660-13610-4). Ottawa, ON: Canadian 
Government Publishing Center.
    21. Lemonick M. 1998. ``Le Tour des Drugs.'' Time, August 10, 76.
    22. USA Today. 1998. ``Drugs and cycling.'' September 29, 1C.
    23. USA Today. 1999. ``Longtime drug use.'' January 28, 3C.
    24. Voy R. 1990. Drugs, Sport, and Politics. Champaign, IL: Leisure 
Press.
    25. Yesalis C, Friedl K. 1988. ``Anabolic steroid use in amateur 
sports: An epidemiologic perspective.'' In Proceedings of the US 
Olympic Academy XII, edited by R. Kretchmer, et al., pp. 83-89, 
Colorado Springs, CO: U.S. Olympic Committee.
    26. Black T. 1996. ``Does the ban on drugs in sport improve 
societal welfare?'' Int Rev Sociol Sport, 31:367-80.
    27. Interagency Task Force on Anabolic Steroids. 1991. Washington, 
DC: U.S. Department of Health and Human Services, Public Health 
Service, January.
    28. U.S. Department of Justice. 1994. ``Report of the International 
Conference on the Abuse and Trafficking of Anabolic Steroids.'' 
Washington, DC: Author.
    29. Office of Applied Studies. 1999. National Household Survey on 
Drug Abuse: Main Findings 1997. Substance Abuse and Mental Health 
Services Administration, U.S. Department of Health and Human Services, 
SMA # 99-3295.
    30. Yesalis C, Cowart V. 1998. The Steroids Game. Champaign, IL: 
Human Kinetics.
    31. BartonDavis ER, Shoturma DI, Musaro A, Rosenthal N, Sweeney HL. 
1998. ``Viral mediated expression of insulinlike growth factor I blocks 
the agingrelated loss of skeletal muscle function.'' Proc Natl Acad Sci 
USA, 95:156037.
    32. Beste A. 1991. ``Steroids: You Make the Choice.'' Iowa High 
School Athletic Association Printing Department.
    33. American Academy of Orthopaedic Surgeons and the U.S. 
Department of Health and Human Services. STEROIDS DON'T WORKOUT! (a 
poster). Washington, DC: Center for Substance Abuse Prevention, 
Substance Abuse and Mental Health Services Administration.
    34. Wm C. Brown Communications. 1992. 1992-1993 Weight Training 
Fitness & Conditioning Catalog, Dubuque, IA: Brown and Benchmark 
Publishers.
    35. Griffin T, Svendsen R. 1990. Steroids and Our Students: A 
Program Development Guide. St. Paul, MN: Health Promotion Resources and 
WBA Ruster Foundation.
    36. Harding, Ringhofer & Associates Inc. and Media One, Inc. 1993. 
Students and Steroids: The Facts . . . Straight Up. A steroid use 
prevention program for adolescents. Minnetonka, MN.
    37. Yesalis C, Wright J, Lombardo J. 1989. ``Anabolic androgenic 
steroids: A synthesis of existing data and recommendations for future 
research.'' Keynote research address, National Steroid Consensus 
Meeting, Los Angeles, July 30-31.
    38. Yesalis CE, Herrick RT, Buckley WE, Friedl KE, Brannon D, 
Wright JE. 1988. ``Self-reported use of anabolic-androgenic steroids by 
elite power lifters.'' Physician Sportsmed, 16: 91-100.
    39. Yesalis C, Streit A, Vicary J, Friedl K, Brannon D, Buckley W. 
1989. ``Anabolic steroid use: Indications of habituation among 
adolescents.'' J Drug Educ, 19:103-116.
    40. National Institute on Drug Abuse. 2001. Monitoring the Future: 
National Results on Adolescent Drug Use. Overview of Key Findings 2001. 
U.S. Department of Health and Human Services, Public Health Service, 
NIH.
    41. Centers for Disease Control and Prevention. 1994. Preventing 
Tobacco Use Among Young People: A Report of the Surgeon General. 
Atlanta, GA: CDC.
    42. Health United States: 1989. DHHS Publication (PHS) 89-1232, 
U.S. Hyattsville, MD: Department of Health and Human Services, National 
Center for Health Statistics, March.
    43. Schaps E, Bartolo R, Moskowitz J, Palley C, Churgin S. 1981. 
``Review of 127 drug abuse prevention program evaluations.'' J Drug 
Issues, 2:17-43.
    44. Goldberg L, Bents R, Bosworth E, Trevisan L, Elliot D. 1991. 
``Anabolic steroid education and adolescents: do scare tactics work?'' 
Pediatrics, 87: 283-6.
    45. Goldberg L, Elliot D, Clarke G, et. al. 1996. ``The adolescents 
training and learning to avoid steroids (ATLAS) prevention program.'' 
Arch Pediatr Adolesc Med, 150:713-21.
    46. Thompson J. 1986. ``Historical errors about the ancient Olympic 
games.'' Gamut, 17(Winter): 20-3.
    47. Thompson J. 1986. ``The intrusion of corruption into athletics: 
An age-old problem.'' J Gen Ed, 23:144-53.
    48. Young D. 1985. The Olympic Myth of Greek Amateur Athletics. 
Chicago: Ares.
    49. Smith R. 1988. Sports and Freedom: The Rise of Big-Time College 
Athletics. New York: Oxford University Press.
    50. Dealy F. 1990. Win at Any Cost: The Sell Out of College 
Athletics. New York: Birch Lane Press Books.
    51. Dickey C, Helmstaedt K, Nordland R, Hayden T. 1999. ``The real 
scandal.'' Newsweek, February 15, 48-54.
    52. Francis C 1990. Speed Trap. New York: St. Martin's Press.
    53. Sperber M. 1990. College Sports Inc. New York: Holt.
    54. Telander R. 1989. The Hundred Yard Lie. New York: Simon & 
Schuster.
    55. Alzado, L. 1991. ``I'm sick and I'm scared.'' Sports 
Illustrated, July 8, 20-27.
    56. Demak R. 1991. ``The slam is a sham.'' Sports Illustrated, 
July, 8.

    Mr. Stearns. I thank you. And I will start the questioning.
    Mr. Hooton, I--little words that I can say about the loss 
of your son, and I think all of us feel deeply about it. And 
having 3 boys myself, I particularly identify, knowing raising 
children today is not for the faint at heart. And I admire you 
for starting this, the Taylor Hooton Foundation, and anything 
we can do to help advertise what you are doing, we will do.
    My question for you is, were there signs that other parents 
could see of steroid abuse, that either the coaches could 
identify, or you and your wife could identify, to recognize the 
signs, so that other parents, who perhaps are ignorant of this, 
might start to think twice?
    Mr. Hooton. Great question. All of the signs, in hindsight, 
were there, both physically and emotionally. Physically, he put 
on about 30 pounds of weight in his upper body.
    Mr. Stearns. So, he went from 175 to 205.
    Mr. Hooton. 205.
    Mr. Stearns. Yes.
    Mr. Hooton. At his death. Developed a severe case of acne 
on his back, oily skin, puffy face, puffy neck, bad breath, and 
he used to go through bottles of mouthwash, couldn't figure out 
why. If we had been trained, if we knew what we knew now, all 
of the physical signs were there, but what was more apparent 
were the emotional signs, the mood swings, known in the 
vernacular as roid rages, where you are dealing with a kid, and 
we have raised two other children, you are going to go through 
explosive episodes with your kids. But not as explosive as it 
is when you have got a kid on steroids, that would--got to 
picture that on two occasions, drove a fist through a sheetrock 
wall for no reason, just exploded. Yelling and cursing at his 
mom and I, only----
    Mr. Stearns. Huge aggression.
    Mr. Hooton. Huge aggression. So, the combination of those, 
in hindsight, it was obvious that he was doing steroids.
    Mr. Stearns. You know, Dr. Yesalis has indicated that he is 
not sure random testing, I think you said is going to, would 
stamp it out. Is that a fair assessment of what you are saying?
    Mr. Yesalis. Yes, sir.
    Mr. Stearns. Because you could drive an M1 tank through it, 
you say. But----
    Mr. Yesalis. At night, I could drive it through.
    Mr. Stearns. Now, when a young man goes in the Marine 
Corps, he is tested for all the drugs, and sometimes, the 
threat of random testing will work to the benefit. So, I am a 
little concerned that you sort of feel so adamant that random 
testing would not--either in high school or college, be a 
deterrent. But on the other hand, I went onto the Internet, and 
I saw there is analog anabolic steroids, which mean they are a 
derivative, and these were touted as you cannot detect them. 
So, there is now a whole new classification of these steroids, 
that one, are almost considered like multivitamins but are 
steroids, and can't be detected. So, that is sort of a 
contribution problem, too.
    Mr. Yesalis. I think drug testing would have significant 
deterrent value with kids. I made my comment related to lead 
athletes. If you wish to use testosterone creams and gels 
judiciously, and most of these elite athletes in big money 
sports have scientific advisors, unethical people, who are 
making sure they don't test positive, if you use growth 
hormone, insulin, insulin-like growth factor, designer drugs, 
new drugs that come on the market, even before they are even on 
the market, athletes can get a hold of them before physicians 
can. Those are the loopholes which I addressed. And they are 
sustained loopholes. They have existed in different types and 
shapes and sizes, since drug testing started in 1968, in the 
Olympics. Clearly, if drug testing did its job since 1968, we 
wouldn't be sitting here today talking about this.
    Mr. Stearns. Yes. Dr. Goldberg, since a lot of testing, so 
little testing is done in high school, some of your statistics, 
how accurate do you think they are?
    Mr. Goldberg. Well, I think that the steroid statistics 
are, probably what we are dealing with is the bottom.
    Mr. Stearns. At the bottom.
    Mr. Goldberg. At the bottom.
    Mr. Stearns. What would you project the top is, I mean, 
just based upon your feel? Because Mr. Hooton had mentioned as 
11 percent, I think, he mentioned.
    Mr. Goldberg. There were 11 percent in Arkansas. There was 
12 percent in Michigan, in State studies. So, there has been 
studies that have looked at this. I think it would probably be 
more in the realm of 8 to 12 percent. Now, we did the first 
study on drug testing. NIDA funded our study, called the Saturn 
study. The results of the final, randomized control trial, it 
is the only one that has ever been done, a randomized control 
trial, looking at drug testing, to reduce drug use among 
student athletes. We did that study. We will have the results. 
The pilot study showed that it did work. The pilot study, that 
was just two schools, showed that it was--there was one fourth 
the illicit drug and one fourth the performance-enhancing drug 
use, in the school that did the drug testing, than the school 
that did not do the drug testing. That is not what we are 
finding with the randomized control trial, but it is a 
deterrent.
    When you mention about the reason to say no, we found only 
20 percent of the kids, was it a reason to say no. For 80 
percent, drug testing was not a reason to say no. One of the 
reasons is that the drug testing that is done in the high 
schools, they can't afford the Olympic style testing. They 
can't afford the $100 a urinalysis for steroids. So, they can't 
afford that, and the way they do it is very different. I have 
been a USADA, United States Anti-Doping Agency drug control 
officer. I have to look at the person void. We can't do that to 
kids. It is very different. We used a screen. We use a screen 
to have up so you can't see the person voiding. And there are 
so many ways to beat the system. There are penises you can buy 
on the Internet that are the color of your skin, and there are 
pocket warmers that you can use to warm the urine, and a person 
can give you a sample that is clear as can be.
    There are all different types of ways----
    Mr. Stearns. Because they kill all the sample, within the 
urine specimen, through the heat, then.
    Mr. Goldberg. No, it is--you can buy clean urine.
    Mr. Stearns. Oh, I understand. Oh.
    Mr. Goldberg. And you put the bag there, and you have an 
artificial penis, and----
    Mr. Stearns. Oh, okay. Oh, I see. I see.
    Mr. Goldberg. [continuing] somebody is--no one is looking.
    Mr. Stearns. Oh, I see. I understand. Okay.
    Mr. Goldberg. So, if you go in a room, you can--you just--
you strap it to yourself and use it.
    Mr. Stearns. I see. My time has expired. The gentlelady, 
the ranking member, Ms. Schakowsky.
    Ms. Schakowsky. You know, sometimes we deal with problems 
that deal with such deep cultural issues that they are really 
hard to get a grip on, but often, when you look at those 
issues, money is involved, that somewhere, money is involved 
here, the selling of these drugs, and of course, the value of 
sports, not only professional sports, but even college sports.
    My colleague from Colorado, Diana DeGette, was talking 
about hearings that we had about the University of Colorado, 
and the use of alcohol and sex, et cetera. I find it ironic 
that the coach, Gary Barnett, is still there, and the President 
of the University, tell me her name again, Elizabeth Hoffman, 
is gone. And one of the reasons she cited for having to leave 
the University, it was that scandal and some others, was that 
she wasn't able to raise the money any more that is needed for 
a university like that. So, the coach, in his million dollar 
plus job, who was engaged in these--and also said that one of 
the women on the team, who had been raped, well, ``she was just 
a girl,'' were his comments. He is still there, so we have to 
look at money, as well, and who is profiting from this.
    I wondered, Mr. Hooton, you have been hearing a lot about 
testing, and how many people think it is ineffective. I feel 
like you would like to say something, because that was a 
centerpiece of your testimony.
    Mr. Hooton. Yes, thank you.
    The first point I would like to make, if you think of 
yourself as a 15 or 16 year old kid in high school, there are 
no deterrents, right now, in most schools. There is no 
education program, the coaches claim not to know what to look 
for, or deny that it is going on. The parents don't know what 
to look for. The family physician doesn't know how to recognize 
steroid use. All of our system of checks and balances with 
these kids are nonexistent.
    Ms. Schakowsky. What happened to the guy, or whoever it 
was, at the YMCA, where your son got----
    Mr. Hooton. We knew exactly who it was, and the police 
weren't successful in making a case against him, and he has--I 
have talked to his dad, he is still out on the street. As far 
as----
    Ms. Schakowsky. He is another young person?
    Mr. Hooton. Well, he is 19 now. He was 18 at the time. So 
testing, for me, random testing is at least one step that we 
can take that will give the kid, at least there is a risk he 
will get caught, even if it is only 20 percent, that we drop 
the usage, that is 20 percent more deterrent than we have now. 
If there is one message I can leave you with, there are no 
deterrents for a 15 or 16-year-old kid, except the positive 
messages, look at the millions you can make if you take this 
stuff and you are successful.
    Ms. Schakowsky. Yes. Mr. Kanaby, in your--there is a 
slideshow, is that yours, attached to----
    Mr. Kanaby. That is correct.
    Ms. Schakowsky. [continuing] your testimony? ``Where do you 
usually get your anabolic steroids? Friend and family, 20 
percent. Other physician.'' I wanted to ask about these 3, 3 of 
them. ``Friend and family, 20 percent, other/physician, 16 
percent, website/mail order,'' and you also have if you Google 
buy steroids, it'll tell you where to go.
    Mr. Kanaby. That is absolutely correct.
    Ms. Schakowsky. But I wondered if you could comment on 
those----
    Mr. Kanaby. Well, my only comment would be--excuse me--my 
only comment would be that they are absolutely easily 
accessible, that the monitoring, as Mr. Hooton indicated, 
getting into this country is relatively easy from the 
standpoint of steroids, and you can go online and order what 
you want, without checking in terms of ages or anything else. 
Far too easily accessible.
    Ms. Schakowsky. Did either of the doctors want to comment 
about that? Dr. Goldberg?
    Mr. Goldberg. Yes. What we found is most kids get it either 
from the gyms, where they are working, where they see older 
athletes, and older athletes tell them what to do, or the 
Internet. I don't know any doctors that do do that, but I think 
that is the area. As far as testing is concerned, though, we 
could train 200 athletes and their coach in the coaching staff, 
for the cost of 14 steroid tests, and that would last them for 
years, and those tests would only last them during the time 
that they were in sport.
    Ms. Schakowsky. You know, I just have a second to ask, what 
is the appropriate role of coaches here? I mean, it seems like 
there is at least as much complicity as there is prevention 
going on.
    Mr. Goldberg. We asked all the coaches in Oregon, how many 
kids on your team are using steroids, and how many kids on 
other teams are using steroids. To a coach, they said there was 
no use of steroids on their team, but about 6 percent use on 
other teams.
    Ms. Schakowsky. Thank you.
    Mr. Kanaby. May I respond to the comment about coaches? One 
of the things that the committee should understand is what has 
happened with coaches and coaching over the last 15 years or 
so. Traditionally, as I listened to Congressman Ryun talk about 
the relationship that he had with his coach, he would see that 
coach on a day in, day out basis, maybe in the cafeteria, in 
the halls, et cetera, perhaps even had them in the classroom. 
That is not what coaching is at the secondary level any more, 
due to the fact that people won't coach any more as teachers, 
in that regard. We estimate up to 50 percent of the coaches in 
this country, that are working with young people, are no longer 
in those schools. And I could--I can speak regularly to 
athletic administrators who say 75 percent of their coaching 
staff are not in a school building, so that these individuals 
are coming from our community, to--they go through various 
alternative routes, which are legitimate and available, 
approved by the State legislatures, and Departments of 
Education, in those respective states.
    And I am not saying these are not good people. But they are 
no longer the individuals that you see, the way we used to see, 
the we thought of, and that we remembered of, in terms of the 
relationship that was described by Mr. Ryun, et cetera.
    Coaching is a 24-hour job, and you more easily fulfill that 
responsibility when you have the opportunity to bump into a 
youngster who might just have had a fight with his girlfriend, 
or might just have had a problem with another teacher in that 
classroom, or teachers seek out coaches because they are 
available in the skills, to talk to them about incidences and 
signs, et cetera, that might heighten their awareness.
    So our coaching in the United States has changed 
dramatically in that regard. We have a coaches education 
program that is subscribed to by 36 of our member states, that 
they make it mandatory to take our coaching education program 
for any individual who comes into the system this way. And part 
of our coaching education program does deal with steroid 
information.
    Mr. Stearns. The gentlelady's time expired. The chairman of 
the full committee, the gentleman from Texas.
    Chairman Barton. Well, thank you, Chairman Stearns.
    Mr. Hooton, I really appreciate you coming forward. Not 
often do you see the members just really listen to testimony, 
but they listened to you. They weren't reading their papers, 
and they weren't having a conversation about a pending 
amendment. They--everybody who was here at the time you were 
speaking was listening to you, and myself included. So we 
appreciate you coming forward.
    My question to you, the coach that told your son that he 
needed to get bigger, did he directly encourage him to take 
steroids? Did he implicate that he should take steroids? Did 
he--was he using code language to encourage him to take 
steroids?
    Mr. Hooton. Great question, Mr. Barton, and it will give me 
the opportunity to say categorically, we are not accusing the 
coach in any way of encouraging Taylor to use steroids. He made 
his own decision, based on information he got from his friends. 
A great number of the kids on the team, a high percentage, were 
using steroids. So there was enough pressure without the coach. 
My challenge to our coaches, the world has changed, the world 
of coaching has changed in the last 10 years. Telling a kid to 
get bigger, in my mind, is irresponsible, and borders on 
negligence.
    Chairman Barton. Well, my question is, is that code 
language in the coaching community, in the high school athletic 
community, that the coaches don't want to be accused of 
knowing, but they are street smart, too, and is that just a way 
to encourage something that they know is illegal, without them 
being culpable? That is my question.
    Mr. Hooton. It could be. I would very much like not to make 
any accusation of that, because I have no specific knowledge of 
that. My problem, you know, that is possible, and it is 
probably going on some places. Not my role to challenge that 
yet. We may get there, but my problem with the coaches are they 
tell a kid to get better, whether it is code language or not, 
and they are not qualified to show the kid how to get bigger.
    Chairman Barton. Right.
    Mr. Hooton. They haven't been trained to show him what 
exercise program or what diet he needs to get on. He leaves it 
to a 16-year-old to make his own judgments about how to get 
bigger. And to your question, there is probably a lot of what 
is inferred in your question going on.
    Chairman Barton. Well, again, I want to thank you for 
coming forward with the personal tragedy, and----
    Mr. Hooton. Thank you.
    Chairman Barton. [continuing] the courage you have 
encountered. I want to ask Mr. Kanaby, are there things that we 
could do that would send a direct signal at the high school 
level that teams, communities, coaches, that wink and nod at 
steroid use are not going to be tolerated? For example, if we 
set up some sort of--in Texas high school athletics, it used to 
be rampant that back in the old days, somebody finds out there 
is a young man, then, now young men and women, I guess, that 
was a great athlete, they would offer the dad a job, and they 
would move him. And lo and behold, Texas, they got to be so big 
time that they passed a law that you had to live in the 
district so many months or years before you could transfer 
athletically, and if somebody still tried to do it, opposing 
coaches could lodge a protest that so-and-so moved over here 
because we offered his dad a job, and that athlete could be 
disqualified.
    Could you set up some sort of a protest in high school 
athletics, that if coaches suspected somebody wasn't playing by 
the rules on steroids, that after due process, they could take 
away the district championship, the State championship, prevent 
them from competing for, you know, either collectively as a 
team, or on an individual basis? Could something like that be 
done?
    Mr. Kanaby. I think what you are asking is can we restore 
to this country the culture of sport that existed many, many 
years ago, and that is not to say that even many, many years 
ago, that these same kinds of charges about giving someone's 
father a job to get them to go to a specific college, or to get 
them to go to a specific high school, probably college, years 
ago. Even high school----
    Chairman Barton. In Texas, it was high school.
    Mr. Kanaby. Yes. I am sure, is going to be eradicated, or 
in a new culture. Our member State associations, virtually all 
of them, all 51 of them, have what amounts to transfer for 
athletic advantage rules, and they consistently will have--when 
evidence is produced, and it has to be evidence, because you 
are going to end up ruling someone ineligible----
    Chairman Barton. I am not saying we are transferring 
athletes, because of their ability to use steroids. I am using 
that as an analogy. If I feel like the school district next 
door has a coaching staff or a community or a culture of use, 
that condones the use of steroids, and I think I can prove it, 
could I ask for a hearing, and if it was proved, that athlete, 
that district, that school be prohibited from competing, have 
its victories forfeited, have its championship forfeited, so 
you know, Ronald Reagan loved the Russians, but he said trust, 
but verify.
    I am trying to come up with a verification system that is 
self-policing, and if--to use an example in my district. I live 
in Inez, Texas, and also, Arlington, Texas. But Inez, Texas, 
has won the stateSdistrict AAAA championship 3 of the last 5 
years in football. Waxahachie, Texas won the State district 
championship in the early 1990's. Inez got tired of getting 
beat by Waxahachie. So, Inez went out and hired a coach, and 
upgraded their athletic facilities. Now, let us assume 
Waxahachie thinks Inez is cheating on steroids. Let the 
Waxahachie Independent School District file a complaint with 
the UIL in Austin, that Inez, Texas Lion football, who has won 
3 State championships in the last 5 years, are cheating on 
steroids. And if it is proven, they forfeit those 
championships, they forfeit the 10 district championships in a 
row. They forfeit all those things. Would that work, if we made 
it a penalty to go against those communities where there is a 
culture of steroid winking and looking the other way? That is 
my question.
    Mr. Kanaby. And it is a good question, and my answer, 
basically, would be this. I am confident that should that be 
brought to the attention of a--by a specific school on another 
specific school, that the representatives, the competent 
representatives in the UIL, would probably--let me answer it 
the way I would, if I were back in New Jersey. We would bring 
the representatives from both schools together, in terms of 
that, and provide them with the opportunity to prove their 
burden, to meet their burden of proof.
    Chairman Barton. Well, as there is no penalty----
    Mr. Kanaby. Well----
    Chairman Barton. [continuing] for abuse, somebody out there 
is going to take advantage of that. Now, I want to ask the 
athletic director for--trainer at University of Maryland, could 
we do the same thing at the college level, and say before you 
get--before the Maryland Terrapins offer you a basketball or a 
football or a baseball or a soccer or a hockey or a girl's 
volleyball, or whatever the scholarship is, you have got to 
pass a steroid test, and you don't get offered that scholarship 
if you don't pass that test, and sign an affidavit, I make 
everybody that goes to my academy interview, for a military 
academy, I have not knowingly or willfully used any sort of 
illegal substance, period. And they sign their name. And if it 
that turns out they lied, we kick them out. We don't even 
consider them in the process. So, if the NCAA adopted 
something, you don't get an athletic scholarship to college 
unless you sign this, and prove that, in some way, that you 
have been not using steroids, would that help at your level?
    Ms. Worth. Well, that certainly is something that would 
come from a level above where we are. I mean, at the 
administrative level for intercollegiate athletics. If that is 
what the rules are, and everybody knows what the rules are----
    Chairman Barton. Well, I am asking your opinion--would 
something--I am not saying you are the one to implement.
    Ms. Worth. Right.
    Chairman Barton. If it were to be, would that help? What we 
are trying to get at here----
    Ms. Worth. Yes.
    Chairman Barton. I don't want the U.S. Congress to have to 
pass a bunch of Federal bureaucratic standards on steroid use. 
If that is what it comes to, and we can do it, legally and 
Constitutionally, if the athletic--at every level, from the 
elementary to the pro level, if you all won't do it, I am going 
to try to get this committee to do it. But I would rather you 
do it yourself. You know, I am tired of people sticking their 
heads in the sand, and saying I don't know how come that kid 
gained 50 pounds and improved his 40-yard dash two tenths of a 
second. I just know he can do it. Go get them, tiger. It 
doesn't happen naturally. I lifted weights until I was blue in 
the face in high school, and gained 5 pounds. You know. I just 
wasn't built to be a high school football player. Well, you 
know, until everybody collectively decides that this is a 
problem, and tries to think of ways to fix the problem, we are 
going to be here in Washington besieged by parents and sports 
fan, who say what are you going to do about steroid abuse?
    Now, there are a lot of things that could be done by the 
NCAA and by UIL, and by the professional sports to clean up 
their own act, but if the prevailing opinion is, as long as I 
am not responsible, all I want to know is can he throw that 
fastball 95 miles an hour, can he run the 100-yard dash, or the 
100-meter dash in 9 seconds flat, whatever it is, can he bench 
press 350 pounds, don't ask me how he can do it, or why he can 
do it, or she can do it. I just want him to do it. You all have 
got to change it, and what I am telling you, if you don't 
change it, and start doing it soon, this committee is going to 
use every legal authority and jurisdictional authority that we 
can get to try to do it for you.
    That is what I am saying. I am tired of hearing that 
somebody's son or daughter got hooked on steroids and committed 
suicide, or died at the young age, and when I go and talk to my 
young people in my district, they look to me as a role model, 
and I have got the ability, through chairing this committee, to 
do something about it, and I am fed up. I don't want 
bureaucratic answers. I don't want gobbledygook. I don't want 
it is the next person's problem. It is your problem, and the 
professional representatives that are coming the next panel, it 
is their problem. And if you don't clean it up, we are going to 
try to clean it up for you.
    That is what I am telling you.
    Mr. Goldberg. Can I respond to that?
    Chairman Barton. You can try.
    Mr. Goldberg. Okay. I think one way Congress can help are 
fund programs that are scientifically proven to work. Give us--
we have two programs we developed.
    Chairman Barton. We just passed a law last year that is a 
start.
    Mr. Goldberg. But it is not--they are not funded. It is not 
appropriated.
    Chairman Barton. Well, we will help appropriate it.
    Mr. Goldberg. And that is one start. You have mentioned 
some very nice potential policies that could work. But those 
policies need to be studied. That is why we asked NIDA, and 
received grants to study drug testing, because people do drug 
testing, and we wanted to know does it work or not? Are we 
wasting money if we are doing drug testing?
    Chairman Barton. Well, you come in and see my staff, and I 
bet every member of this committee's staff, and we will, on a 
bipartisan basis, come up with some funding mechanisms, and go 
to the appropriators, as long as the money can be shown to be 
well-spent, and not wasted, and given to bureaucrats who sit on 
their butts in various agencies, and never hit the streets, we 
will help you.
    Mr. Goldberg. Well, Congressman Barton, I was in Texas last 
week, and I lectured at Texas, and showed our programs, and the 
people there wanted to use those programs, and they distributed 
100 of those to schools. So I am hopeful that there will be 
more of that, because I think that it is important to use 
scientific methods that actually work, and bring this research 
to service, which can be done.
    Chairman Barton. Well, we will work with you. Thank you, 
Mr. Chairman, for letting me go way over.
    Mr. Stearns. I thank the chairman, and I just commend him 
for his comment, and as he pointed out, even last year, 
President Bush in his State of the Union told the Nation that 
we must do something to clean up this terrible obsession we 
have with trying to get the edge all the time. So, I think that 
is what the chairman is talking about.
    And the gentleman from Michigan is recognized.
    Mr. Upton. Well, thank you, and I would want to follow up 
Chairman Barton's comments. I am bitterly disappointed that the 
leaders of these other institutions, whether it be the NCAA or 
the MLB, Bud Selig, refused to come and talk to us today. I 
think what the chairman said a little while ago, about limiting 
or saying no to aid packages, student aid packages, to go to 
university, I think that ought to be on the table, and I would 
like to hear specifically from the NCAA in terms of why that 
shouldn't be.
    Mr. Hooton, we were all deeply moved with your testimony, 
and I am going to take this home myself. My son Stephen Taylor 
McCarthy Upton is going to see that he is a teenager. He is 
going to read this tonight. Make sure that not only him, but 
his friends, see that same message. So we appreciate your 
ability to come today.
    Ms. Worth, I have a question. As a trainer, so many 
different athletes. Maryland has a great program. I hope they 
do well in the tournament this weekend, and I am sure----
    Ms. Worth. So do I.
    Mr. Upton. Can--are you able to suspect athletes as you see 
all these folks that are in and out? Are you able to have some 
degree of suspicion that certain athletes may be using?
    Ms. Worth. The football, the wrestling, the field, track 
athletes, those that require a bit more strength than say, 
perhaps, tennis or wrestling, something like that. You will 
notice strength gains in the general population, student 
population, you do notice strength gains, just as they are in 
the weight room, working out. Those that make precipitous gains 
in short periods of times, do raise everyone's eyebrows. And 
you have to wonder. In place at the University of Maryland, if 
there is suspicion, and it has to be validated. I mean, it 
can't just be because I don't like the way you look, or you 
know, your green hair is making me crazy. It can't be anything 
like that, but there has to be behavioral, there has to be 
somatic kinds of things.
    Mr. Upton. But you can--but what you are saying is, you can 
almost target folks that ought----
    Ms. Worth. Yes.
    Mr. Upton. [continuing] to be tested, based on what you----
    Ms. Worth. Yes. That is correct.
    Mr. Upton. Dr. Goldberg, how long do traces of steroids 
stay in a system?
    Mr. Goldberg. That is a good----
    Mr. Upton. A couple months?
    Mr. Goldberg. Yes, that is a good question.
    Mr. Upton. A couple weeks?
    Mr. Goldberg. Some of them, just a couple of days. You can 
tape a buckle type of steroids, which you put in between your 
cheek and gum, it can be gone in 6 or 8 hours. Some would be 
oil-based. They will last a month or longer. And the problem 
is, a lot of these drugs are cycled, so there is times that you 
are on the steroids, and then you are off the steroids. So that 
is why when baseball said oh, we have from 5 to 7 percent of 
use, well, that was not true. That means that is more like 10 
to 14 percent, and that doesn't include all the steroids that 
are hidden, all those designer steroids.
    Mr. Upton. Okay. When you talk a little bit about the 
problems in testing with the urine that you indicated a little 
bit earlier. Are there other ways to test? Can you take your 
hair? Isn't that a much better--I just know that other drug 
testing that firms have, it is, obviously, not as invasive.
    Mr. Goldberg. You have hair. You have saliva.
    Mr. Upton. And that keeps it--doesn't the hair, even if you 
use a steroid that is good for only a few hours, doesn't it 
stay for a long, long time, indicating use?
    Mr. Goldberg. Well, it has not been well studied for hair, 
but how are you going to test Barry Bonds? He is bald.
    Mr. Upton. Well----
    Mr. Goldberg. Could I add, excuse me, Congressman.
    Mr. Upton. I can't go there.
    Mr. Goldberg. I just wanted to speak to the--how long these 
drugs stay in your system. If you use regular testosterone via 
creams and gels, and you use it judiciously, we have a level, a 
chemical level in testing, and if you stay under that level, 
which will still give you a performance enhancement, you can 
test me every day of the year, and you will--I will not test 
positive.
    Mr. Upton. Mr. Kanaby, different states, as you were 
talking about, with legislation, one of them being Michigan. I 
am going to follow up with my State legislators, to see where 
that is. I know, you know in Indiana and New Jersey probably 
best of all, when you have a student that is identified as 
being tested positive, and they are automatically drummed out, 
are there provisions within those states if that student cannot 
transfer to another----
    Mr. Kanaby. Yes.
    Mr. Upton. [continuing] school association. Just because I 
know some kids that have broken the rules for drinking, other 
things, and they have----
    Mr. Kanaby. Yes.
    Mr. Upton. [continuing] simply transferred to another 
school district.
    Mr. Kanaby. No, that is covered by each of our member State 
associations, who would have a bylaw that would prohibit that 
kind of a transfer in order to avoid a penalty at a previous 
school, that might be imposed.
    Mr. Upton. And Dr. Yesalis, last question, because my time 
is expiring. I know that you come from Penn State, a great 
university, in one of the best conferences that there is, and I 
just think about your coach, Joe Paterno, a friend, a wonderful 
man, and I have got to believe that his policy with his players 
is a no tolerance policy. Is that correct, do you know?
    Mr. Yesalis. We are very aggressive in testing, but again, 
we are limited to what is technologically available. So, you 
know----
    Mr. Upton. But does he let his--doesn't he let his players 
know, like Coach Carr and some other great coaches in the Big 
10, if you use this--these pills, et cetera, you are off the 
team, period?
    Mr. Yesalis. All right. But--Coach Paterno has been very 
aggressive about that, as have some other coaches. I don't 
think enough of them. But again, you can tell these kids, you 
can tell them what the consequences are, but you know, there 
are some collegiate athletes that actually, because they have 
potential pro careers, they already have some scientific 
helpers out there making sure they are not going to flunk drug 
tests. Because they know that kid might sign a multimillion 
dollar contract.
    Mr. Upton. That is why I like Chairman Barton's idea about 
the scholarships. Mr. Chairman, my time has expired. I yield 
back.
    Mr. Stearns. I thank the gentleman. Mr. Shimkus is 
recognized.
    Mr. Shimkus. Yes, thank you, Mr. Chairman. And it has been 
a long morning. I really appreciate your testimony. I was a 
coach in high school for 4 years, at a small Lutheran high 
school, in which I was in that environment where you taught, 
and then you stayed. It made for long days, but those who love 
it can do it. But I am in a different era. I was able to coach 
my son's sixth grade basketball team November, December, 
January. It is pretty unique, based upon our schedule, but it 
just happened that I could do that, and I am the parent, 
outside, going into the school, to do that. So, there is a 
shift change in our culture, with respect that maybe it is--
somehow, we need to get back.
    This--I am going to take this in a little bit different 
direction. There is legislation on the book, Mr. Chairman, but 
this issue on steroids, for some reason, culturally, has not 
been accepted as illegal, illicit drugs, like we would 
marijuana or cocaine, crack cocaine, and the like. Under the 
legislation No Child Left Behind, there is a provision in the 
bill on Safe and Drug-Free Schools Act, which requires high 
schools to record, for the Department of Education, incidences. 
That is the importance of these hearings. So that we can then 
follow up under that provision, and say well, why isn't steroid 
use a reportable item in this report?
    Then there are grant moneys available for schools to 
access, to train and educate, $400 million last year. Still, 
and even in the President's budget, there is--it has been cut, 
in his proposed budget, but there is $100 million available 
under that provision. So, there is access to funds. Why I know 
all this, this is not the Education and Workforce Committee. We 
are not real involved in that, but I have--there is--another 
tie is, I have a bill, and I would like my colleagues to look 
at it, that amends that bill on the issue of bullying, another 
major issue. And I am wondering, Mr. Hooton, if your foundation 
has, or if it would consider, in your work, because of the 
aggressive behavior that is indicated, maybe there is a 
connection to bullying in schools, just because of the nature 
of the change.
    Is that anything you all have looked at?
    Mr. Hooton. That is a great--no, we haven't. It is a great 
question. I think steroids is related to a lot of the bad 
behavior that we see, whether it is the increase in domestic 
violence amongst many of our pro athletes, whether it be a lot 
of the violence that we see on the streets amongst and between 
our policemen and the, you know, but great question, and I 
would love to follow up with you on that.
    Mr. Shimkus. Yes, and I would like for, you know, to the 
best of the individual's ability, because when I have talked 
about bullying at editorial boards, and I mean, we have 
actually got a large number of Members co-sponsoring the 
legislation, this kind of bullying is kind of a taboo subject. 
It is kind of like steroid use. It is like other type abuses 
that we know is out there, we are afraid to address it.
    Mr. Hooton. Hard to deal with.
    Mr. Shimkus. Hard to deal with. We would rather not know. 
Let us just get along and be merry, but it is a significant 
problem in our schools, so much that there is a large coalition 
of different, diverse groups, from the National Education 
Association to the Sheriffs Association, that really would like 
us, as part of this reporting procedure that is already in 
current law. So I think on--twofold, how it can address this 
issue, and especially for, you know, the tragedy that we see 
with the young kids is making sure that as the Safe and Drug-
Free Schools, you have the safety aspect, you have got the 
drug-free, steroid use aspect, and then, if we are successful 
in adding bullying to this equation, maybe there will be other 
identifiers that we can use to help educate members, and that 
may be another way to help free up money, as Chairman Barton 
said, in the education and training of coaches, peer 
counselors, all these things that we have talked about.
    Any--does anyone want to add to that, because my time is 
up, but you--I have got a few minutes for anybody to respond.
    Mr. Kanaby. My only response would be that that would be a 
very appropriate topic to also include in that bullying or 
hazing or whatever else our traditional rites of passage, so to 
speak, more often than not, unfortunately, do occur in athletic 
programs. And it is something that we need to address and 
should address. So we would support that.
    Mr. Shimkus. And I thank you for your testimony. Mr. 
Chairman, I yield back.
    Mr. Stearns. I thank you. The gentleman's time has expired. 
The gentlelady from Tennessee, Ms. Blackburn.
    Ms. Blackburn. Thank you, Mr. Chairman, and thank you to 
each of you. I have questions for each of you, but what I am 
going to do, in the interests of time, because we do have 
another hearing that is going to start in a few minutes, and a 
panel yet to hear from, and I am going to submit these. I do 
want to make just a couple of comments, though.
    I agree with what our chairman was expressing to you all, 
and the concerns there, and you know, it is an amazing, amazing 
thing. If the private sector and the not for profit sector does 
not fill a need that exists in society, then people are going 
to turn to government to fill that need. So, if the policing 
agencies and the groups that exist, if the coaches, if the 
educational institutions do not tend to the situation, people 
are going to expect us to do it, and you know, Ms. Worth, I 
found it really almost incredible that as a trainer, someone 
involved in the National Athletic Trainers Association, 
involved with education, that you made the comment, I find it 
interesting you state that you think Congress and the media 
need to get the message out about the dangers of steroid use.
    And being a parent, having children that competed in high 
school, and one who competed, competitively, ran in college, 
you know, there are folks that they are listening to. There are 
trainers, and there are coaches, and there is also the 
responsibility of the parent, but there are those that they 
answer to every single day, just as Congressman Ryun was 
saying, and I do think that there is a responsibility there. 
Because this is something that needs to be addressed.
    And I will submit my questions to each of you. They range 
from dealing with the secretive nature of what we see, your--
what your opinions are going to be on the Steroid Control Act 
that we put into place last year. Looking at educational 
programs, outreach questions, motivation of why kids other than 
athletes are using steroids. So these will come to you.
    Thank you for your time. Thank you for your participation 
and your desire to work with us.
    Mr. Stearns. I thank the gentlelady. We want to thank you 
for your forbearance, and we will now call up the third panel.
    Dr. Ralph Hale, Chairman of the United States Anti-Doping 
Agency. Mr. Adolpho Birch, Counsel for Labor Relations, the 
National Football League. Mr. Frank Coonelly, Senior Vice 
President, the Major League Baseball. And Ms. Mary E. Wilfert, 
Chief Liaison, the Committee on Competitive Safeguards and 
Medical Aspects of Sports, the National Collegiate Athletic 
Association.
    So, I want to welcome all of you with your opening 
statements. And before you start, I want to clarify and to make 
one statement again. To say that this committee, this 
subcommittee did invite the commissioners of Major League 
Baseball, the NFL, the NBA, and the President of the NCAA. All 
declined to appear personally. Now, it is our feeling on this 
subcommittee that these officials should not duck their 
responsibility by failing to appear, and must at some point be 
called to account, to this committee and the American people, 
for their failure to address this issue before today. They need 
to provide answers for their league, and be leaders in 
establishing the highest standard to combat this plague that is 
hurting our kids and, obviously, the sports we love so much.
    So with that, Dr. Hale, I welcome you for your opening 
statement.

   STATEMENTS OF RALPH W. HALE, CHAIRMAN, UNITED STATES ANTI-
  DOPING AGENCY; ADOLPHO BIRCH, COUNSEL FOR LABOR RELATIONS, 
  NATIONAL FOOTBALL LEAGUE; FRANCIS X. COONELLY, SENIOR VICE 
 PRESIDENT, MAJOR LEAGUE BASEBALL; AND MARY E. WILFERT, CHIEF 
   LIAISON, COMMITTEE ON COMPETITIVE SAFEGUARDS AND MEDICAL 
ASPECTS OF SPORTS, THE NATIONAL COLLEGIATE ATHLETIC ASSOCIATION

    Mr. Hale. Thank you, Mr. Chairman. I appreciate the 
opportunity to come and talk about this very important health 
issue. I will try to keep my comments relatively short, since 
you do have my testimony.
    I am here as the Chairman of the Board of the U.S. Anti-
Doping Agency, which is very fortunately funded extensively by 
Congress, and for that, we certainly do appreciate it, and I 
want to extend our thanks to you.
    I am also a physician who has been practicing for over 40 
years. I have been involved with sport teams at the youth, the 
high school, the university, and the Olympic level. I am also 
the father of 3 elite athletes, one of whom, incidentally, is a 
high school coach now, and I have seen the incidence of steroid 
use, and the problems facing our young athletes, up close and 
personal. You very well have described the perils of the 
medical issues related to the use of anabolic steroids, and 
others have already testified to the increasing incidence, so I 
am not going to say that. It is in my testimony.
    But why, then, do teens and adults themselves use steroids? 
I think there are multiple reasons. Steroids, they do increase 
muscle mass. They do increase size and strength, and we live in 
a sport culture here where winning at all costs is the 
standard, and resultant success can result in money, fame, and 
much more money, as you see by the bonuses some of these people 
receive, which are astronomical, more than most people will 
ever earn in their entire lifetime.
    They also see their sports heroes, and that, I think, is 
one of the things that we do face, the sport heroes that our 
youth look up to, they believe their answer is to be the same, 
and they can achieve that goal by the use of steroids. They 
also realize that they can heal their injuries much faster by 
the use of steroids. Whether this is a real healing or a false 
sense of security is not even thought of by these athletes.
    And also, what we are now starting to see is the concept of 
looking better. I still remember, in fact, I am old enough to 
remember when the Charles Atlas advertisements in the back of 
comic books were the things that all young men looked for. It 
was based upon basically muscular development and use of weight 
training, but now, many of these young athletes, they look at 
that, and they say all I have to do is take steroids, because 
they have seen this among themselves, and we have worked with 
Mr. Hooton and his foundation, and we are very concerned about 
seeing these particular problems.
    The U.S. Anti-Doping Agency is concerned. Obviously, at the 
Olympic and para-Olympic level athlete, maintaining a clean 
playing field. This is the basis of our drug testing program, 
which is designed to deter the use, and it is important that 
deterrent is there. But in addition, we believe that education 
programs are extremely important, and we have a strong 
educational component that we work with. As a matter of fact, 
we even are starting at middle school, working with Scholastic 
Magazine, trying to get out the information to help the young 
athletes that will come. Because you have to be a young athlete 
before you can be an Olympic athlete. You just don't walk onto 
the floor.
    We also conduct an active research program. And recently, 
our experience with THG and the Balco lab has been very much in 
the news, and we are very interested in trying to identify all 
sorts of other designer steroids and others that may out there. 
However, all of our efforts at the USADA will not totally 
succeed, until all sports organizations agree to fully 
participate in programs to deter the use of performance-
enhancing, dangerous steroid drugs. Programs that fail to test, 
or that test sporadically and infrequently, are not a 
deterrent. As a matter of fact, programs with minimal sanctions 
will only result in minimal success.
    Unfortunately, for many athletes, it is simply a matter for 
the cost/benefit analysis. Because these athletes are focused 
on current success, they discount or ignore the long-term 
consequences of steroid use that may suffer later in life, or 
the short-term punishment, excuse me, that may be dealt out to 
them.
    Again, I want to emphasize again the potential side effects 
of steroids as they affect men and women. They are--can be 
disastrous. They can result in extreme debilitation as well as 
death. However, this is not what people look at. They are 
looking at what will be the result of their success taking 
this. And so education will ultimately be the critical and most 
important area we have to deal with. And until we get there, 
though, an effective program of testing to deter the use, and 
of sanctions when caught, is essential if we are to defeat this 
battle.
    I would like to thank the committee very much for the 
opportunity to testify.
    [The prepared statement of Ralph W. Hale follows:]

  Prepared Statement of Ralph W. Hale, Chairman of the Board, United 
                       States Anti-Doping Agency

    Mr. Chairmen, Members of the Subcommittees, good morning, my name 
is Dr. Ralph Hale. Thank you for the opportunity to testify regarding 
this important health issue. Today, I am here as the Chairman of the 
Board of Directors of the United States Anti-Doping Agency. I am also a 
physician who has been practicing medicine for more than 40 years. 
USADA has been recognized by Congress as the independent, national 
anti-doping agency for Olympic and Paralympic sport in the United 
States. Our mission is to protect and preserve the health of athletes, 
the integrity of competition, and the well being of sport through the 
elimination of doping.
    Recently USADA has received increased media attention for its role 
in the investigation into the existence and use by elite athletes of 
the designer steroid, THG. Designer steroids are an important concern 
for USADA. However, USADA is equally concerned about all anabolic 
steroids that are readily available in the United States. The 
availability of these anabolic steroids is a significant public health 
issue that transcends sport and places American consumers at risk.
    The perils of anabolic steroid use are well known. In Olympic 
sport, the most notable, systematic state-supported program of doping 
with anabolic steroids was conducted by the East Germans from 1974 
until the Berlin Wall fell. The documented side effects of steroids and 
steroid precursors among these East German athletes, particularly women 
athletes, are tragic. These side effects included damage to the liver 
and reproductive system, susceptibility to cancers, and permanent 
masculinization of women. It is also well known that men who abuse 
steroids and steroid precursors risk serious health consequences 
including gynecomastia, baldness, shrunken testicles, infertility and 
susceptibility to aggressive behavior or rage. For adolescents who use 
steroids the side effects can include all of the above, as well as a 
strong likelihood that natural growth will be arrested or otherwise 
detrimentally affected.
    Let me address youth first. In a 2003 study of 48,500 students in 
the 8th, 10th, 12th grade by a group at the University of Michigan in 
conjunction with the National Institute on Drug Abuse and the U.S. 
Department of Health and Human Services, 2.5% of 8th graders, 3% of 
10th graders and 3.5% of 12th graders had used steroids.\1\
---------------------------------------------------------------------------
    \1\ Sheltra, Patrick. ``Stomping Steroids: Districts Can't Afford 
to Test Their Athletes.'' Inland Valley Daily Bulletin 13 Feb 2005
---------------------------------------------------------------------------
    A recent Newsweek report stated that 300,000 American Teenagers 
abuse steroids each year. In a 1998 Massachusetts based survey 
published in the Journal Pediatrics, 3% of middle school students had 
used steroids. This problem is increasing on an annual base. In June 
2004, the CDC published figures on self-reported drug use called the 
Youth Risk Behavior Surveillance from 2001 to 2003 use of steroids went 
up 20% for men and 300% for girls. Of more concern among 12th graders 
3.3% of girls and 6.4% of boys had used steroids once however 7.3% of 
ninth grade girls and 6.9% of ninth grade boys had already been using 
steroids.\2\
---------------------------------------------------------------------------
    \2\ De'Noon, Daniel. ``Steroid Use: Hitting Closer to Home; Olympic 
scandals spot light performance-enhancing drugs as number of kids use 
them.'' 4 August 2004 http://www.WebMd.Com
---------------------------------------------------------------------------
    A recent Blue Cross and Blue Shield Association survey estimated 
that approximately 1.1 million youth between the ages of 12 and 17 have 
taken potentially dangerous performance enhancing drugs.\3\ These are 
just a few of the ever increasing number of reports on the use of these 
dangerous compounds. And yet in the Blue Cross and Blue Shield 
Association study 76% of the teens could not identify any negative side 
effects from long-term use. These surveys are also increasingly being 
confirmed by admissions of high school athletes who have used steroids. 
For example, nine football players from Heritage High School in Texas 
recently admitted to using steroids. Of significance is the fact that 
lack of testing for steroid use by high school athletes' results in 
lack of detection, so the true incidence is unknown.
---------------------------------------------------------------------------
    \3\ Blue Cross and Blue Shield Association Survey Projects 1.1 
million Teens have used Potentially Dangerous Supplements and Drugs. 31 
October 2003
---------------------------------------------------------------------------
    Why then do teens and adults use steroids? Steroids increase muscle 
mass and thus size and strength. In a sport culture where ``Winning at 
all costs'' is the standard and the resultant success can result in 
money, fame, and more money, the use of steroids is viewed as an easy 
way to attain this goal. They also see their sport heroes using 
steroids and believe this is their answer well. Steroids are also 
viewed as a way to increase healing of injuries. This is especially 
true with muscular skeletal injuries. A recent finding is the use of 
these compounds to make individuals ``look better.'' Even non-athletes 
appreciate the muscular body of the athlete. I still remember the 
Charles Atlas advertisement in comic books when I was growing up. Many 
thousands of young men sent in for the Charles Atlas system. Now they 
believe they just have to use steroids.
    USADA is concerned, with the Olympic level athlete and maintaining 
a clean and equal playing field. This is the basis of our drug-testing 
program, which is designed to deter use of performance enhancing drugs. 
In addition we believe education programs for the athletes, from youth 
to Olympic level, must also be a key component of addressing the 
problem in the U.S. USADA also supports an active research program 
related to the use of performance enhancing drugs.
    However, all of our efforts will not totally succeed until all 
sports organizations agree to fully participate in programs to deter 
use of performance enhancing dangerous steroid drugs. Programs that 
fail to test or that test sporadically and infrequently are not a 
deterrent. Programs with minimal sanctions only result in minimal 
success. Unfortunately for many athletes, it is simply a matter of 
cost-benefit analysis and because these athletes are focused on current 
success, they discount or ignore the long-term consequences of steroid 
use that may not surface until much later in life. Is the cost of being 
caught and disciplined greater than the rewards gained from using the 
compounds? You will note that the side effects, although serious and 
life threatening, are not included in the formula. The reason is that 
in the end, if they were considered, the cost side of the equation 
would be enormous and does add a significant burden to the health care 
system.
    Let me again emphasize the potential side effects of steroids as 
they affect adults. In men steroid use has been associated with reduced 
sperm count, infertility, impotence, gynecomastia (increased breast 
size), enlarged prostate, urinary and bowel problems, sleep problems, 
baldness, left ventricular hypertrophy of the heart, liver damage, 
stroke, sudden mood swings, rage and aggression. Withdrawal can result 
in depression and suicide. These psychological effects can be even more 
severe in adolescents who are going through the upheavals associated 
with teenage adjustment. In women, many of these same problems can 
occur as those in men but also include as breast reduction, increased 
facial and body hair, deepening of the voice, menstrual problems, 
clitoral enlargement, acne and heart disease.
    I am including reference on Anabolic steroids for the committees' 
information that outline the health hazards. In addition, I ran a 
Medline of the Adverse Effects of Anabolic Steroids following the 
notice of the hearing. There were more than 50 references in this 
initial review.
    I would like to thank this Committee for its time and its interest 
in this important public health issue and for inviting me to share my 
thoughts on the dangers posed to American athletes and non-athletes by 
the use of steroids.

    Mr. Stearns. I thank the gentleman. Mr. Birch.

                   STATEMENT OF ADOLPHO BIRCH

    Mr. Birch. Thank you. My name is Adolpho Birch, and since 
1997, I have acted as labor relations counsel for the NFL. My 
responsibilities include the negotiation and administration of 
our player discipline policies, which would certainly include 
our policy on anabolic steroids and related substances.
    I would like to thank you for the opportunity to share our 
thoughts and concerns on, perhaps, what is the most important 
issue in the sports business today. I would like to start by 
really developing the NFL's policy, and how we got to where we 
are.
    Primarily, the National Football League, and the NFL 
Players Association have been committed to ensuring that our 
sport is not tarnished by steroids. We are guided by three 
pillars and three principles that we think are most important 
in this area.
    First, we think that steroids threaten the fairness and 
integrity of the athletic competition on our field. They can 
distort results of games. They can distort League standings. 
Moreover, the use of certain substances by players without 
negative consequences leads other players to believe that they 
have to take them as well in order to remain competitive, on 
their team or in the League. This arises not only with respect 
to steroids, but with ephedrine and other stimulant substances, 
which should be considered performance-enhancing for reasons 
beyond strength or beyond endurance.
    Second, we have serious concerns about the health effects 
of steroids and other performance-enhancing substances. We have 
talked at length, I think, some of the panelists, about those 
effects, but we do consider them to be important, and we do 
protect the health and safety of our players as a primary 
thought.
    Third, we take our role in educating and providing guidance 
to high school athletes and young athletes in particular. When 
these young athletes see professional players who they admire 
or even idolize using performance-enhancing substances, their 
desire to use them increases dramatically. When you combine 
that desire with a still-developing judgment and decisionmaking 
skills, these athletes face even higher risks than a 
professional athlete would. As role models, our players must be 
concerned with those consequences.
    Using those, that pillar, and those foundations, we--in 
1989, we became the first U.S. professional league to implement 
a program of testing, discipline, and education. The components 
of our policy, and what we feel are the bases of an effective 
policy, are that we have unannounced, random, and annual 
testing of all players, both in and out of season. We have a 
banned list of over 70 prohibited substances, which includes 
steroids, precursors, growth hormones, stimulants, and all of 
which is frequently revised and updated based on scientific 
developments, and based on things that occur within and outside 
of the NFL.
    We have the use of WADA-certified testing laboratories and 
internationally respected and known scientific and medical 
advisors. We have a commitment to scientific research, through 
which we have funded a number of studies that have been 
effective in providing new techniques and new testing. We have 
a mandatory 4 game suspension upon first violation, based upon 
a strict liability standard, meaning the player is responsible 
for what goes into his body. There are no excuses, and there 
are no second chances.
    The adherence to those provisions has resulted in our 
policy generally being considered to be the most effective in 
professional sports. Notwithstanding, we feel one of the key 
things that we need to do is educate our players and educate 
the public about the health risks associated with steroid use. 
Indeed, the most rigorous testing and discipline cannot be 
effective in the absence of substantive education on the risks 
and dangers. In that regard, we have undertaken a number of 
initiatives.
    We have established a dedicated toll-free hotline, where 
information from scientific professionals and medical 
professionals can be obtained regarding issues of dietary 
supplements and/or steroids. They certainly would include 
information concerning the hazards and risks of those types of 
substances. We have funded a number of studies that have helped 
us and other organizations to identify better techniques.
    We work with our Youth Football department and with USA 
Football to develop youth-oriented materials that could help 
us, and help kids, in determining and deterring their use at 
that level. We started a label certification program, which is 
an effort to provide additional review and testing of dietary 
supplements to ensure that they are free of banned substances, 
and to ensure that they contain what they say they contain.
    We also, and most recently, have announced a partnership 
with the U.S. Anti-Doping Agency and the Center for Human 
Technology, to establish the Sports Medicine Research and 
Testing Laboratory, which we expect to devote a significant 
portion of its activities to scientific research.
    Overall, we would like to reiterate that we have a 
commitment, along with our Players Association, to maintaining 
the strongest and most comprehensive policy possible. We owe it 
to our players. We owe it to our fans who support our game, and 
most importantly, we owe it to the young athletes who take 
guidance from the dedication and accomplishments of the players 
who suit up and play every Sunday.
    Again, we would like to thank you for the invitation, and 
we will be happy to answer any questions that you would have. 
Thank you.
    [The prepared statement of Adolpho Birch follows:]

  Prepared Statement Adolpho Birch, Labor Relations Counsel, National 
                            Football League

    My name is Adolpho Birch and since 1997 I have acted as Labor 
Relations Counsel for the National Football League. On behalf of the 
NFL, I would like to thank the Committee for inviting us to participate 
in this hearing. We sincerely appreciate the opportunity to share our 
thoughts and concerns on perhaps the most important issue facing the 
sports community today.

                DEVELOPMENT OF THE NFL'S STEROID POLICY

    The National Football League and NFL Players Association have long 
been committed to ensuring that our sport is not tarnished by the 
influence of steroids and other performance-enhancing substances. We 
are guided in this respect by three principles:

 First, these substances threaten the fairness and integrity of the 
        athletic competition on the playing field and could potentially 
        distort the results of game and League standings. Moreover, the 
        use of certain substances by some players without negative 
        consequence might lead other players to believe that they must 
        use them as well in order to remain competitive. This concern 
        arises not only with respect to steroids, but also with respect 
        to ephedrine and other stimulants, which some players believe 
        will provide a boost or ``edge'' in competition.
 Second, the League has serious concerns about the adverse health 
        effects of these substances on our players. There is a growing 
        body of medical literature linking their use to a number of 
        physiological, psychological, orthopedic, reproductive and 
        other serious health problems.
 Third, the NFL takes very seriously its role in educating and 
        providing guidance to high school athletes and youth generally. 
        When young athletes see the professional players whom they 
        admire and even idolize using performance-enhancing substances, 
        their desire to use such products increases dramatically. When 
        that desire is combined with adolescent judgment and decision-
        making skills, young athletes face even higher risks than 
        professional athletes. As role models, NFL players must be 
        concerned with such unintended consequences.

                      KEY PROVISIONS OF THE POLICY

    Following these principles, in 1989 the NFL became the first U.S. 
professional league to implement a comprehensive program of steroid 
testing, discipline and education. The key components of the policy 
are:

 Unannounced annual and random testing of all players both in and out 
        of season;
 A list of more than 70 prohibited substances--including anabolic 
        steroids, steroid precursors, growth hormones and stimulants--
        which is frequently revised and updated based on scientific 
        developments both within and outside of the NFL;
 The use of WADA-certified testing laboratories and expert scientific 
        and medical advisors;
 A commitment to scientific research by the NFL and NFL Players 
        Association, including the establishment of a new research and 
        testing laboratory;
 Mandatory 4-game suspension (25% of the regular season) without pay 
        upon first violation; and
 Strict liability for players who test positive--a violation will not 
        be excused because a player was unaware that a product 
        contained a banned substance.
    The consistent adherence to these provisions and to our guiding 
principles has resulted in the NFL's policy being considered the most 
effective in professional sports.

                 EDUCATIONAL EFFORTS/HEALTH AND SAFETY

    As discussed, one of the primary tenets of our policy is the 
protection of the health and safety of our players. In our view, that 
is best accomplished through education. Indeed, the most rigorous 
testing and discipline cannot be effective in the absence of 
substantive education on the risks and dangers of steroids. In that 
regard, we have undertaken a number of initiatives:

 We have established a dedicated toll-free hotline that players and 
        Clubs can call to receive confidential, objective information 
        on dietary supplements and steroids, including the 
        physiological and psychological risks and hazards associated 
        with their use;
 Since 1989, we have funded a number of research studies looking at a 
        variety of issues related to steroids and other performance-
        enhancing substances. Those studies have assisted in educating 
        the League and other organizations on potential areas of 
        concern, and in identifying better techniques for testing and 
        detection;
 We continue to work with our Youth Football department and USA 
        Football to develop youth-oriented materials and programs 
        stressing the dangers of steroids and the importance of healthy 
        nutrition rather than the use of supplements;
 At the start of the 2004 season, we launched a Dietary Supplement 
        Label Certification program, which provides a mechanism for 
        additional review and testing of dietary supplements to ensure 
        that they are free of banned substances and that they contain 
        exactly what is listed on the label; and
 In 2004, we announced a partnership with the United States Anti-
        Doping Agency and the University of Utah's Center for Human 
        Toxicology to establish the Sports Medicine Research and 
        Testing Laboratory, which will devote a significant portion of 
        its activities to scientific research in the field.
    Concluding, the NFL would like to reiterate our commitment, along 
with that of the NFL Players Association, to maintaining the strongest 
and most comprehensive policy possible. We feel that we owe it to our 
players, the fans who support our game and, most important, the young 
athletes who take inspiration and guidance from the dedication and 
accomplishments of those who suit up and compete every Sunday on a fair 
and level NFL playing field.

[GRAPHIC] [TIFF OMITTED] T9915.001

[GRAPHIC] [TIFF OMITTED] T9915.002

[GRAPHIC] [TIFF OMITTED] T9915.003

[GRAPHIC] [TIFF OMITTED] T9915.004

[GRAPHIC] [TIFF OMITTED] T9915.005

[GRAPHIC] [TIFF OMITTED] T9915.006

[GRAPHIC] [TIFF OMITTED] T9915.007

[GRAPHIC] [TIFF OMITTED] T9915.008

[GRAPHIC] [TIFF OMITTED] T9915.009

[GRAPHIC] [TIFF OMITTED] T9915.010

[GRAPHIC] [TIFF OMITTED] T9915.011

[GRAPHIC] [TIFF OMITTED] T9915.012

[GRAPHIC] [TIFF OMITTED] T9915.013

[GRAPHIC] [TIFF OMITTED] T9915.014

[GRAPHIC] [TIFF OMITTED] T9915.015

[GRAPHIC] [TIFF OMITTED] T9915.016

[GRAPHIC] [TIFF OMITTED] T9915.017

[GRAPHIC] [TIFF OMITTED] T9915.018

[GRAPHIC] [TIFF OMITTED] T9915.019

[GRAPHIC] [TIFF OMITTED] T9915.020

[GRAPHIC] [TIFF OMITTED] T9915.021

[GRAPHIC] [TIFF OMITTED] T9915.022

[GRAPHIC] [TIFF OMITTED] T9915.023

[GRAPHIC] [TIFF OMITTED] T9915.024


    Mr. Stearns. And I thank you. Mr. Coonelly.

                STATEMENT OF FRANCIS X. COONELLY

    Mr. Coonelly. Mr. Chairman, members of the subcommittees. I 
am pleased to appear before you today on behalf of Major League 
Baseball. Like you, Major League Baseball is deeply concerned 
about the use of performance-enhancing substances by athletes, 
particularly young athletes.
    As many of the committee members indicated today in their 
opening remarks, the research tells us that the potential long-
term effects associated with steroid use are particularly 
dangerous with the young athlete. We agree with you that the 
message must go out here today, loud and clear, that steroid 
use is not a shortcut to getting to Major League Baseball, or 
any other professional sport. In fact, that steroid use by 
young athletes will hurt, not help your chances of becoming a 
major league player. We understand that our players are role 
models for children. I am pleased to report to you that we are 
addressing this very important and critical issue in 
professional sports in 3 distinct ways.
    First, Major League Baseball has made tremendous progress 
in its testing programs, both at the major league level, and at 
the minor league level. The goal of each of these programs is 
zero tolerance, a word that has been used by both committee 
members and panelists here today. Second, appreciating their 
position as role models. Our players have been out in the 
forefront on this. Unfortunately, certain misguided former 
players have gotten most of the press, but our current players 
today have come out forcefully against drug use, and 
particularly steroid use by young athletes. Third, our office 
is working closely with our friends at the Partnership for a 
Drug-Free America to educate American youth on the dangers of 
steroid use. I will describe each of these efforts for you 
today.
    The most important and most influential thing that baseball 
can do, Major League Baseball can do for the youth of America, 
is to tell them that baseball does not tolerate steroid use, at 
the minor league level, and at the major league level. And 
therefore, using steroids as a young person is not an 
effective, and will not be an effective stepping stone to the 
major leagues.
    We have just completed an unprecedented agreement with the 
Players Association that we believe will do just that. Indeed, 
the steroid policies that have been negotiated with the Players 
Association, and unilaterally implemented at the minor league 
levels, are well on their way to eradicating steroid use 
completely from Major League Baseball.
    In 2001, Commissioner Selig promulgated the first ever 
comprehensive drug policy for minor league players. In the 
first year of that testing, 11 percent of minor league players 
tested positive. This was alarming to us, as it should have 
been. In each subsequent year, however, as a result of 
educational programs that have been instituted at the minor 
league level, and as a result of the deterrent of drug testing 
on a random, unannounced basis, that rate has declined. It was 
4.8 percent in 2002, 4 percent in 2003, and less than 2 percent 
this last year.
    As we embark on 2005, baseball has committed even more 
resources to this effort. In fact, as we sit here today, we 
have an educational program going on at the minor league level, 
in the spring training camps today, as a result of expert 
testimony and expert witnesses that have put together a really 
rather remarkable videotape that is being shown and being in 
every camp today.
    Similar progress has been made at the major league level. 
In 2002, Major League Baseball reached a new agreement with the 
Players Association, which for the first time, provided for the 
random testing of major league players for steroids. Under that 
agreement, anonymous prevalence testing was conducted in 2003. 
The positive rate for performance-enhancing substances in 2003 
was in the 5 to 7 percent range. That was alarming to us as 
well, and it triggered a more rigorous testing program under 
our collective bargaining agreement. This more effective, 
rigorous program resulted in the decline of positive test 
results in the major leagues to just in the range of 1 to 2 
percent in 2004. In other words, the program that has been 
criticized in many circles has actually resulted in the 
reduction of steroid use in Major League Baseball.
    It wasn't enough, however. As a result, we went to the 
Players Association at the Commissioner Selig's insistence, and 
negotiated an unprecedented midterm modification to our 
collective bargaining agreement to strengthen the drug testing 
program at the major league level.
    This new policy addresses all of the major areas that were 
brought to us by Congress in hearings last year. Let me 
describe it for you. First, the new policy broadens the list of 
banned substances in Major League Baseball. The banned list now 
includes not only all steroids, but the steroid precursors, 
ephedra, human growth hormone, diuretics, and other masking 
agents. Congress' passage of the Anabolic Steroid Control Act 
of 2004 has helped in this area. As a result of the passage of 
that legislation, all of the precursors have become illegal in 
Major League Baseball, and are now tested for.
    Second, the new policy greatly increases the frequency of 
testing at the major league level. Under the prior policy, 
players were tested once a year. When--once they were tested, 
they knew they couldn't be tested again. Now, players are 
tested multiple times. Each is also tested once a year, but 
then is subject to random, unannounced testing throughout the 
season and in the off-season. Under the new policy, no matter 
how many times a player has been tested, that player will 
remain subject to additional testing. As I indicated, the 
policy now is broadened to include off-season testing. This 
off-season testing will ensure that misguided players can't use 
the off-season to build their bodies through illegal steroid 
use.
    Baseball's new policy also provides for greater penalties. 
There are no free passes under this policy. First time 
offenders will be suspended, without pay, for 10 days, and will 
be publicly identified as violators of the steroid policy. In 
other words, they will be publicly identified as cheaters. It 
was mentioned earlier in today, by one of the members, that 
Sammy Sosa is viewed by some as a cheater because he used a 
corked bat. Those who are identified publicly as steroid users 
will be viewed the same way. The penalties for subsequent 
offenses increase to 30 days, 60 days, and then 1 year.
    Major League Baseball has recognized that our players are 
role models to the youth of America. Players have come out, as 
I said at my opening, and have been forceful that young 
individuals cannot and should not use steroids to get to the 
major leagues. I will give you just a few examples.
    Mr. Stearns. We will probably just need you to sum up.
    Mr. Coonelly. Okay.
    Mr. Stearns. You are 2 minutes over.
    Mr. Coonelly. Yes, sir. To sum up, Major League Baseball 
has taken aggressive steps to eradicate the use of this illegal 
substance in the sport. The programs are working. As I sit here 
today, and as the members also said, I listened to Mr. Hooton. 
I was also deeply touched by his remarks. As a father of 4, 
myself, 3 of whom are in high school today, one is on his way, 
I was deeply touched by that tragedy. And I am personally 
dedicated, and Major League Baseball, to make sure that 
baseball is the leader in this area. Thank you very much for 
your time.
    [The prepared statement of Francis X. Coonelly follows:]

 Prepared Statement of Francis X. Coonelly, Senior Vice President and 
             General Counsel--Labor, Major League Baseball

    Messrs. Chairmen, Ranking Members and Members of the Subcommittees, 
I am pleased to appear before your Subcommittees today on behalf of 
Major League Baseball as you address the important issue of anabolic 
steroid use among our nation's young athletes. Like you, Major League 
Baseball is deeply concerned about the use of performance enhancing 
substances by athletes in general, and young athletes in particular. As 
you are well aware, the potential long-term health risks associated 
with steroid use are greatest for young users. We agree with you that 
the message must go out loud and clear to young people that anabolic 
steroids are extremely harmful to your health and will hurt, not help, 
your chances of becoming a Major League Baseball player. Major League 
Baseball understands that our players are role models for young 
athletes and what we do and say does matter. I am pleased to report to 
you that we are addressing this issue in three distinct ways.
    First, Major League Baseball has made tremendous progress in 
dealing with the use of performance enhancing substances by its players 
by instituting a zero tolerance policy in the minor leagues and by 
negotiating a new and much stronger steroid policy at the Major League 
level with the Major League Baseball Players Association (``MLBPA''). 
The goal of each of these programs is zero tolerance for steroid use. 
Second, appreciating their position as role models, many of our biggest 
stars have spoken out about the dangers of steroid use, particularly 
for young people. Third, our office is currently working closely with 
the Partnership for a Drug-Free America to educate America's youth on 
the dangers of steroid use. This morning, I will describe for you our 
efforts in each of these areas.
    The most influential step that Major League Baseball can take to 
dissuade young people from using steroids is to demonstrate to them 
that steroid use is not tolerated in professional baseball and thus 
cannot be used as an effective stepping stone to the Major Leagues. We 
just completed an agreement with the MLBPA that should do just that. 
Indeed, the steroid policies that we have negotiated or instituted 
unilaterally now have no tolerance for steroid users and are 
effectively eliminating steroids from professional baseball.
    In 2001, Commissioner Selig promulgated the first-ever 
comprehensive drug policy for minor league baseball. In the first year 
of testing under that policy, the positive rate in the minor leagues 
was approximately eleven percent. In each subsequent year, that 
positive rate has decreased dramatically. The rate was 4.8 percent in 
2002, 4 percent in 2003 and just 1.7 percent in 2004. As we embark on 
the 2005 season, Baseball has committed even more resources to the 
eradication of steroid use in the minor leagues.
    Similar progress has been made at the Major League level. In 2002, 
Major League Baseball reached a new agreement with the MLBPA which, for 
the first time, provided for the testing of Major League players for 
steroids. Under the agreement, an anonymous prevalence study was 
conducted in 2003. The positive rate for performance enhancing 
substances in the 2003 testing was in the range of 5-7 percent. This 
disturbing rate triggered a more rigorous disciplinary testing program 
in 2004. This more effective program resulted in a decline of the 
positive rate to just 1-2 percent during the 2004 season. In other 
words, the 2002 agreement that had been roundly criticized in some 
circles actually resulted in a significant reduction in steroid use.
    Despite this improvement, Major League Baseball has continued to 
move ahead on this challenging issue. Last December, at the urging of 
Commissioner Selig, the MLBPA took the unprecedented step of reopening 
an existing collective bargaining agreement to allow for the 
negotiation of an even stronger, new policy on performance enhancing 
substances. This new policy addresses all of the major areas of concern 
raised in Congressional hearings conducted in 2004.
    First, the new policy broadens the list of banned substances in 
Baseball. The banned list now includes not only all steroids, but also 
steroid precursors, ephedra, human growth hormone and diuretics and 
other masking agents. Congress' passage of the Anabolic Steroid Control 
Act of 2004 was a key development in allowing Baseball to move closer 
to accepted international standards in this area.
    Second, the new policy greatly increases the frequency of testing 
of Major League players. Under our prior policy, each player was 
subject to just one steroid test per season on an unannounced, 
randomly-selected date. This type of testing will continue in 2005. 
Under the old testing program, however, once the player had completed 
his one test for the year, the threat of discipline for the use of 
steroids was gone until the next season. To address this shortcoming, 
Major League Baseball added an on-going program of random testing for 
2005 and beyond, under which players can be tested multiple times in a 
given year. Under the new policy, no matter how many times a player is 
tested in a given year, he will remain subject to additional, random 
tests.
    Third, the new policy, for the first time, introduces off-season or 
``out-of-competition'' testing. In the traditional employment context, 
unions have resisted employer efforts to intrude into off-duty hours 
and vacation time. This traditional union resistance has carried over 
into the context of professional sports. To its credit, however, the 
MLBPA has agreed to compromise the privacy concerns of its members and 
allow off-season testing. This off-season testing, which will literally 
be carried out around the globe, will insure that misguided players 
cannot use the winter months to enhance their performance through 
illegal substances.
    Baseball's new policy also provides for increased penalties. There 
are no free passes under the new policy. First-time offenders will be 
suspended, without pay, for ten days and will be publicly identified as 
having violated the drug policy. A ten-day suspension will cost the 
average Major League player approximately $140,000 in lost salary. More 
important in terms of deterrence, however, is the fact that no player 
wants to be identified to his peers and the public as a cheater. 
Penalties for subsequent offenses increase to 30 days, 60 days and one 
year.
    Major League Baseball has always recognized the influence that our 
great players can and do have on the youth of America. Our players 
recognize this as well. As such, both owners and players have been 
deeply concerned that recent revelations and allegations of steroid use 
have sent a terrible message to young people. With our encouragement, 
some of our great players have begun to speak out forcefully on this 
topic, often times aiming their strong anti-drug message directly to 
young players aspiring to become Major Leaguers. For instance, Reds' 
first-baseman Sean Casey recently applauded the new Major League policy 
and noted that ``it sends a strong message that you don't need to take 
steroids to be a Major League player.'' Likewise, Mets' catcher Mike 
Piazza was recently quoted as saying that the stronger policy was 
important to him because it ``put this issue to the forefront and 
[made] a statement to all kids who look up to baseball that this is 
something we don't endorse.'' Finally, Red Sox' centerfielder Johnny 
Damon said that the tough new steroid program was ``great for 
baseball,'' because performance enhancing substances ``need[] to be out 
of this game'' and ``kept away from kids.''
    On a more formal basis, our office has been working with our 
friends at the Partnership for a Drug-Free America over the past year 
to determine the appropriate timing and content of public service 
announcements that will discourage young people from using steroids. In 
the coming months, you will see the product of these efforts on 
television and through other educational material and we can only hope 
that these announcements will contribute to better decision-making by 
young athletes.
    We believe that, with the steps that I have outlined here today, 
Major League Baseball is sending a very strong message to young people 
that performance enhancing substances have no place in professional or 
amateur athletics and will not be tolerated in Major League Baseball, 
by those playing the game today or by those who aspire to play it one 
day.
    I want to thank the Subcommittees for the opportunity to appear 
before you today.

    Mr. Stearns. And Ms. Wilfert.
    Ms. Wilfert. Thank you, Chairman Stearns.
    Mr. Stearns. Just turn your mike on, if you would.

                  STATEMENT OF MARY E. WILFERT

    Ms. Wilfert. Thank you, Chairman Stearns, Ranking Member 
Schakowsky, and other distinguished members of the 
subcommittees. On behalf of the National Collegiate Athletic 
Association, I am Mary Wilfert, and I appreciate the 
opportunity to appear today, and to provide you a full 
accounting of the Association's drug education and drug testing 
programs.
    For the last 5 years, I have been responsible for managing 
the NCAA's efforts in the areas of drug education and drug 
testing, and am also the NCAA liaison to the Committee on 
Competitive Safeguards and Medical Aspects of Sports, and the 
Drug-Education and Drug-Testing Subcommittee.
    The NCAA is an association of 1,200 member institutions, 
representing over 360,000 student athletes. The NCAA's 
Constitution, under the Principle of Student-Athlete Welfare, 
states that intercollegiate athletics programs ``shall be 
conducted in a manner designed to protect and enhance the 
physical and educational welfare of student-athletes.'' And in 
addition, NCAA legislation requires a shared responsibility 
between the NCAA national office and NCAA member institutions, 
again, those over 1,200 member institutions that are part of 
the Association.
    The Committee on Competitive Safeguards and Medical Aspects 
of Sports is comprised of experts in sports medicine practice 
and research, sports law, and athletic administration, many of 
whom have been published in their respective fields. These 
dedicated professionals assist the NCAA in the development of 
drug education and testing policies, and provide medical and 
policy review and adjudication for any student athlete who 
wishes to appeal a positive drug test.
    In order to promote student athlete well-being and deter 
drug use, the NCAA has developed a two-pronged approach, 
education and detection. The NCAA provides over $500,000 in 
funding assistance to its member institutions for educational 
programs, and approximately $4 million annually for its 
national drug testing program. In addition to NCAA resources, 
our member institutions provide substantial resources on campus 
to complement these efforts. Our membership continues to play a 
vital role in shaping our policies, and enhances our efforts 
through their own education and testing programs.
    In my written testimony, I set out several resources that 
we provide to assist our member institutions in education. One 
resource I would like to highlight is the Dietary Supplement 
Resource Exchange Center, which provides student athletes and 
athletic staff a 24 hour toll-free number and website to get 
reliable information about NCAA banned substances, medications, 
and supplements, and all inquiries are treated in a 
confidential manner.
    The NCAA sponsors two drug testing programs, national drug 
testing programs. During NCAA championships, that program was 
established in 1986, and randomly throughout the academic year, 
that program was established in 1990. The NCAA publishes a list 
of banned drug classes that is even more comprehensive that 
what is required by law. All NCAA student athletes in all 
sports are subject to testing, and may be tested during NCAA 
championships or during the academic year. NCAA testing is 
conducted under a strict, published protocol, using one of the 
best labs in the U.S. for sports drug testing. The UCLA Olympic 
Analytical Lab identified the latest designer steroid to hit 
the market, THG, and developed a testing protocol that now 
benefits the NCAA and others in providing keener detection of 
hard to identify anabolic steroids.
    Sanctions from a positive drug test are automatic, and are 
defined for the student athlete in the annual signing of the 
drug testing consent form. Athletes who test positive are 
withheld from competition in all sports for at least 1 year, 
and lose one of their 4 years of collegiate eligibility. 
Athletes who test positive a second time for steroids lose all 
remaining collegiate eligibility, and are permanently banned 
from intercollegiate competition.
    The NCAA was supportive of legislative efforts to remove 
steroid precursors from the dietary supplement market through 
the Anabolic Steroid Control Act of 2004, and joins the authors 
and partners in celebrating this victory. The next important 
steps involve expanding resources for research in the area of 
detecting new performance-enhancing substances as they emerge, 
and developing effective prevention strategies. Again, the two-
pronged approach, drug testing and drug education.
    On behalf of the NCAA, I would like to thank the 
subcommittees for the opportunity to speak before you today, 
and express the NCAA's willingness to assist in moving forward 
in this monumental and critical task to eliminate drugs from 
sports.
    [The prepared statement of Mary E. Wilfert follows:]

Prepared Statement of Mary E. Wilfert, Chief Liaison, NCAA Committee on 
          Competitive Safeguards and Medical Aspects of Sports

    Chairman Stearns, Chairman Deal, Ranking Member Schakowsky, Ranking 
Member Brown and other distinguished Members of the Subcommittees, on 
behalf of the National Collegiate Athletic Association, I am Mary 
Wilfert and I appreciate the opportunity to appear today and inform you 
of the Association's drug education and drug-testing programs with 
Association member institutions. For the last five years, I have been 
responsible for managing the NCAA's efforts in the area of drug 
education and our drug testing program and am also the NCAA liaison to 
the Committee on Competitive Safeguards and Medical Aspects of Sports 
(CSMAS) and the Drug-Education and Drug-Testing Subcommittee of CSMAS. 
This NCAA Committee provides expertise and guidance to the NCAA on 
health and safety issues, reviews the NCAA drug-testing and education 
programs, and adjudicates positive drug-test appeals. I have an 
extensive professional background in the health services field, 
focusing on programs that enhance wellness and lifelong learning.
    The NCAA is a private association of approximately 1,200 four-year 
institutions of higher education and athletics conferences. There are 
more than 360,000 student-athletes competing at these NCAA member 
schools. According to the NCAA Constitution, under the Principle of 
Student-Athlete Welfare, intercollegiate athletics programs ``shall be 
conducted in a manner designed to protect and enhance the physical and 
educational welfare of student-athletes.'' The NCAA manual states that 
it is the responsibility of each member institution to protect the 
health and safety of and provide a safe environment for each of its 
participating student-athletes.In order to promote student-athlete 
well-being and deter drug use, the NCAA has developed a two-prong 
approach--education and detection. Both are critical to the overall 
effort to address concerns with the use of drugs in intercollegiate 
athletics. The NCAA established its national drug-education and testing 
programs in the 1980's and 1990's. The NCAA drug-testing program has 
earned a reputation as a model of quality and professionalism. The NCAA 
spends close to $4 million annually for our national drug testing 
programs. The national NCAA drug-education and testing programs are 
enhanced and complemented by the additional efforts of NCAA member 
institutions. The majority of members have developed institutional 
policies to conduct drug-education and drug testing programs of their 
athletes, as measured through the biennial Drug-Education and Testing 
survey of the membership. This partnership provides a strong anti-
doping message throughout intercollegiate athletics programs.

          COMPETITIVE SAFEGUARDS AND MEDICAL ASPECTS OF SPORTS

    The NCAA Association-Wide Committee on Competitive Safeguards and 
Medical Aspects of Sports, CSMAS, provides expertise and guidance to 
the NCAA on issues pertaining to student-athlete health and safety. 
CSMAS is comprised of experts in sports medicine practice and research, 
sports law, and athletic administration. Members of this committee have 
been published in their respective fields, and are looked to as 
important resources for sports science information. These dedicated 
professionals contribute their time and expertise to assist the NCAA in 
the development of drug-education and testing policies, and provide 
medical and policy review and adjudication for any student-athlete who 
wishes to appeal a positive drug test. This committee annually reviews 
the NCAA drug-testing program protocol and list of banned drugs.

                             DRUG EDUCATION

    Since 1985, the NCAA has conducted a national study of the drug use 
habits of college athletes. The study is replicated every four years 
and five replications have been conducted since the original study. The 
study is designed to obtain data on the substances and use patterns of 
college athletes through the use of anonymous self-report 
questionnaires. This data assists us in developing policy and practice 
to deter drug use by collegiate athletes. More than 21,000 student-
athletes completed the survey in the 2001 study. The results of the 
2005 study will be available later this summer. Copies of the last two 
published studies are available at www.ncaa.org.
    To support and promote drug education of student-athletes, NCAA 
Bylaw requires that each institution's Director of Athletics or the 
director's designee educate student-athletes about NCAA banned 
substances and the products that may contain them. Student-athletes are 
required to sign a student-athlete statement and a drug-testing consent 
form that alerts them to the NCAA drug-testing policies and the list of 
banned substances, and requires their agreement to abide by these 
regulations and be tested when selected either during the academic year 
or during any championship play. The NCAA publishes guidelines for 
institutional drug-education programs, and annually provides more than 
a half million dollars in resources to its member institutions to help 
them conduct campus drug-education and prevention efforts. Some of the 
other resources provided to assist our member institutions to enhance 
student-athlete health and safety and deter drug use are:

 Health and safety specialists. The NCAA national office employs staff 
        members who oversee the NCAA's health and safety initiatives.
 The NCAA Sports Medicine Handbook. A set of sports medicine 
        guidelines compiled by leaders in the field of sports science 
        that includes the NCAA's recommendations on educating athletes 
        about drugs and supplements.
 Educational seminars on developing student-athlete drug and 
        supplement prevention programs within the university.
 Educational information via bookmarks, posters, and Web-based 
        resources.
 Educational conferences for coaches and administrators on deterring 
        supplement use by athletes.
 A national speakers bureau of experts on drug use in sport.
 The Dietary Supplement Resource Exchange Center (REC). All NCAA 
        athletes and staff may use this service funded by the NCAA and 
        housed at Drug Free Sport. The REC provides a toll-free number 
        and Web site for athletes to get reliable information about 
        NCAA banned substances, medications and supplements. Inquiries 
        are treated in a confidential manner.
 Articles and alerts through its biweekly publication, The NCAA News, 
        which has featured a number of articles on drug use in sports.
 A special advisory memorandum sent annually to the senior athletics 
        administrators at every NCAA institution to alert them to the 
        potential risks of banned drugs in dietary supplements.

                              DRUG TESTING

    The NCAA sponsors two national drug-testing programs for college 
athletes--during NCAA championships and randomly throughout the 
academic year. The NCAA believes that drug testing is an integral part 
of drug-abuse prevention. NCAA drug testing was established to protect 
student-athlete health and safety and to ensure that athletes are not 
using performance-enhancing drugs to gain a competitive advantage.
    The NCAA first introduced drug testing at its championships and 
postseason football bowl games in 1986. Since 1986, any NCAA athlete 
competing in these events is subject to NCAA drug testing, and 
approximately 1,500 athletes are tested each year through championship 
drug testing. NCAA testing is conducted under a strict, published 
protocol utilizing one of the best laboratories in the U.S. for sports 
drug testing, the UCLA Olympic Analytical Lab, certified by the 
International Olympic Committee. Not only tops in analysis, the UCLA 
lab is also the research lab that identified the latest designer 
steroid to hit the market, THG, and developed a testing protocol that 
now benefits the NCAA in providing keener detection of hard-to-identify 
anabolic steroids.
    As part of its drug-prevention efforts, the NCAA publishes a list 
of banned drug classes.
    This list goes further than those substances banned under federal 
law, and includes anabolic steroid precursor DHEA and the stimulant 
synephrine.
    To deter the use of training drugs such as anabolic steroids, the 
NCAA implemented a second drug-testing program in August 1990. Today as 
part of this program, more than 10,000 athletes, including incoming 
freshman and transfers, are tested by the NCAA on their campuses August 
through June. Athletes in all sports are subject to this testing, and 
may be tested at any time during the academic year. Sanctions for 
positive drug tests are automatic and defined for the student-athlete 
in the annual signing of the NCAA drug-testing consent form.

                               PENALTIES

    The NCAA and its member institutions have taken a strong stand to 
deter doping in sports and have established serious penalties for those 
who violate these policies. Athletes who test positive are withheld 
from competition in all sports for at least one year, and lose one of 
their four years of collegiate eligibility. Athletes who test positive 
a second time for steroids lose all remaining eligibility and are 
permanently banned from intercollegiate athletics competition.

                                RESULTS

    The NCAA has been active in the fight to deter steroid use for over 
30 years. Through collaborative educational efforts with sports 
medicine and athletics organizations, the NCAA has been a champion in 
deterring the use of these substances by young athletes. The 
establishment of drug testing, NCAA support for drug-testing research, 
the strengthening of NCAA and campus policies to deter drug use, and 
the combined educational efforts from the NCAA national office and 
campus athletics staff have had a positive impact on steroid use. Data 
from the NCAA substance use surveys note a marked decrease in the 
reported use of steroids following the institution of drug testing for 
that substance during the academic year. In the 1989 Study of the 
Substance Use Habits of College Student Athletes, 9.7% of NCAA Division 
I football student-athletes reported using anabolic steroids. In 1990, 
the NCAA began testing for anabolic steroids during the academic year 
in all Division I football programs. In the 1993 study, 5.0% of 
Division I football student-athletes reported using anabolic steroids, 
and subsequently, 2.2% reported steroid use in the 1997 study and 3.0% 
in the 2001 study.

                               NEXT STEPS

    The NCAA was vocal and supportive of legislative efforts to remove 
steroid precursors from the dietary supplement market through the 
Anabolic Steroid Control Act of 2004 and joins the authors and partners 
in celebrating this victory. But we understand there is much more to be 
done. We continue to review and enhance our drug testing protocol, and 
work to strengthen our relationships with drug prevention experts. We 
support our friends and colleagues in their efforts to address drug use 
at the high school and professional leagues, and offer our cooperation 
to those who share in our commitment to ensure safe, drug free sport. 
As we have for almost two decades, we will continue to meet on common 
ground with the professional leagues and our colleagues at the high 
school level, and to enlist the expertise of sports scientists to 
provide us guidance in our prevention and testing programs. The 
important next steps involve expanding resources for research in the 
area of detecting new performance enhancing substances as they emerge, 
and to identify and implement effective prevention strategies. As noted 
in the THG case, the importance of research to detect and test for new 
performance enhancing drugs cannot be overstated, and on behalf of all 
of us who administer athletics programs, we urge funding support for 
drug-testing research and implementation of programs that have been 
able to demonstrate a positive impact on youth decisions to enhance 
performance through healthy and fair strategies, by hard work, 
dedication and practicing healthy behaviors.
    On behalf of the NCAA, I would like to thank the subcommittees for 
the opportunity to speak before you today and express the NCAA's 
willingness to assist in moving forward in this monumental and critical 
task to eradicate drugs from sports.

    Mr. Stearns. Thank you. Mr. Coonelly, I am going to start 
with you, with the opening questions. Are there athletes, in 
your opinion, today, that are taking steroids in the Major 
League Baseball? Just yes or no. Just yes or no. Are there 
athletes today in Major League Baseball--not the minor, I am 
talking the Major League Baseball, are taking steroids, yes or 
no?
    Mr. Coonelly. The testing to date, sir, indicates that yes, 
a very small proportion.
    Mr. Stearns. Yes, they are taking them. Okay. Now, under 
the law, those caught with illegal possession of steroids 
without a prescription faced arrest and prosecution. That is 
the law. Dealers face a Federal felony charge and up to 5 years 
in prison. Once you detect an athlete that has this, 10 days is 
nothing. The athlete is against the Controlled Substance Act. 
Do you understand that? And so, shouldn't you find out how he 
got it, and shouldn't you go after the dealer, which is a 
felony, and shouldn't you have more than just 10 days 
suspension, because this fellow, he is getting something 
without a prescription, and that is against the law.
    Mr. Coonelly. Mr. Chairman, I disagree with you that 10 
days is nothing for a major league player. Ten days is 10 days 
of his career that he will never get----
    Mr. Stearns. Let us ask him--why don't you find out from 
him who is the distributor, how he got it, and go after them?
    Mr. Coonelly. Mr. Chairman, I would respectfully say to you 
that that is the prosecutor's job, and we do not prosecute 
felonies at Major League Baseball.
    Mr. Stearns. So you are not interested in who--how he got 
the drugs? That is no concern of Major League Baseball.
    Mr. Coonelly. Mr. Chairman, we are interested in removing 
drugs from our sport entirely.
    Mr. Stearns. Are you concerned with how he got it at all? 
Is Major League Baseball--if you find a person has tested 
positive, are you concerned at all how he got the drug?
    Mr. Coonelly. We are concerned, because we are concerned 
that that person may also be distributing to other major league 
and minor league players.
    Mr. Stearns. And what do you do to find the distributor?
    Mr. Coonelly. We will turn over all of the information that 
we have, or we can get, to the Federal prosecutor, the State 
prosecutors, who can prosecute those crimes.
    Mr. Stearns. And let me ask you, you give 10 days. What do 
you do in the minor leagues if that same, if some person is 
caught with possession without a prescription of steroids. What 
do you do in the minor leagues?
    Mr. Coonelly. The penalty for a first offense is 15 days in 
the minor leagues.
    Mr. Stearns. And what is the penalty the second?
    Mr. Coonelly. Same as the major league program, 30 days, 60 
days, 1 year.
    Mr. Stearns. Okay. And why is there a difference between 
the minor league and the major league, in terms of the penalty?
    Mr. Coonelly. The 5 day difference, Mr. Chairman, is the 
result of collective bargaining with the Major League Baseball 
Players Association. The minor league players are not 
unionized, and as a result, we unilaterally implemented that 
policy.
    Mr. Stearns. So because of the unions, you have a lesser 
penalty.
    Mr. Coonelly. It was a result of the negotiation with the 
Players Association, yes, sir.
    Mr. Stearns. Okay. Mr. Birch, the same question for you. In 
the NFL, are there athletes today in the NFL that are using 
steroids? Just yes or no.
    Mr. Birch. Yes.
    Mr. Stearns. Okay. And the penalty for someone who you find 
with steroids is what, again? What is the penalty?
    Mr. Birch. The penalty is a mandatory 4 game suspension 
without pay.
    Mr. Stearns. Which could be a month.
    Mr. Birch. Correct.
    Mr. Stearns. Okay. And so you have almost a 30 day penalty, 
and the Major League Baseball has a 10 day. Does that include, 
Mr. Coonelly, does that include weekends, so if a person was 
found on a Friday, that would include Saturday and Sunday, plus 
the next Saturday and Sunday, so he would only be out possibly 
5 working days?
    Mr. Coonelly. It does, Mr. Chairman, but we work 7 days a 
week.
    Mr. Stearns. Well, I know. Okay.
    Mr. Coonelly. We play every day.
    Mr. Stearns. That is a good point. That is a good point. 
NCAA. Are there drugs, athletes using steroids in the NCAA?
    Ms. Wilfert. Yes.
    Mr. Stearns. Yes or no. Yes.
    Ms. Wilfert. Yes.
    Mr. Stearns. Okay. So we have come, across the board, that 
all of these sports activities are using steroids. And we have 
been told in the second panel that you can't even get them by 
testing. So the question is for people like legislators, how do 
we even know that your testing is getting--is an accurate test, 
and we are extirpating, rooting out this problem? I mean, you 
talked quite a bit in your opening statement about these 
testing, but the feeling I have from the second panel is that 
the testing, you can drive a tank through the testing. And you 
heard that testimony, too. What do you think?
    Ms. Wilfert. I did, Mr. Chairman. I believe that our 
testing does identify steroid users. I know that we don't 
identify every steroid user, and as one of the panelists in the 
second panel identified, we would probably need to test every 
day, everybody, all the time to do that. But we do believe that 
the deterrent aspect of testing at the collegiate level, along 
with education, is effective in reducing steroid use.
    Mr. Stearns. Now, as I understand it, the Olympics, Ms. 
Wilfert, is much stricter than the NCAA. Isn't that correct?
    Ms. Wilfert. The first penalty for steroid use is a 2 year 
penalty.
    Mr. Stearns. Two years.
    Ms. Wilfert. Correct. Dr. Hale.
    Mr. Stearns. Dr. Hale, is that correct?
    Mr. Hale. That is correct.
    Mr. Stearns. Well, it seems to me if it is for Olympic 
athletes, it is 2 years, and it is only 10 days for baseball, 
it is a month, four games, for the NFL, and for NCAA, it is----
    Ms. Wilfert. One year of 4 years of eligibility.
    Mr. Stearns. So----
    Ms. Wilfert. So, it is 25 percent of their career.
    Mr. Stearns. The more money you make, there seems to be 
something tied here. The more money you make, the less the 
penalty. Dr. Hale, does that sound right?
    Mr. Hale. I--we believe very strongly that a 2 year banment 
from the sport is a very strong deterrent, because for most 
Olympic level athletes, that basically ends their career.
    Mr. Stearns. Well, in the NFL, Mr. Coonelly, if you take a 
month off, that is a huge part of the season. And it seems to 
me we have the Olympics, we have the NCAA, we have the NFL, and 
you folks have the lightest touch on the athletes. And I just 
think that there seems to need to be a more stronger 
enforcement by you. Do you test drugs in the off-season?
    Mr. Coonelly. Yes, Mr. Chairman.
    Mr. Stearns. And let us say, a Barry Bonds, do you go to 
his home, or how do you test him?
    Mr. Coonelly. We would go to a player's home, and test him 
at that point.
    Mr. Stearns. And how often, in the off-season, do you test 
a player like Barry Bonds?
    Mr. Coonelly. Well, any individual player might be tested 
or might not be tested. We have--the off-season testing was 
first instituted in this new program, so we will do it----
    Mr. Stearns. And that started when?
    Mr. Coonelly. [continuing] for the first time next year.
    Mr. Stearns. And when did that start?
    Mr. Coonelly. That will start next off-season, which is the 
first year----
    Mr. Stearns. Okay. So right now, you are not doing a 
rigorous testing in the off-season of any of these athletes.
    Mr. Coonelly. Well, we did not this past off-season, 
because that was part of the new program----
    Mr. Stearns. Okay. Okay.
    Mr. Coonelly. [continuing] that we just instituted.
    Mr. Stearns. But don't you--wouldn't you--wouldn't the 
American people understand that if the person takes the 
steroids all during the off-season, and then tailors off during 
the season, you really can't detect them, and the testing, we 
have shown, is not rigorous enough anyway. So really, your 
program is extremely weak, and----
    Mr. Coonelly. That is----
    Mr. Stearns. [continuing] it is now just starting to get 
some teeth in it, and the only reason you have got teeth on it 
is because of prodding, either from Congress, from the public, 
or from these exposes from children dying. I mean, it seems 
like you are very low, slow in showing full accountability 
here.
    Mr. Coonelly. Mr. Chairman, I would disagree with the last 
point, but I do agree that as a result of those things, we 
instituted a much stronger penalty, and we also instituted off-
season drug testing so that those types of things could not 
happen.
    Mr. Stearns. Okay. I submit that you are slow in solving 
the problem, and your enforcement is weak, and now, your 
testing is also weak, because you are just starting in the off-
season. So with that, my time has expired, and Ranking Member 
Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. First, I would 
like to say that you know, you quoted from the State of the 
Union Address, where the President referred to having to root 
out the use of steroids, and Mr. Shimkus referred to a program 
twice, referred to a program that it is in schools, Safe and 
Drug-Free Schools State grants. I just wanted to note that in 
the President's proposed budget, where last year, that program 
was funded to the extent of $437 million, it is slated to be 
completely eliminated and zero funded for 2006. So, those of us 
who are concerned about youth in particular, I think, ought to 
take a very close look at that particular program, or at the 
very least, at programs that address the use of steroids in our 
schools and our country.
    Mr. Coonelly, you know, Pete Rose was banned from baseball 
for gambling, and I understand that is a serious offense, but 
here we are. I want to get back to this 10 game issue, because 
I--you said you were moved by Mr. Hooton's testimony, and in 
his testimony, he points out that that does represent about 6 
percent of the games, and I understand to most Americans, 
$140,000 in lost salary is a lot of money, but unfortunately, 
or fortunately, to professional athletes, it is a drop in the 
bucket in many cases.
    And so, if we want to leave here, as you said, with a 
really strong signal that steroid use, there is no tolerance, 
again, justify it for me how what, for many athletes, amounts 
to a slap on the wrist sends that strong message.
    Mr. Coonelly. I would only disagree that it is a slap on 
the wrist because, as I indicated in my opening statement, the 
real deterrent here is that these individuals will be publicly 
outed as cheaters in the game.
    Ms. Schakowsky. You know, I want to say this about that. 
What does ``publicly outed'' mean? You know, you get your 
multimillion dollar salary, and your--and in many circles, 
having kind of thumbed your nose at the system, unfortunately, 
in our culture, very often is--that is pretty cool, and so, 
what does publicly outed, what is the consequence of that?
    Mr. Coonelly. The consequence, particularly in Major League 
Baseball, is we are known by our history. These players are 
known by where they stand in history, and as, I believe it was 
Congressman Upton indicated in his statement, as I indicated in 
mine, in many circles, Sammy Sosa, who otherwise has a Hall of 
Fame career, is now known as a cheater because he used a corked 
bat on, he says, one occasion. Others think that he wasn't 
telling the truth when he said other occasions.
    Those in Major League Baseball who are publicly identified 
as being a cheater, they will be treated and viewed differently 
by not only their peers, but also, by historians of the game, 
and by their fans. And it means a lot more than a slap on the 
wrist to a major league player to be identified not as a great 
home run hitter, future Hall of Famer, but as a cheater.
    Ms. Schakowsky. You know, I think that is such an 
incredibly subjective kind of punishment, and if we are going 
to be relying on reputations and history writers, et cetera, 
rather than concrete sanctions, as a way, we are in deep 
trouble here, I think. What one may think is a horrible rebuke, 
and something that will change behavior, to another person is 
just, you know, nothing.
    Anyway, the difference between, you said that the 
difference between major league and minor league is just a few 
days. If you think it is so important, and you have complete 
control over those minor league players, why is it that even 
there, that they penalties are as light as they are? I mean, if 
you mean zero tolerance, if you really mean zero tolerance, in 
a setting where you control, and which is often the entry point 
for young athletes, why don't you do more there?
    Mr. Coonelly. Because again, because we think that the 
greatest deterrent for a minor league player as well, is to be 
publicly identified as somebody who is cheating on steroids. 
But the minor league----
    Ms. Schakowsky. Wait. I want to underline that. You are 
going on record now as saying that the greatest deterrent to 
steroid use is for the public to know that someone is using 
steroids. That is the greatest deterrent.
    Mr. Coonelly. Yes, Ms. Congresswoman. I am, and I think 
that as some others in the panel have indicated, the financial 
sanctions don't work in this area. They are meaningful, and 
they are meaningful to a minor league player, but that is not 
what is going to drive the professionals----
    Ms. Schakowsky. What about legal sanctions, as my chairman 
has indicated. What about those? People who have broken the 
law.
    Mr. Coonelly. I agree that those people should be 
prosecuted, and I am quite surprised that they are not.
    Ms. Schakowsky. I have to tell you, I think it is 
absolutely stunning that the official position of the 
representative of baseball coming before this body is to say 
that the worst thing that could happen is just for someone to 
be identified as a steroid user. Clearly, in our culture right 
now, making the majors and being professional athletes, and 
making a ton of money, is worth all these risks of being 
identified as somebody who has used risky and perhaps even 
illegal, as well as unethical behavior. And I am very 
disappointed.
    Mr. Coonelly. I think your analogy of Pete Rose tells the 
story. It is not the 1 year ban that Pete Rose has complained 
of and has gone on his own crusade. It is the fact that he is 
not allowed in the Hall of Fame. It is the historical 
perspective that is important to these individuals.
    Ms. Schakowsky. Incredible.
    Mr. Stearns. The gentlelady's time has expired. The 
gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman. I have got a couple 
questions, and then, I am going to go to my hearing, which has 
started on the third floor.
    Mr. Birch, how--it is my understanding, the NFL, every 
player gets tested.
    Mr. Birch. Correct.
    Mr. Upton. Multiple times. The first violation, they miss 
25 percent of the season. The second violation, it increasingly 
gets more, and as you say, it is most effective. Is that right?
    Mr. Birch. That is correct, sir.
    Mr. Upton. And how long have you had that plan in place?
    Mr. Birch. Since 1987, we initiated----
    Mr. Upton. Terrific. Terrific. That is all I need to hear. 
Ms. Wilfert, I liked what the NCAA has as well. First 
violation, you miss how much?
    Ms. Wilfert. One year of----
    Mr. Upton. One year.
    Ms. Wilfert. [continuing] your 4 years of eligibility.
    Mr. Upton. And the second violation, you're done.
    Ms. Wilfert. Out for life.
    Mr. Upton. So you lose, obviously, you lose your 
scholarship, too. In essence, the death penalty for the NCAA. 
You are done playing.
    Ms. Wilfert. For an individual.
    Mr. Upton. For an individual. I think everyone here, 
Republican or Democrat, would--supports that. And we were very 
disappointed, again, as we watched this, us baseball fans, very 
disappointed the way that baseball ended up, particularly 
knowing that you all were on notice. It is my feeling that the 
players unions were much to fight about it. Is that right, Mr. 
Coonelly? I mean, they--did they object? Were they dragged 
along kicking and screaming with what you ended up?
    Mr. Coonelly. Well----
    Mr. Upton. Could you have gone for more?
    Mr. Coonelly. I wouldn't constitute as come along kicking 
and screaming, and in fact, as I indicated, it was 
unprecedented that this was a midterm change in a collective 
bargaining agreement. The Players Association----
    Mr. Upton. Though you have had it----
    Mr. Coonelly. [continuing] negotiates hard.
    Mr. Upton. [continuing] since 1987 in the NFL, almost 20 
years. Why couldn't we get this same deal for baseball?
    Mr. Coonelly. Congressman Upton, we did propose this in 
previous collective bargaining negotiations, and----
    Mr. Upton. But did the players union say no?
    Mr. Coonelly. [continuing] and the Players Association 
objected to the----
    Mr. Upton. Okay.
    Mr. Coonelly. Yes, at that time, yes.
    Mr. Upton. You know, I wish, and as Chairman Stearns said, 
we are going to have additional hearings on this, and if we 
have to pursue legislation, I certainly intend to be part of 
that struggle. But I will tell you the other thing that 
disturbs me, is that, you know, when--MLB says you want to do 
it right. You are proud of what you have now accomplished, and 
yet, the Commissioner, Mr. Selig, refuses to come and testify 
to the committee, when he was asked.
    If you wanted to do it right, I think that it should have 
fallen on his shoulders to have him brag about what they have 
done, particularly in light of what the NFL, as well as the 
NCAA has done. And the other thing that I want to say, too. You 
know, I am one of those guys that reads the sports section 
first, and when I got this Washington Post this morning, before 
6, my curb, MLB Union Fight House Order. ``Lawyers for MLB 
vowed Wednesday to fight efforts by a House committee to compel 
seven current and former members to testify.'' I want the 
players union to come testify. I want them to tell us why they 
didn't want to go further. And with MLB not sending the top guy 
here, and not allowing for the players themselves to come 
testify, and to join their side, when in fact, in your own 
testimony, you cite Sean Casey, Johnny Damon, and others, Mike 
Piazza. You use their comments, so that you can use their 
testimony in your testimony, but we can't ask other players 
what the deal is, to ask them how many players might cheat.
    Mr. Coonelly. Congressman Upton, I would note that Donald 
Fehr, the executive director of the Players Association, has 
agreed to testify at the hearings next week.
    Mr. Upton. But why do you guys side with them? And my staff 
was--some counsel from the MLB was on the radio this morning, 
and he was, I think the words of my staff was, he was really 
deliberate in making--vociferous in that they shouldn't come 
testify.
    Mr. Coonelly. Well, I heard Mr. Brand on Baseball----
    Mr. Upton. I didn't hear it. I just heard----
    Mr. Coonelly. I heard him on the radio as well, and there 
are important privacy issues relating to the drug testing 
program that has been instituted----
    Mr. Upton. But if you want to do it right, why shouldn't 
they be exposed, if--to send a signal so that we don't have 
another young boy, somewhere in America, die, as we heard in 
the testimony earlier this morning?
    Mr. Coonelly. Congressman Upton, I would respectfully 
suggest that the strongest signal that can be sent here today 
is that we have agreed on a new, tough, rigorous testing 
program. That testing program is going to do away with 
steroids----
    Mr. Upton. You know what. We don't believe it. 10 games is 
not enough. A corked bat, with steroid use, is not enough. It 
ought to be what the NCAA has done. It ought to be what the NFL 
has done. They have sent the signal to their players that they 
are not going to allow this to continue to happen.
    Mr. Coonelly. I have heard that view expressed here today, 
Mr. Congressman, and this is, and will be part of future 
collective bargaining negotiations, and I take your point.
    Mr. Upton. My time has expired. I yield back.
    Mr. Stearns. I thank the gentleman. The full chairman.
    Chairman Barton. Has Mr. Engel gone yet?
    Mr. Stearns. I think, as a policy, Mr. Engel is not a 
member of the subcommittee----
    Chairman Barton. Oh.
    Mr. Stearns. [continuing] on Commerce and Consumer 
Protection and Trade, nor on the--Health, so what I was going 
to do was take all the members who are, and then come to him.
    Mr. Upton. Would the chairman yield just 1 second?
    Mr. Stearns. I would be glad to yield.
    Mr. Upton. Is Mr. Engel waiting for my hearing? We have 
actually moved it to upstairs, if you want to go with me.
    Chairman Barton. I am going to go to the hearing as soon as 
this hearing is done. Yes. But I have two other questions. I 
have two questions that I want to ask.
    Mr. Stearns. I have two hearings. We have an Energy and Air 
Quality hearing, and Telco hearing, so----
    Chairman Barton. Yes.
    Mr. Stearns. But with that----
    Chairman Barton. This is a great committee.
    Mr. Stearns. I didn't want to go out of order with Mr. 
Engel, but if he is not a member of the subcommittee.
    Chairman Barton. I will wait. It is fine.
    Mr. Stearns. Take my time.
    Chairman Barton. Thank you. Well, first of all, I want to 
thank you all for testifying voluntarily. We can subpoena, too. 
It is--this committee has used the subpoena authority, and if 
we need to, we will, but we try to do things in a cooperative 
fashion, so I appreciate you all being here.
    My first question is to the gentleman who is the head of 
the Anti-Doping Agency. How long can you detect the traces of 
steroids in an athlete's system after they stop taking them?
    Mr. Hale. The--it depends on the root, as was explained to 
you earlier, whether it is an oral compound, or whether it is 
an injectable compound. In most instances, you are probably 
looking at 72 to 96 hours. However, it is a constant use of a 
steroid, it changes what we call the testosterone, 
epitestosterone level. We can evaluate that up to several 
months following that, and there is recently some research 
being done on something called the carbon isotope ratio. Most--
without going into the chemistry involved, most of the steroid 
compounds are based on a vegetable background, and therefore, 
they have a different isotopic formula than those that are on--
used from humans. And that is what we usually use to see if 
there has been a long-term use of steroids.
    Chairman Barton. Well, you know, obviously, the initial 
reaction to any kind of a problem like this is to have a 
testing program, and make sure that it is accurate, and you 
have very few false positives, and things like this. But it 
doesn't do too much good to claim you have a testing program if 
it is fairly easy to get around the test, because you take the 
test once a month, or once a year, or--so, I guess my question 
to my two friends from the major leagues, from the football, 
NFL, and Major League Baseball, are you all serious about a 
testing program that could actually catch people?
    Mr. Coonelly. Well, let me----
    Chairman Barton. Not just on paper, that--but that you 
would actually set the program up, so that if they are using 
something they are not supposed to be, you will catch them.
    Mr. Coonelly. Let me start, and indicate, as I indicated in 
my opening, that our testing program now uses gold standard 
WADA laboratories to do the testing. We use the most 
sophisticated testing that----
    Chairman Barton. I am not talking about the type of test. I 
am talking about the frequency of testing.
    Mr. Coonelly. And on that point, we also address that point 
as well, by putting in a program that now, a player doesn't 
know at all during the season or during the off-season, that he 
can't be tested. A player can be tested on multiple occasions, 
unannounced, random testing. There is never a point in time 
when the player can say I have been tested 3 times this year, 
so I know I won't be tested this week. That player can be 
tested throughout the year, regardless of how many times he has 
been tested.
    Chairman Barton. Mr. Birch.
    Mr. Birch. Yes. I would agree with that, to the extent that 
our testing program has a host of safeguards and checks to 
prevent predictability, and to ensure that that deterrent value 
is there, and that if, in fact, when that person tests, they 
have used a substance, that we will find it.
    Chairman Barton. All right. Let us just, hypothetically, on 
average, in Major League Baseball, if you have a random testing 
program, which it sounds to me like, it is what you--how often 
would a major leaguer expect it, not knowing when, but in the 
course of a season, how often might he be tested, on average, 
with your random program?
    Mr. Coonelly. On average, that player would be tested 2 to 
3 times.
    Chairman Barton. 2 to 3 times. And----
    Mr. Coonelly. But the--but he could be tested as many as 4 
to 5 times.
    Chairman Barton. We understand that. But somebody is going 
to be tested almost every day, we just don't know who it is.
    Mr. Coonelly. It wouldn't be almost every day, because our 
season is 183 days, but it is throughout the season, and during 
spring training, the time that we are in right now.
    Chairman Barton. But over the course of the season, a Major 
League Baseball player could expect to be tested 2 or 3 times 
from spring training through the World Series.
    Mr. Coonelly. Correct.
    Chairman Barton. Not knowing when. What about the NFL?
    Mr. Birch. Well, our testing is by a random draw. It would 
be at least, I would say, a minimum of 4 or 5, a maximum, it 
could be anywhere, probably 15, 16. I mean, we have--it 
really--there is no maximum limit to it. It just--it is how 
many times it comes up during--on that computer draw.
    Chairman Barton. Okay.
    Mr. Birch. But it certainly is a very wide range.
    Chairman Barton. Okay. And what about if there is reason to 
believe, are there rules in the collective bargaining agreement 
if somebody feels there is reason to believe that there is a 
specific individual, can they be tested for cause, and if so, 
what do you have to establish as that cause before they are 
tested?
    Mr. Coonelly. Under our program, there is reasonable cause 
testing, and what you have to establish to a medical committee 
is that there is some reason to believe that this person is 
using steroids.
    Chairman Barton. How long does it take to go through that 
before they are actually tested? Does it take so long that by 
the time they get around to the test, it is out of their 
system?
    Mr. Coonelly. No. If the committee decides that there is 
reason to believe this person is using steroids, he would be 
tested within 1 to 2 days.
    Chairman Barton. Okay. And what about----
    Mr. Birch. We have a reasonable cause program. We can also, 
the clubs can request a player be tested before employment, 
meaning if they are choosing to sign a player, they can get him 
tested prior to signing. We also have a medical, behavioral, 
and legal component that allows for testing if, in fact, there 
are behavioral indications or medical indications, or there 
have been some documented prior involvement with steroids, that 
we learn of, we can----
    Chairman Barton. Well, my time has expired. I just want to 
end up on this note. This is a systemic, endemic program. And 
it is starting in grade school, and it is going through the 
pros. And obviously, when you get to the professional level, 
the short-term pressure to win is so great that it is easy to 
overlook some of these issues, and say, well, we just want to 
win the Super Bowl, or the World Series this year. But if we 
can't get the major leagues to really be role models in a 
positive way, it is going to be darn tough to get the junior 
highs and the high schools and the colleges to do the things 
that they need to do.
    So it has to be a comprehensive effort, and this committee 
is one of the few committees that has enough jurisdiction to do 
it across the spectrum, and as we said earlier, we don't 
normally operate by subpoena. We operate by cooperation. But as 
we pursue this, I want you to take the word back to Mr. 
Tagliabue and Mr. Selig, that at some point in time, if we want 
them to appear, I expect them to appear. Now, we will do it the 
easy way or the hard way, and we want to come up with a program 
that starts in grade school, and goes through the professional, 
and we all work from the same sheet of music, and try to do 
something that in the near term, changes the culture of sport 
in our society.
    I don't want to do that coercively. I want to do it 
cooperatively. And I know many owners of Major League Baseball 
teams and NFL football teams, and I can interact with them on a 
personal basis. But we are probably going to need, at some 
point in time, to have the Commissioner of the NFL and of Major 
League Baseball to appear before this committee, and we hope 
that we can work that out in a cooperative fashion.
    With that, Mr. Chairman, I yield back.
    Mr. Stearns. I thank the Chairman. There is just under 10 
minutes left, and I thought what we would do is let the 
gentlelady from Tennessee use her 5 minutes, and then I, if--I 
am not sure if the gentleman from New York will have enough 
time, because I think after this, we will adjourn the 
subcommittees.
    Ms. Blackburn. Mr. Chairman, if not, can he submit his 
questions?
    Mr. Stearns. The gentleman is--by unanimous consent, can 
submit his questions to----
    Mr. Engel. I just need 1 minute, if we can hurry it up, I 
would be happy to, just----
    Ms. Blackburn. Well, I will be happy to. Thank you, Mr. 
Chairman.
    Mr. Stearns. Just use your time.
    Ms. Blackburn. Thank you very much. I appreciate that. I 
want to thank all of you for being here, and for taking the 
time. This is a topic that I think all of us who are concerned 
about our children, or concerned about role models, are quite 
interested in. And I will tell you, Mr. Coonelly, when I picked 
up this paper today, the Examiner, and the quote on the front 
page, where when the baseball stars were called to testify, the 
quote from your main office that was given is that it is an 
absolutely excessive and unprecedented misuse of Congressional 
power.
    Now, with all due respect, sir, to you and baseball, which 
is my husband's very favorite sport, as I said to the earlier 
panel, if the private sector and the not for profit sector does 
not tend to an issue, then that is when you are going to see 
government become involved. And I feel like there are two 
reasons we are here today. One is Balco, and the other is 
baseball. And I pulled the transcript of the 60 Minutes 
interview with Victor Conte, and read back through that. And I 
pulled some of the newspaper articles that have been--it is 
amazing the amount of coverage that the steroids issue has 
given, and the misuse, and the abuse has received out there.
    And then, you know, there is Jose Canseco's book, and there 
is all the discussion of if there is going to be an asterisk 
placed by his name, and if we are going to see his title given 
to Jeff Greenwell, who, you know, the 1988 MVP title, if that 
is going to be given to somebody else or recognized, if there 
is an asterisk by his name. And all of that just dilutes the 
excitement of what should be our Nation's favorite pastime.
    And reading in the paper today, and by the way, you may 
want to read that. I think there are 4 or 5 different articles 
in there on this issue, it leads me to ask you this question. 
You talk about the minor leagues having a zero tolerance 
policy, and then in your testimony, you talk about the majors 
are getting better.
    So my question to you, sir, very quickly, is this. Are you 
all just going to be getting better, or are you going to sit 
there and wait until Congress decides that a zero tolerance 
policy has to be enacted, and what is your course of action?
    Mr. Coonelly. Congresswoman Blackburn, first, I am glad to 
hear that your husband is a fan of Major League Baseball. 
Second, our policy at the major league level is a zero 
tolerance policy. As a result of negotiations with the Players 
Association, the penalties are less strict than they are at the 
minor league level, but the goal, the policy, is zero 
tolerance, and that is where we are, that is where the policy 
is today. As I indicated, it is a matter subject to collective 
bargaining, and the bargaining agreement will be negotiated 
again, and I have taken the points made by the members of this 
committee.
    Ms. Blackburn. With all due respect, sir, a slap on the 
wrist, and sitting in the timeout corner for a few moments is 
probably not viewed by the public as zero tolerance.
    Thank you very much for being with us today.
    Mr. Stearns. I thank you. And if the gentleman wants to 
take a minute, we will be glad to give him a minute.
    Mr. Engel. Yes. Thank you, Mr. Chairman.
    First of all, I want to agree with everything that has been 
said here. I am a big baseball fan myself. Mr. Coonelly, if 
Pete Rose is banned from the Hall of Fame for gambling, why 
should not someone be banned from the Hall of Fame for steroid 
use?
    Mr. Coonelly. Well, that is an interesting question, 
Congressman. I think drug use and drug abuse has always been 
treated differently by all professional sports, and even by 
amateur athletes. As I indicated, the difference between 
amateur athletics, whether it be the Olympics or the NCAA, is 
that they don't have employees who they have to negotiate with 
unions. And that is why, as this continuum that was noted by 
the chairman, in that the amateur athletes, the penalties are 
stronger, and when you get to football and baseball, the 
penalties are less strong. It is because we negotiate with 
professional unions that negotiate on behalf of rights of their 
individual members.
    Mr. Engel. But you see, if someone has a drug dependency, I 
can almost say, you know, they are really sick, and perhaps, we 
should be more lenient, because we have got to get them away 
from their dependency. This isn't a dependency, this is a 
conscientious effort--a conscious effort, excuse me, to do this 
to enhance. And you know, Dr. Hale, you said in your testimony, 
is the cost of being caught and disciplined greater than the 
rewards gained from using the compounds? And I think that the 
feeling is that it probably is not, and I just don't 
understand. I realize there are negotiations, but I don't--I 
think 10 days, a second time they are caught, 30 days, a third 
time, they are caught, 60 days, a fourth time, they are caught, 
1 year. I mean, that is ridiculous. I mean, if you are caught 
so many times, why shouldn't you be banned?
    Mr. Stearns. I thank the gentleman.
    Mr. Engel. Thank you.
    Mr. Stearns. We are going to close up shop. I just conclude 
by saying I think the major--the baseball league has not been 
aggressive enough, and in fact, has been deliberately slow, it 
would appear, and I think as a quote, they are at the bottom of 
the lineup, and the amateurs appear to be at the top.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 1:48 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

                                                     April 26, 2005
The Honorable Cliff Stearns
Chairman
Subcommittee on Commerce, Trade, and Consumer Protection
2125 Rayburn House Office Building
Washington, DC 20515

The Honorable Nathan Deal
Chairman
Subcommittee on Health
2125 Rayburn House Office Building
Washington, DC 20515

Re: ``Steroids in Sports: Cheating the System and Gambling Your 
Health''
    Dear Chairmen Stearns and Deal: On behalf of the National Football 
League, I would like to again thank the Subcommittees for inviting me 
to participate in last month's hearing. This will respond to the 
additional questions put forth in your letter dated April 11, 2005:
    Question 1. What is your testing policy for college players who 
attend the NFL scouting combine? Can you test them as a pre-condition 
for attending the combine?
    Response: Although college players who are invited to attend the 
combine are not employees of the NFL, all invitees are tested for 
performance-enhancing substances, as well as for substances of abuse. 
Players who test positive for performance-enhancing substances are 
reported to the Clubs and are placed on reasonable cause testing.
    In addition, college players who are not invited to the combine may 
be given a pre-employment test at the request of a Club and will be 
given an annual test upon joining the team, if they are signed to a 
contract after the annual testing for that Club has concluded.
    In all cases, players will also go into the random steroid testing 
pool upon joining the Club.
    Question 2. Please describe the testing procedures the NFL employs 
regarding the randomness of testing in season. Specifically, please 
provide data regarding the percentage of tests conducted for each day 
of the week during the 2004 season (from training camp through the 
Super Bowl) and the percentage of tests conducted for each team on each 
day.
    Response: Beginning the week of the first preseason game (usually 
the first week in August) and continuing through the playoffs and Super 
Bowl for the participating teams, random tests are conducted on 7 
players per Club per week. Players are selected via a randomization 
program which ensures that every player is subject to be chosen 
regardless of how often he was chosen previously. There is no limit to 
the number of times a player may be selected and tested during the 
course of the season.
    To detect and deter the use of stimulants during games, a portion 
of the selected players per week is always tested on the day 
immediately following the game (usually Monday or Tuesday). The 
remaining tests occur at the discretion of the Advisor and are 
conducted between Monday and Friday.
    We do not maintain data showing the specific percentages of tests 
conducted on each day of the week. Moreover, to the extent that such 
data could be assembled, its dissemination could potentiality undermine 
the effectiveness of the policy by allowing a player to attempt to 
calculate his odds of being tested on a particular day.
    Question 3. Who conducts the testing program for the NFL (i.e., is 
the program conducted by a contracted entity, what lab is used, etc.)?
    Response: The NFL's program is a comprehensive but tightly 
structured one that encompasses player selection, notice, collection, 
analysis and results management. The administration of the policy 
including player selection and testing is conducted under the direction 
of Dr. John Lombardo, who has been jointly approved by the League and 
NFL Players Association and who has more than 25 years of experience in 
the field. The collection of specimens is conducted by a group of Drug 
Programs Agents we have retained in every Club city. These DPAs have 
law enforcement backgrounds (usually DEA or FBI) and receive continuing 
training in proper specimen collection techniques. Neither the NFL, NFL 
Players Association, nor any team has a role in the selection of 
players to be tested or the collection of their specimens.
    Once collected, the specimens are analyzed at the UCLA Olympic 
Laboratory--currently the only WADA-certified lab in the country--under 
the direction of Dr. Don Catlin. The analytical processes and 
techniques are further reviewed and certified by Dr. Bryan Finkle, 
Chief Toxicologist to the NFL's steroids and substance abuse programs, 
who has more than 40 years' experience in forensic toxicology and 
doping control.
    Additionally, we maintain a standing Advisory Committee comprised 
of leading experts in the field. The Advisory Committee meets 
periodically to evaluate and consider developments in testing 
technology and trends in use. Based on its recommendations, the program 
is updated and modified on an ongoing basis.
    Thank you again for your interest in the NFL's steroid program and 
if you would like further information, please do not hesitate to 
contact me.
            Sincerely,
                                       Adolpho A. Birch III
                                            Labor Relations Counsel
cc: Joe Browne
   Dennis Curran
                                 April 
                                 27, 
                                 2005__
                                 
The Honorable Cliff Stearns
Chairman
Subcommittee on Commerce, Trade, and Consumer Protection
2125 Rayburn House Office Building
Washington, DC 20515

The Honorable Nathan Deal
Chairman
Subcommittee on Health
2125 Rayburn House Office Building
Washington, DC 20515

    Dear Chairman Stearns and Chairman Deal: As you have requested, I 
respectfully submit for the record the following responses to the 
questions submitted by Chairman Stearns and Member Blackburn following 
the Subcommittees' March 10, 2005 hearing ``Steroids In Sports: 
Cheating The System And Gambling Your Health.''

                QUESTIONS SUBMITTED BY CHAIRMAN STEARNS

    Question: MLB unilaterally instituted a drug-testing program for 
the minor leagues in 2001 because minor league players are not 
unionized. Why did the league wait until 2001 to implement a drug 
testing policy for the minors?
    Answer: In 1991, the Commissioner added steroids to the list of 
substances that were prohibited under his unilaterally-implemented 
Commissioner's Drug Policy. This Drug Policy was applicable to minor 
league players. Although the Commissioner's Drug Policy permitted the 
Office of the Commissioner to subject minor league players to 
unannounced testing for illegal drugs, including steroids, this Office 
did not implement comprehensive drug testing at the minor league level 
until 2001. At least part of the reason for this was the fact that many 
individual Major League Clubs had instituted drug testing programs 
covering their minor league players and these programs tested for 
steroids as well as other illegal drugs. In addition, the 
implementation and administration of a comprehensive, wall-to-wall drug 
testing program in the minor leagues was an enormous undertaking. There 
are over 160 affiliated minor league teams and more than 6,000 players 
signatory to a minor league contract. In the late 1990s, however, the 
Commissioner became concerned that the testing conducted at the 
individual Club level was not sufficient to address what appeared to be 
more than an isolated issue. As a result, the Commissioner consulted 
with outside experts and gathered information about the prevalence and 
patterns of steroid use by players. This process led to, among other 
steps, the promulgation and implementation in 2001 of the comprehensive 
Minor League Drug Prevention And Treatment Program. To put this 
undertaking into some perspective, we expect to conduct approximately 
8,400 drug tests of minor league players in 2005.
    Question: Please provide aggregate data regarding the number of 
minor league players suspended for a violation of the league's drug 
policy since 2001. Please identify the number of minor league players 
suspended for a positive steroid test for each year since 2001.
    Answer: Since 2001, 186 players have been suspended for violating 
the Minor League Drug Prevention And Treatment Program. Of these 186 
players, 165 players were suspended for a positive steroid test. In 
both responses, we have counted every suspension as an event so that if 
a player has been suspended on two different occasions, that player 
would be counted twice.
    Question: Please identify how many players, if any, tested positive 
for each year under the minor league testing program that were on the 
40 man roster of a major league team at the time of their positive 
test.
    Answer: A Player who is on a 40-man Major League roster but whose 
contract has been optionally assigned to a minor league affiliate is 
considered, for purposes of the Clubs' bargaining relationship with the 
Major League Baseball Players Association (``MLBPA''), to be a Major 
League Player covered by the collective bargaining agreement between 
the 30 Major League Clubs and the MLBPA. Therefore, no player on a 40-
man roster of a Major League Club is tested under the Minor League Drug 
Prevention and Treatment Program. Instead, these players are tested 
exclusively under the Major League Joint Drug Prevention and Treatment 
Program.

                QUESTIONS SUBMITTED BY MEMBER BLACKBURN

    Question: If it is proven through the BALCO investigation or by 
other means that some current or future baseball record holders or 
former MVP's were using steroids while reaching their record marks, is 
baseball prepared to write anyone out of the record books? How would 
baseball handle that situation?
    Answer: With all due respect, this is a decision that only the 
Commissioner can make. To date, the Commissioner has indicated that he 
is not prepared make a decision on the record books based on the 
information that is currently available.
    Follow-up Question: Will baseball address the Jose Canseco 1998 MVP 
award with an asterisk or some other designator as a result of his 
admitted steroid use during that season?
    Answer: Again, this is a question that only the Commissioner can 
answer. To date, the Commissioner has not been prepared to place an 
asterisk or some other designator next to the MVP award that Mr. 
Canseco received in 1988. It is important to note that Baseball does 
not determine postseason awards. They are voted on and given by the 
Baseball Writers' Association of America (``BWAA'').
    Question: I commend you for the recent steps in toughening your 
steroid policies. It definitely is a step in the right direction and 
sends a good message to our nation's youth. Although, in that policy 
you reference a penalty for a first positive being a 10 day suspension. 
As you know, the NFL has a 4 game suspension, equivalent to a month and 
, of the season, which is significantly longer than baseball. How did 
you come to the 10 day number?
    Answer: When we negotiated with the MLBPA over the first Joint Drug 
Prevention And Treatment Program in 2002, the Commissioner sought a 
more significant penalty for first-time offenders (and subsequent 
offenders). Similarly, when we opened mid-term negotiations over the 
Joint Drug Prevention and Treatment Program in 2004, the Commissioner 
again sought a longer suspension for first-time offenders (and 
subsequent offenders). The MLBPA was unwilling to agree to any 
discipline for a first-time offender in 2002. By 2004, the MLBPA was 
prepared to agree to discipline for a first offense but was unwilling 
to agree to a penalty of more than a ten-day suspension for a first 
violation. The 10-day suspension for a first-time offender was, in 
short, the best compromise that we could make with the limited 
bargaining leverage that we possessed during this last round of mid-
term bargaining. In assessing the significance of the ten-day 
suspension, it is important in our view to remember that the MLBPA was 
under no legal or contractual obligation to negotiate any changes to 
the Joint Drug Prevention and Treatment Program during the term of our 
collective bargaining agreement, which will not expire until after the 
2006 season. Under these circumstances, agreeing to move from a regime 
of no discipline for a first offense to one with a ten-day suspension 
without pay was significant. The Commissioner remains committed to 
increasing the penalties for offenders.
            Very truly yours,
                                        Francis X. Coonelly
                   Senior Vice President and General Counsel--Labor
                                 ______
                                 
  Responses for the Record by Dr. Ralph Hale, Chairman, United States 
                           Anti-Doping Agency

             1. The percentage of tests conducted In-competition and Out-of-competition during 2004
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
2004.................................  In-Competition 42%.....
                                       OOC 58%................  52% No-Notice..........  6% Short Notice
----------------------------------------------------------------------------------------------------------------


 2. The Number of tests conducted and the number of athletes tested for
                       calendar years 2003 & 2004
------------------------------------------------------------------------
                                    Total number of
                                         tests          Athletes tested
------------------------------------------------------------------------
2003............................               6890                3982
2004............................               7630                4234
------------------------------------------------------------------------


   3. The Number and percentage of tests conducted for each of the five most tested Olympic Sports during 2004
----------------------------------------------------------------------------------------------------------------
                                                        Total number of
                        Sport                                tests          % of all tests      Athletes tested
----------------------------------------------------------------------------------------------------------------
Track & Field.......................................               1618                 21%                 823
Swimming............................................                706                  9%                 377
Cycling.............................................                526                  7%                 267
Weightlifting.......................................                388                  5%                 166
Rowing..............................................                335                  4%                 165
Total of 5..........................................               3573                 47%                1798
Total tests conducted by USADA......................               7630                100%                4234
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                                                     April 14, 2005
The Honorable Cliff Stearns
Chairman
Subcommittee on Commerce, Trade and Consumer Protection
Energy and Commerce Committee

The Honorable Nathan Deal
Chairman,
Subcommittee on Health
Energy and Commerce Committee

Subject: Answers to questions submitted by Rep. Blackburn

Question 1
    You mentioned that \1/3\ of high school steroid users do not 
participate in interscholastic sports.
    What is the primary motivation for use by this group?
    The answer here is pretty straight forward. Teenagers just want to 
be bigger. The motivation for this group is not necessarily to excel in 
a sport. The motivation is often simply to be bigger, stronger, and 
``better built'' and to impress members of the opposite sex. Teenagers 
not only see athletes they want to emulate, but entertainers, body 
builders and others. With the growth in the workout business in recent 
years, teenagers have more exposure to the culture of muscle building. 
As I mentioned in my testimony, most high school student have little 
sense of mortality, they don't believe or understand the harms and they 
simply just want to be bigger.
    In your report you mentioned that the National Institute on Drug 
Abuse survey reported an increase in use and a decrease in the 
perceived harm by 10th graders. Your examples cited multiple potential 
reasons for increase in use but very little in regards to why 
individuals would perceive it to be less harmful
    Why do you think the perception has grown? Could use by 
professional athletes by the cause?
    After a career of more than 40 years working with high schools and 
high school students, I would never underestimate the impact of popular 
culture on young people. Use of performance enhancing drugs by 
professional athletes and the milestones they achieve is a big part of 
the reason that the perception of harm is low. If pop culture icons who 
are older, more experienced and presumably smarter do it, it must be 
OK.
    You mentioned that the Anabolic Steroid Control Act of 2004 was a 
step in the right direction. One portion of that bill was intended to 
award grants to enable public and nonprofit entities to carry out 
science-based education programs in elementary and secondary schools to 
highlight the harmful effects of anabolic steroids.
    Describe the effectiveness of both the criminal provisions as well 
as the grant programs.
    First regarding the criminal provision. We believe that such laws 
can be effective deterrents to steroid abuse. We fully approve of the 
section that amends the Controlled Substances Act to expand the list of 
substances to include products such as THG and Andro. With respect to 
the grant programs this is absolutely the course of action. We need to 
enable organizations like ours to improve and enact comprehensive 
education programs to communicate the harmful effects of anabolic 
steroids. We strongly support full funding of this provision of the 
Anabolic Steroid Control Act of 2004 and look forward to participating 
in this program.

                                            Robert Kanaby  
                                               Executive Director  
              National Federation of State High School Associations
                                 ______
                                 
                                                     April 25, 2005
The Honorable Cliff Stearns
Chair, Subcommittee on Commerce, Trade and Consumer Protection
The Honorable Nathan Deal
Chair, Subcommittee on Health
U. S. House of Representatives
2125 Rayburn House Office Building
Washington, DC 20515-6115
    Dear Chairmen: As requested, enclosed are my responses to your 
questions regarding the NCAA drug-testing programs. The NCAA supports 
all efforts to address the problem of doping in sport, and will be 
available to provide additional information as requested.
    Please do not hesitate to contact me if you need any clarification 
of my responses. I can be reached at 317-917-6319 or m.
            Sincerely,
                                          Mary E. Wilfert  
                                                    Chief Liaison  
  Committee on Competition Safeguards and Medical Aspects of Sports
Enclosure

   RESPONSES TO QUESTIONS FROM CONGRESSMAN STEARNS RE: THE NCAA DRUG 
                            TESTING PROGRAM

Percentage of tests conducted for each sport in the most recent 
        academic year.
    In the 2003-04 academic year, the most recent academic year for 
which drug-testing numbers are available, the NCAA conducted 10,574 
drug tests of student-athletes in the year-round testing program and in 
the championships testing program. In 2003-04, all Divisions I and II 
football and Division I men's and women's track and field teams were 
tested in the year round program.
    In 2003-04, 39,569 student-athletes participated in Divisions I and 
II football; 19% of these athletes were drug tested through the NCAA 
year-round and championship testing programs. 38,736 student-athletes 
participated in Division I men's and women's track and field; 6% of 
these athletes were drug tested through the NCAA year-round and 
championship testing program.
    In 2003-04, approximately 31,000 student-athletes participated in 
championship events other than football and track and field. 
Approximately 2.6% of these student-athletes were drug tested through 
the NCAA Championship testing program. Beginning in 2004-05, all 
Divisions I and II sports teams are being tested in the year-round 
program, which will increase the number of total tests conducted in 
each sport.

Is a student-athlete whose eligibility has expired, but is still 
        enrolled, tested?
    If a student-athlete has no more eligibility remaining, or will no 
longer be able to participate in intercollegiate athletics due to 
injury, there is no longer an issue of competitive equity or risk of 
loss of eligibility. Therefore, according to NCAA Drug-Testing Protocol 
4.4.1.1, student-athletes listed on the squad list who have exhausted 
their eligibility or who have career-ending injuries will not be 
selected [for drug testing].
According to Ms. Wilfert's testimony ``The NCAA manual states that it 
        is the responsibility of each member institution to protect the 
        health and safety of and provide a safe environment for each of 
        its participating student-athletes.'' Has the NCAA sanctioned 
        any member institution for failing to provide a safe 
        environment for its student-athletes on the basis of positive 
        steroid tests by its student-athletes?
    It is the institution's responsibility to educate student-athletes 
about NCAA drug-testing policies. It is the student-athlete's 
responsibility to follow that policy. A member institution's athletics 
department staff members or others employed by the intercollegiate 
athletics program who have knowledge of a student-athlete's use at any 
time of a substance on the list of banned drugs shall follow 
institutional procedures dealing with drug abuse or shall be subject to 
disciplinary or corrective action, ranging from public reprimand to 
loss of membership in the Association. (Bylaw 19.5.2.2)Institutions 
have been required to review and/or revise their drug-testing and 
educational policies to ensure compliance and sufficient education. In 
addition, institutions have been required to issue a letter of 
admonishment to the individual(s) responsible for the violation.
    The NCAA takes a strong position on the use of nutritional 
supplements, warning student-athletes of the following:
          ``Many nutritional/dietary supplements contain NCAA banned 
        substances. In addition, the U.S. Food and Drug Administration 
        (FDA) does not strictly regulate the supplement industry; 
        therefore purity and safety of nutritional/dietary supplements 
        cannot be guaranteed. Impure supplements may lead to a positive 
        NCAA drug test. The use of supplements is at the student-
        athlete's own risk. Student-athletes should contact their 
        institution's team physician or athletic trainer for further 
        information.''
    In addition, the NCAA places restrictions on its member 
institutions in providing nutritional/dietary supplements to student-
athletes, under Bylaw 16.5.2.
    There have been cases where an institutional staff member provided 
an impermissible substance to student-athletes, or allowed student-
athletes to purchase impermissible substances at a reduced rate (e.g., 
protein shakes, creatine). In response to those cases, the involved 
staff members have been suspended from their coaching duties for one or 
two contests, and/or received letters of reprimand. In addition, the 
institutions have been required to conduct rules review sessions with 
the athletics training staff and strength coaches concerning the use of 
supplements and, if necessary, develop policies and procedures 
regarding the use of nutritional supplements by student-athletes.

What sanctions can the NCAA take against member institutions whose 
        athletes have tested positive for steroids?
    Under NCAA Bylaws 14.1.1.1 and 18.4.1.5, the institution must 
declare ineligible a student-athlete who tests positive by the NCAA for 
banned substances. Once the institution is notified of the results of a 
positive drug test, the institution must withhold the student-athlete 
from competition for a minimum of 365 days. If the institution 
continues to play a student-athlete after notification of the positive 
drug test, the institution will be sanctioned under the provisions of 
Bylaw 14.11.3, which identifies failure to withhold such a student-
athlete from competition as a violation of the conditions and 
obligations of membership. If a coach willfully plays an ineligible 
player, the penalties may range from the suspension of the coach to the 
loss of scholarships permitted to be awarded by the institution.

Does the NCAA plan to introduce penalties on member schools if their 
        teams' athletes have competed unfairly by using steroids?
    The NCAA has regulations in place to penalize member schools who 
violate the NCAA drug-testing policy (see above.) The NCAA member 
institutions have adopted the NCAA drug-testing legislation, and may, 
through the legislative process, amend NCAA drug-testing legislation.

Can the NCAA require steroid testing of all prospective student-
        athletes, prior to the athletes' enrollment in the NCAA member 
        school, as a pre-condition of entering the NCAA's initial 
        eligibility clearinghouse?
    NCAA drug-testing policy requires that a student-athlete annually 
sign a drug-testing consent form prior to practice or competition or by 
the Monday of the fourth week of classes, in which the student-athlete 
consents to be tested for the use of drugs prohibited by NCAA 
legislation. NCAA protocol does not allow for drug-testing of 
individuals who have not matriculated to a member institution, as the 
member institution is the vehicle through which the consent form and, 
in the event of a positive drug test, the declaration of ineligibility 
and withdrawal from competition is accomplished. The NCAA member 
institutions have adopted the NCAA drug-testing legislation, and may, 
through the legislative process, amend NCAA drug-testing legislation.
                                 ______
                                 
   Response for the Record by Sandra Worth, on Behalf of the ational 
                     Athletic Trainers Association

                        REPRESENTATIVE BLACKBURN

    Question: In your testimony you mentioned that legal, ethical and 
sportsmanship boundaries are being obliterated. In a recent interview 
with 60 Minutes, Kelli White, a track and field star that was stripped 
of her medals was asked if she had a moral problem with steroids. She 
responded, ``No because I felt that there are so many people doing it 
that I would be just like one of the others.''
    As a college administrator that sees the direct affect that 
professional athletes have in influencing college athletes, what do you 
believe professional sports leagues and track and field need to do to 
address this issue? Have they done enough?
    Response: Given that steroid use continues to occur among high 
school, college and professional athletes, it would be difficult to say 
that we have ``done enough.'' Clearly, we must do more.
    The financial resources needed to adopt a consistent and effective 
drug testing program at the high school level especially, but also 
among many colleges programs, is a major barrier but I see no reason 
why the professional sports--all of them--cannot adopt similar or like 
testing parameters
    Every organization has different banned substances lists, different 
testing panels, different collection processes and different sanctions 
for positive tests. Even at the Olympics, which arguably have the most 
stringent drug testing requirements and most severe penalties, drugs 
are still an issue. As Ms. White's response to the 60 Minutes question 
implies, there are great rewards for success at this level in terms of 
money and prestige. The temptation is too strong for all to refuse, no 
matter how stringent or diligent the testing process. Control of 
illegal performance enhancing drug use in a collegiate setting is far 
more manageable than the professional counterpart where money and 
technology combine. The successful professional athlete has the means 
and the access to these designer drugs. Realistically, you will never 
eradicate drug use in sports--particularly professional sports--
totally.
    We must continue to make education a priority. We must work to 
strengthen drug testing programs and we must encourage all 
organizations to establish and abide by one standard of testing. We 
must continue to make use of our educational resources--from PSAs to 
school curriculum to internet web sites, videos, educational booklets, 
Powerpoint presentations, etc. Unfortunately, the rule breakers, the 
``cheaters,'' are generally one step ahead of the rule makers. Be 
assured that right now, there are labs preparing masking agents that 
help athletes ``pass'' their drug tests. I believe all organizations 
should look to make their positive test penalties as stringent as 
possible. The penalty should be a deterrent in and of itself. A 
baseball player who plays a 160+ game schedule is not impacted by a 10 
day suspension the same way a professional football player who plays 16 
games is affected by a 4 game suspension.
    Steroids remain a problem because they are obtainable, easily in 
fact. When I can order steroids (plus literature on cycling, stacking, 
how to inject, what medications to use to help prevent or minimize 
side-effects, etc . . .) over the internet, that is a problem! I have 
listed several websites below where this information can be obtained. I 
would ask that these sites not appear in the record of this hearing as 
I do not wish to provide these sites with free advertising but I do 
want the Committee to be aware of the fact that they are out there. The 
federal government can again be front and center on this issue by 
aggressively working to eliminate access to these drugs and I would 
hope that the professional and Olympic sports organizations would 
support this not only in spirit but in practice.
    http://www.steroids.com/, www.anabolicsteroids.com; http://
www.elitefitness.com/; http://www.legalsteroids.com/; http://
www.steroid-encyclopaedia.com/; http://www.steroids101.com/; http://
www.veterinarysteroids.com/
    We continue to believe that while the adoption of more uniform drug 
testing standards and more stringent penalties will help significantly, 
the best way to address this problem over the long-term is through 
education.
                                 ______
                                 
                                                     April 19, 2005
The Honorable Marsha Blackburn
Committee on Energy & Commerce
U.S. House of Representatives
2125 Rayburn House Office Building
Washington, D.C.
    Dear Congresswoman Blackburn: This letter is in response to your 
written question regarding my testimony before the joint hearing of the 
Subcommittee on Commerce, Trade, and Consumer Protection and the 
Subcommittee on Health on March 10, 2005.
    Let me begin by stating--I believe that competition is good. It is 
responsible in large part for making our country the great nation that 
it is. Our competitive spirit has facilitated significant advances in 
engineering, medicine, and science. However, competition without moral 
and ethical boundaries can lead to excesses, as we have observed with 
the behavior of some journalists, CEOs, scientists, and politicians, 
among others. In our increasingly secular society, these moral 
boundaries, unfortunately, have become clouded. Situational ethics and 
moral relativism appear to hold a more dominant role in our society, 
and led the late Senator Moynihan to conclude that we have ``down-
defined deviance.'' Thus, morally unbridled competition has resulted in 
a ``win at all cost'' attitude where it is only cheating if you get 
caught, and it can't be cheating if everyone is doing it! In such an 
atmosphere not only is drug use very rational behavior, it can be 
exceedingly profitable for both owners and players in that it can 
enhance the entertainment value of sport by creating bigger than life 
athletes capable of super human feats. In addition, given the banner 
financial years that MLB and the NFL have had--in the presence of major 
drug scandals--it appears that the fans/customers share some good 
amount of culpability regarding the pervasiveness of drug use in sport.
    If I am correct in my assertions, further emphasizing that drug use 
is cheating to elite athletes will have no effect and, short of 
substantial coercion, there is little incentive on the part of owners 
and players to give anything but lip service to this problem. Rather, 
sport sanctioning bodies will likely attempt to ``wait out'' Congress 
and the news media until the focus shifts to other issues of the day.
    If either you or your staff wishes to speak further about this 
issue, please contact me.
            Sincerely,
                              Charles E. Yesalis MPH, ScD  
                        Professor of Health and Human Development  
                                              Penn State University

                                 <all>

</pre></body></html>
